No. __-____

IN THE

Supreme Court of the United States
>>>>
UNITED STATES OF AMERICA,
EX REL . A NDREW G ELBMAN ,
Petitioner,
v.

CITY

OF N EW Y ORK , N EW Y ORK C ITY H EALTH
AND H OSPITALS C ORPORATION ,

Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI

Richard B. Ancowitz
Counsel of Record
LAW OFFICES OF
RICHARD B. ANCOWITZ
Attorneys for Petitioner
110 Great Oaks Boulevard
Albany, New York 12203
518-464-0444
factlaw@yahoo.com
January 15, 2020

i
QUESTIONS PRESENTED
When a Petitioner invokes the False Claims Act
(FCA), 31 U.S.C. § 3729 et seq. (Pet. App. 119a156a), to assert that the Federal Government (“the
Government”) has been defrauded, it is well-settled
that a plaintiff-relator must plausibly allege that
an untrue statement or claim was made to the Government to gain a benefit under a federal benefits
program, e.g. Medicaid program reimbursements.
See § 3729(b)(2)(A) (Pet. App. 121a); Universal
Health Servs., Inc. v. United States ex rel. Escobar,
136 S. Ct. 1989, 1996 (2016).
The Second Circuit determined that Petitioner
failed to allege sufficient specificity in its Second
Amended Complaint and dismissed the same pursuant to FRCP 9(b) and 12(b).
The first question presented is: whether the
pleading standard should be different for False
Claims Act claims against public sector Medicaid
providers than it is for such claims against private
sector Medicaid providers.
The second question presented is: whether the
Second Circuit erred in drawing all inferences in
favor of Respondents rather than drawing all reasonable inferences in favor of Petitioner.
The third question presented is: whether the
scheme of fraud by The City of New York against
the Government as set forth in Petitioner’s Second
Amended Complaint ((Pet. App. 1a-52a) “SAC”)
represents a plausible claim sufficient to avoid dis-

ii
missal as per the standards set forth by this Court
in Ashcroft v. Iqbal, 129 S. Ct. 1937 (2009), Bell
Atlantic Corp. v. Twombly, 127 S. Ct. 1955 (2007),
Escobar, 136 S. Ct. 1989, 1996 (2016) and FRCP
9(b).

iii
PARTIES TO THE PROCEEDING
As per Rule 14.1(b), a list of all parties to the proceeding in the court whose judgment is sought to be
reviewed is contained in the caption of the case.
CORPORATE DISCLOSURE STATEMENT
Not applicable. Appellant-relator is not a corporation.

iv
TABLE OF CONTENTS
Page

QUESTIONS PRESENTED ..........................

i

PARTIES TO THE PROCEEDING ...............

iii

CORPORATE DISCLOSURE
STATEMENT ...........................................

iii

TABLE OF AUTHORITIES ..........................

ix

PETITION FOR A WRIT OF
CERTIORARI ...........................................

1

OPINIONS BELOW ......................................

1

JURISDICTIONAL STATEMENT ................

1

RELEVANT STATUTE &
REGULATIONS .......................................

1

INTRODUCTION ..........................................

2

STATEMENT ................................................

5

v
Page

I.

The Pleading Standard Set in
Iqbal, Twombley, and Chorches
Does Not Require a Plaintiff-Relator
to Recite Every Manner in which
False Claims were Submitted to
Survive a Motion to Dismiss under
FRCP 9(b). Instead, it Requires a
Baseline of Plausibility, which the
Court of Appeals Turned into a
Virtual Bar ........................................

7

A. Second Circuit Had Earlier
Applied a Single, Sound
Pleading Standard for False
Claims Against Both Public
and Private Actors ......................

7

B. The Order Erects a New
Standard that Largely
Disarms Citizen-Attorney
Generals under The False
Claims Act...................................

9

1.

2.

The SAC details how
Respondent Induced
Alteration of eMedNY’s
Computer Algorithms...........

14

The SAC alleges that the
“peculiar” knowledge giving
rise to the claims at issue
was, of necessity, within the
Respondents’ knowledge.......

17

vi
Page(s)

3.

Petitioner Detailed that
the Claim Submission
Procedure By the City
to the State Was Also,
Simultaneously,
Submission to the Federal
government...........................

19

Claims Set Forth in the
SAC Represent the Final
Status of “Paid” Claims,
and the Second Circuit’s
Improper Speculation As
To Why These Claims
Were Not Defective is
Irrelevant .............................

19

The Respondents Do Not
Dispute the Eligibility
Status of Any Claim .............

21

II. Respondents Failed to Meet the
Standard Imposed by Law For
All Billing Providers Under
Governing State Regulation ..............

22

A. The Respondents Had a Duty
Imposed by Law to Not Submit
Claims on Behalf of Unenrolled
Medicaid Providers .....................

22

4.

5.

vii
Page(s)

B. Respondents Breached Their
Duty, Imposed by Law, to Be
Candid with the Federal
Government ................................

23

C. Respondents Had a Duty
Imposed by Law to Know
the Contents of the Medicaid
Claims at Issue ...........................

24

D. The Law and Relevant
Regulations Recognize
No Difference Between
Public and Private Sector
Providers .....................................

24

SUMMARY ....................................................

25

Reasons for Granting the Petition ...........

27

CONCLUSION ..............................................

28

APPENDIX
Second Amended Complaint ....................

1a

Exhibit B of Second Amended
Complaint ..........................................

53a

Exhibit C of Second Amended
Complaint ..........................................

54a

Court of Appeals Summary Order ...........

77a

viii
Page(s)

Opinion and Order ...................................

94a

31 U.S.C. §§ 3729-3733 ............................

119a

18 NYCRR § 519.18(g) ..............................

157a

18 NYCRR § 518.1(c) ................................

159a

18 NYCRR § 504.1(a)................................

160a

18 NYCRR § 504.3(a)................................

166a

18 NYCRR § 504.3(h) ...............................

168a

18 NYCRR § 540.6(a)(1) ...........................

168a

ix
TABLE OF AUTHORITIES
Page(s)

Cases
Ashcroft v. Iqbal,
129 S. Ct. 1937 (2009)..............................passim
Bell Atlantic Corp. v. Twombly,
127 S. Ct. 1955 (2007)..............................passim
Trs. of Upstate N.Y. Eng’rs v.
Ivy Asset Mgmt.,
843 F.3d 561 (2nd Cir 2016) .................... 10, 18
U.S. ex rel Chorches v. Am. Med.
Response, Inc.,
465 F.3d 71 (2nd Cir. 2017) .....................passim
U.S. ex rel Dick v. Long Island
Lighting Co.,
912 F.2d 13 (2nd Cir. 1990).................13, 25, 27
U.S. ex rel. Feldman v.
City of New York,
808 F.Supp. 2d 641 (SDNY 2011) ............

2, 9

U.S. ex rel. Forcier v. CSC, et al.,
183 F.Supp 3d 510 (SDNY 2016) ............2, 3, 17
U.S. ex rel. Gelbman v.
City of New York,
No. 14-cv-00771 (S.D.N.Y.
September 30, 2018) ................................passim
U.S. ex rel. Gelbman v.
City of New York,
No. 18-3162 (2d Cir. October 17, 2019) ...passim

x
Page(s)

Universal Health Servs., Inc. v.
United States ex rel. Escobar,
136 S. Ct. 1989, 1996 (2016) ....................passim
Statutes
18 NYCRR § 504.3(a)..................................... 24, 26
18 NYCRR § 504.3(h) .................................... 23, 26
18 NYCRR § 518.1(c) .....................................

15

18 NYCRR § 519.18(g)................................... 10, 11
18 NYCRR § 504.1(a)..................................... 22, 26
18 NYCRR § 540.6(a)(1) ................................

16

28 U.S.C. § 1254(1). .......................................

1

31 U.S.C. §§ 3729-3733 .................................passim
Rules
FRCP 12(b) ....................................................

9

FRCP 9(b)......................................................passim

PETITION FOR A WRIT OF CERTIORARI
Petitioner United States of America, ex rel.
Andrew Gelbman, respectfully petitions this Court
for a writ of certiorari to review the decision of the
United States Court of Appeals for the Second Circuit in this case.
OPINIONS BELOW
The opinion of the Court of Appeals is unreported
but is contained at Pet. App. 77a.
The district court’s opinion dismissing the second
amended complaint is unreported but is contained
at Pet. App. 94a.
JURISDICTIONAL STATEMENT
The United States Court of Appeals for the
Second Circuit entered its opinion and judgment on
October 17, 2019. This Court has jurisdiction pursuant to 28 U.S.C. § 1254(1).
RELEVANT STATUTE & REGULATIONS
This petition involves provisions of the False
Claims Act, 31 U.S.C. §§ 3729-33, as well as regulations involving the submission and payment of
Medicaid claims to the United States of America.
The relevant provisions are reproduced at Pet.
App. 119a-157a.

2
INTRODUCTION
This case is different than virtually every other
case ever brought under the modern-day False
Claims Act.1 The dispositive difference here is that
multiple public actors, not private actors, falsely
submitted 22,782,174 distinct claims, amounting to
$14,222,457,278 in federal funds, as properly
payable, when in fact they all contained fatal
defects that should have resulted in their denial.
These defects were known to all the governmental
actors in question except for the United States.
In administering the Medicaid program, the
United States has historically relied on the truthfulness of other governmental actors and, indeed,
the program continues to rely on such truthfulness.
Atypical medical false claim involves a private
actor, such as a health care provider, that submits
a claim containing some infirmity or defect, and
disguises the same to mislead the Government in
order to obtain reimbursement or payment. See
U.S. ex rel. Chorches v. Am. Med. Response, Inc.,
465 F.3d 71 (2nd Cir. 2017). Whether the misconduct is committed by a private or public actor is
irrelevant to the standard of review. See U.S. ex
1

Cf. U.S. ex rel. Feldman v. City of New York, 808
F.Supp. 2d 641 (SDNY 2011) [making a false or fraudulent
statement in support of claim submitted to the Federal government is sufficient to sustain a False Claim action for the
purposes of § 3729(a)(1)(B) of the FCA.]; See also, U.S. ex rel.
Forcier v. CSC et al., 183 F.Supp 3d 510 (SDNY 2016). In both
cases the same standard to applied public and private actors.

3
rel. Forcier v. CSC, et al., 183 F.Supp. 3d 510
(SDNY 2016). In both of the above cases, the same
standard of review was applied to applied public
and private actors. Here, it is the New York City
government and the New York City-controlled
Health and Hospitals Corporation (HHC) [hereinafter referred to collectively as the City of New
York] with the connivance of the State government,
acting to mislead the Federal government, resulting in massive and systematic fraudulent payments to the City. The City of New York operates
the largest public health system in the nation, but
it is only one of many across the country. No private actor would be permitted to subsidize their
operations by defrauding the public insurance system, and neither should any public health system.
The Second Circuit Court of Appeals erred in
failing to apply the same FCA pleading standard
that they have previously applied in cases involving private bad actors who have defrauded Medicaid. See U.S. ex rel. Chorches v. Am. Med.
Response, Inc., 465 F.3d 71 (2nd Cir. 2017). In
Chorches, the relator was an employee of a private
actor who had inside knowledge of fraudulent
activities related to claims made to Medicaid. In
finding the Chorches claim sufficiently pleaded to
survive a Rule 9(b) challenge, the court explained
why it was not necessary for a relator to have
knowledge of the entire lifecycle of the fraudulent
scheme and that all reasonable inferences should
be drawn in the relator’s favor. Chorches, 865 F.3d
at 78.

4
Strikingly, in the instant case, the court applied
the reverse of the Chorches standard to the defendant public actors. Here, the court drew inferences
in favor of the Respondents and their provider public hospitals. It beggars belief to presume that public actors should be held to a different standard
than private actors and to do so is at odds with the
legislative purpose of the FCA.
The False Claims Act (FCA), 31 U.S.C. § 3729 et
seq., applies to those “who defraud the [Federal]
Government.” Universal Health Servs., Inc. v. United
States ex rel. Escobar, 136 S. Ct. 1989, 1995 (2016).
It creates a cause of action for the submission of
false claims for payment, and it allows private individuals to share in the recovery by filing suits on
the Federal Government’s behalf. Id. § 3730(b), (d).
This Court should grant the petition to address
the Court of Appeals’ application of a pleading
standard that improperly drew inferences in favor
the Respondents, which are governmental actors,
not private actors. The Court of Appeals erroneously held the relator to a standard different than that
in Chorches because the relator’s knowledge deals
with reported claim information rather than discussions within the billing provider(s). This Court
should grant the petition to ensure that Escobar’s
rule operates uniformly, whether the defendant is
public or private.

5
STATEMENT
Relator-Appellant Andrew Gelbman, a New York
State Department of Health Information Technology Specialist II, gained first-hand knowledge of a
massive scheme to defraud the United States of
America in the course of his regular job responsibilities that included computer interrogation of the
New York State Health Department’s Medicaid
Data Warehouse as well as attendance and participation in meetings regarding changes, and updates
to, and maintenance of eMedNY—New York’s Electronic Medicaid Claims Processing and Adjudication System. Mr. Gelbman became aware of a
scheme by the Respondents City of New York and
New York City Health and Hospitals Corporation
via fraudulent Medicaid claims totaling over $14
billion which were paid but which should not paid.
This scheme was hatched at the aforementioned
‘Evolution Process Meetings’ where changes and
updates to eMedNY were routinely discussed
between stakeholders, including the City of New
York, and authorized by the State of New York.
The District Court granted the Respondents’
motion to dismiss, see United States of America ex
rel. Gelbman v. City of New York, No. 14-cv-00771
(S.D.N.Y. September 30, 2018), and a panel of the
Court of Appeals for the Second Circuit affirmed in
a summary order, see United States of America ex
rel. Gelbman v. City of New York, No. 18-3162 (2d
Cir. October 17, 2019) (Pet. App. 77a).

6
The Second Circuit’s determination effectively
frustrates the purpose of the False Claims Act to
discourage fraudulent claims by a local government
against the Federal Government, and is also contrary to their own recent precedent. United States
of America, ex rel. Chorches v. American Medical
Response, Inc., 865 F.3d 71 (2d Cir. 2017).
This case involves issues of exceptional importance, regarding the pleading standard applicable
in False Claims actions asserted against public sector defendants, to wit:
1. Whether a relator’s claims against a public
sector defendant are entitled to every reasonable favorable inference that can be
drawn from the complaint.
2. Whether the pleading standard should be
different for claims against public sector
Medicaid providers than it is for private
sector Medicaid providers, and
3. Whether a relator must have information
regarding the genesis of the fraud or
whether information regarding the execution of the fraud is equally sufficient to
withstand a motion to dismiss.
Here, the fraud claimed consisted of multiple
successful efforts by the City of New York to induce
the State of New York to turn off algorithms
designed to prevent the payment of ineligible Medicaid claims.

7
The typical case of a private health care system
defrauding the United States was addressed by
this Court in Universal Health Servs. v. United
States ex rel. Escobar, 136 S. Ct. 1989 (2016). There
are, however, many public health care systems
across the United States. Here, the largest public
health care system in the nation submitted millions of claims for billions of dollars of Federal
money over an extended period of years.
There is no logical reason why the standard set
for private entities in Escobar should not apply to
public entities such as the instant defendants. This
egregious disregard of the public fisc of the United
States of America, and the governing regulations of
the State of New York upon which the United
States relied in making the payments at issue merits close attention, and is of national import.
I.

The Pleading Standard Set in Iqbal,
Twombley, and Chorches Does Not Require
a Plaintiff-Relator to Recite Every Manner in which False Claims were Submitted
to Survive a Motion to Dismiss under
FRCP 9(b). Instead, it Requires a Baseline
of Plausibility, which the Court of Appeals
Turned into a Virtual Bar.
A. Second Circuit Had Earlier Applied a
Single, Sound Pleading Standard for
False Claims Against Both Public and
Private Actors.

Chorches made it clear that Rule 9(b) does not
require a qui tam complaint to provide details of

8
actual bills or invoices submitted to the government, so long as the relator makes plausible allegations that lead to a strong inference that specific
claims were indeed submitted and that information
about the details of the claims submitted are peculiarly within the opposing party’s knowledge.
Chorches, 865 F.3d at 93.
Moreover, the Chorches court took notice that
this view was consistent with the standards set in
the Third, Fifth, Seventh, Ninth and Tenth and
D.C. Circuits. Chorches, 865 F.3d. at 89-92. However, the same court found the First, Fourth, Sixth,
Eighth, and Eleventh Circuits took somewhat different views, although ultimately not finding those
views to be inconsistent with their holding. Id.
In the instant case, in its SAC (Pet. App. 1a-52a),
Petitioner provided the actual data of claims submitted by Respondents which had been presented
to the Federal government for payment. (Pet. App.
28a-40a) SAC ¶ 98-143. This information was taken
directly by Petitioner from the New York State
Medicaid Data Warehouse and provided details of
actual billing submitted to the Government. Id.
The source of said data was the submissions made
by Respondents themselves. Id. Thus, the data
must have been within the Respondents’ peculiar
knowledge. See Chorches, 865 F.3d at 93.
The Second Circuit found an infirmity warranting dismissal because Petitioner did not allege personal knowledge of the Expense Reports submitted
to the Federal government containing the alleged

9
False Claims. However, the Second Circuit failed to
acknowledge that the claims described by Petitioner were actual False Claims paid by the Federal
Government and thus unwittingly erected a barrier
inconsistent with the earlier precedent of the Second Circuit. In any event, Petitioner exceeded the
standard erected in Chorches by providing claims
data containing millions of false claims which were
in fact, paid by the Federal Government. (Pet. App.
28a-40a) SAC ¶ 98-143, Ex. C (Pet. App. 54a). The
Petitioner thus relied on actual claims rather than
mere inference or speculation.
In U.S. ex rel. Feldman v. City of New York, 808
F.Supp. 2d 641, the SDNY found that it was sufficient to allege that the defendant in a False Claim
action both made a false statement and a claim for
payment from the Federal government to withstand a motion to dismiss. Feldman, F.Supp.2d at
655-56.
Here, the Petitioner provided numerous examples of false statements made by Respondents
made in direct support of claims for payment made
to the Federal government. SAC ¶ 98-143 (Pet. App.
28a-40a).
B. The Order Erects a New Standard
that Largely Disarms Citizen-Attorney
Generals under The False Claims Act.
It is a long-settled matter of law that FRCP
12(b)(6) requires a plausible allegation on the part
of the Petitioner. Ashcroft v. Iqbal, 129 S. Ct. 1937

10
(2009), Bell Atlantic Corp. v. Twombly, 127 S. Ct.
1955 (2007).
It is also-well established that Rule 9(b) requires
the court to accept all of Petitioner’s factual allegations as true and to draw all reasonable inferences
in Petitioner’s favor. Chorches, 865 F.3d at 78 (Citing
Trs. of Upstate N.Y. Eng’rs v. Ivy Asset Mgmt., 843
F.3d 561, 566 (2nd Cir 2016); Iqbal, 129 S. Ct. at
1937; Twombly, 127 S. Ct. at 1955.)
New York’s regulations requires a similar presumption regarding overpayments, to wit: 18 NYCRR
§ 519.18(g) provides that valid extrapolation from
a statistical sampling creates a presumption, in
the absence of evidence to the contrary, that such
extrapolation is an accurate determination of total
overpayments made.
In Chorches, also brought under the False Claims
Act, 31 USC § 3729-3733, employees were instructed to prepare claims forms with false claims data to
wrongfully maximize Medicare reimbursements.
The workers who filled out the forms were clearly
not themselves submitting the false billings to the
Government. Chorches, 865 F.3d at 75-76.
In the instant matter, the SAC is clear that Petitioner, himself, had full and complete knowledge of
the information contained in the claims defendants
submitted (e.g., when medical services were provided, how much was billed, how much the USA paid,
what services were rendered, etc.), and which was
particularized in the SAC and Ex. C of same in

11
great detail, down to the dollar. SAC ¶ 98-143 (Pet.
App. 28a-40a); Ex. C (Pet. App. 54a).
Contrary to the factually incorrect supposition by
the Court of Appeals in this matter (Pet. App. 81a82a, 84a), the fraudulent payments made for exemplar claims described in exacting detail in SAC and
summarized in Exhibit C of the SAC are actual
totals of paid Medicaid claims, and are not merely
estimates. SAC ¶ 98-143, (Pet. App. 28a-40a), Ex. C
(Pet. App. 54a).
Respondents do not dispute or negate the overpayments alleged in the SAC (e.g., Pet. App. 54a,
attached as an Exhibit to the SAC) and are certainly not entitled to any inference of eMedNY error or
correctable submission as speculated by the Second
Circuit. (e.g., Pet. App. 87a). Contrary to the panel’s
ruling here, Petitioner has demonstrated that it
has satisfied the standard set by an entirely different panel of the Second Circuit in Chorches (and
under 18 NYCRR § 519.18(g)) that requires all reasonable and plausible inferences to be granted to
Petitioners. Chorches, 865 F.3d at 78. This includes
that the overpayments alleged in the SAC (Pet.
App. 54a) were valid and undisputed. 18 NYCRR
§ 519.18(g).
Furthermore, as an employee of NYSDOH, Petitioner had first-hand knowledge of defendants’ successful attempts to manipulate algorithms put in
place to detect defective claims as defined by applicable law and regulation known as “edits.” Respondents ensured the edits in question were set to ‘pay

12
and report’ rather than ‘pend’ or ‘deny’—in effect
turned off. SAC ¶ 13, 16, 63, and 65 (Pet. App. 6a,
7a, and 20a). While Petitioner did not have specific
knowledge of the policy decisions made by Respondent-Appellants at higher levels to manipulate the
edits, Petitioner did have specific knowledge that
the edits were altered at the behest of Respondents. This comports squarely with the holding in
Chorches that the typical relator cannot be expected to be present at every stage of the fraud.
Chorches, 865 F.3d at 86.
Appellant-relator had firsthand knowledge that
the edits were altered at the behest of Respondents
and pre-trial discovery would further detail petitioner’s plausible contentions. Chorches requires a
common-sense approach, without which many if
not most, frauds would never be able to be redressed
in Court. Chorches, Id.
Incredibly, Respondents have never disputed
that a massive looting of the public fisc indeed
occurred. Petitioner’s figures—obtained by virtue
of his untrammeled access to the New York State
Department of Health Data Warehouse as a New
York State employee—in fact, demonstrate this
occurred. It beggars belief to assume that so many
billions of dollars paid for so many millions of
claims over such an extended period of years were
mere accidents or errors. Pet. App. 87a. Likewise,
the panel’s incorrect characterization of these
amounts as “estimates” rather than as actual
amounts goes to the heart of their determination
that the SAC (Pet. App. 1a-52a) was insufficiently

13
particular in order to survive the Respondents’
motion to dismiss. (Pet. App. 84a).
In fact Petitioner is entitled to a reasonable
inference that a material fraud against the United
States took place, because Petitioner calculated
and provided the actual amount of $14,222,457,278
for 22,782,174 distinct false claims presented to the
United States by the Respondents over a period of
six (6) years. SAC, ¶ 165-166 (Pet. App. 46a); Ex. C
to SAC (Pet. App. 54a). Further, no inference need
to have been made regarding a tacit agreement to
turn off edits where, in fact, the relator had actual
first-hand knowledge of requests by the City to the
State to turn off certain edits and that the same
were, in fact, turned off. (see infra, Sec B, p 9.)
These actions facilitated these improper payments, including the Federal share of those payments, resulting in a material fraud against the
Federal government. The summary order failed to
make the reasonable inference that said claims
resulted in massive fraud to the public fisc of the
United States. Instead, the order joins the Respondents in unsupported speculation and draws inferences in favor of the defendant.
In so doing, the Second Circuit has unwittingly
unleashed a new standard for public health care
providers that will effectively nullify the legislative
intent of the False Claims Act, which has to date
resulted in the recovery of billions of dollars for the
United States of America since its 1986 amendments. U.S. ex rel. Dick v. Long Island Lighting

14
Co., 912 F.2d 13 (2nd Cir. 1990) [purpose of the Qui
Tam provisions of the False Claims Act is to
encourage private individuals who aware of fraud
being perpetrated against the government to bring
such information forward.]
1. The SAC details how Respondent
Induced Alteration of eMedNY’s
Computer Algorithms.
The panel found that Petitioner did not “detail
how eMedNY was rigged (e.g., by altering eMedNY’s computer algorithms. . .”). (Pet. App. 86a).
Yet that is precisely what the SAC did. SAC ¶ 58-62
(Pet. App. 19a). The SAC describes an edit as “a
complex series of algorithms and factors . . . [that]
determined which Medicaid claims should be paid
or not paid.” Petitioner had first-hand knowledge
of and participated in many Evolution Project
Meetings, at which the City convinced the Health
Department of the State of New York to improperly
manipulate eMedNY’s edits. SAC ¶ 15 (Pet. App.
6a-7a).
Petitioner described how at these meetings “policy considerations warranted the improper manipulation of edits by the New York State Department
of Health so as to benefit the CITY OF NEW YORK”.
SAC ¶ 82 (Pet. App. 23a-24a).
The SAC also stated that Petitioner was aware
that it was “common knowledge within . . . the
New York State Department of Health . . . that
the CITY OF NEW YORK’S Medicaid billers were to be
protected and should be permitted to submit and be

15
paid claims notwithstanding non-compliance with
laws which otherwise would have rendered said
claims non-payable.” SAC ¶ 87 (Pet. App. 25a).
Further, the SAC described how these claims,
demonstrated by highly specific exemplars contained within, “are representative of numerous
false claims made by Respondents to the UNITED
STATES OF AMERICA. . . [and edits] which were
[originally] designed to stop payment of these
claims . . . were manipulated by HHC and the CITY
OF NEW YORK, with the aid of the New York State
Department of Health, to insure that these claims
were instead paid.” SAC ¶ 141 (Pet. App. 40a). In
other words, the eMedNY edits that would have
detected these defects were wrongfully set to ‘pay
and report’ rather than to ‘pend’ or ‘deny’, in effect
turned off, at the City’s request.
In addition, the City was aware, by virtue of
their participation in said Evolution Project Meetings, of the status of these edits and knew claims
submitted with these defects would be paid, said
defects notwithstanding. SAC ¶ 82 (Pet. App. 2324a).
An overpayment includes any amount not
authorized to be paid under the Medicaid program,
whether paid as the result of inaccurate or improper cost reporting, improper claiming, unacceptable
practices, fraud, abuse or mistake. 18 NYCRR
§ 518.1(c) [emphasis added.] (Pet. App. 159a). Submission of these claims by the Respondents, despite
being aware of these defects and knowing of the

16
status of the controlling edits, resulted in illegal
overpayments to Respondents of billions of dollars.
The SAC further describes in great detail how
the edits were manipulated. The Respondents submitted millions of claims containing made up, contrived prior approval codes, e.g., “ ‘gibberish’,
submitted in place of the legally required prior
authorization codes.” SAC ¶ 153, (Pet. App. 43a).
The edit that would have detected this defect was
turned off, at the City’s request, allowing the “gibberish” characters to suffice as the equivalent of
actual prior authorization codes required by
18 NYCRR 540.6 (a)(1). (Pet. App. 168a). These “gibberish” numbers were made up of alphanumeric
strings inserted into a field just to satisfy the
requirement that actual prior approval numbers be
inserted as a condition of payment. SAC ¶ 110 (Pet.
App. 31a). But the edits were turned off to allow
these prior approval-required claims to be paid,
despite the entry of any random alphanumeric
string placed in the prior approval code field.
Here, the undisputed practice of providing false
Prior Approval (PA) numbers in so many claims for
such large sums for so many years should be reasonably inferred in petitioner’s favor as false or
improper claims. It is respectfully submitted that
the panel should have permitted the reasonable
inference that the deliberate entry of a fictitious
Prior Approval code rendered a claim false, given
that the willful entry of such specious codes is an
unacceptable practice or improper billing. See, U.S.

17
ex rel. Forcier v. CSC, et al., 183 F.Supp 3d 510
(SDNY 2016).
2. The SAC alleges that the “peculiar”
knowledge giving rise to the claims
at issue was, of necessity, within the
Respondents’ knowledge.
The City-owned and New York City Health and
Hospitals-managed providers themselves inserted
the false Prior Approval numbers, and also submitted double bills for patients they knew were under
their care. SAC ¶ 98-143 (Pet. App. 28a-40a). They
were responsible for maintaining records of proper
enrollment for both individual medical providers
and billing facilities and for maintaining records of
dates of service to any individual patient. Id. Furthermore, it was based on Respondents willful disregard of their knowledge of the following facts
that:
1. Claims containing invalid PA numbers
were submitted. Id.
2. Bills for outpatient services for times when
recipients were actually inpatients. Id.
3. Claims for unenrolled or expired enrollment providers were submitted. Id.
4. Claims for dates of service ineligible for
payment under timeliness rules were also
made. Id.
The panel’s holding that Petitioner does not
explain why he had no specific knowledge is belied

18
by the plain and specific language in the SAC
itself. SAC ¶ 98-143 (Pet. App. 28a-40a).
As in Chorches, an easy inference should have
been permitted to establish that petitioner’s role at
NYSDOH did not permit him to have possession of
the CMS-64 claim forms actually submitted to the
USA (although Petitioner did attach an exemplar
in the SAC, it is clear that these claims were
indeed submitted, as evidenced by his submission
of paid claims information drawn directly from the
NYSDOH Data Warehouse. Chorches, 865 F.3d at
78. It is well established that Rule 9(b) requires
acceptance of Petitioner’s factual allegations as
true and to make all reasonable inferences in Petitioner’s favor. Chorches, 865 F.3d at 78 (Citing Trs.
of Upstate N.Y. Eng’rs., 843 F.3d at 566; Iqbal, 129
S. Ct. at 1937; Twombly, 127 S. Ct. at 1955.)
Consistent with Chorches, it should have been
enough to pass Rule 9(b) muster for Petitioner to
demonstrate—as he did—that at the time Petitioner discovered the false claims at NYSDOH, his participation in the Evolution Project Meetings was
first-hand evidence of a scheme to unlawfully bolster the financial health of defendants by allowing
the edits to be manipulated in favor of the defendants’ interests by ensuring they were set to ‘pay
and report’ rather than ‘pend’ or ‘deny’ thereby in
effect, turning the edits off.
It is respectfully submitted that this knowledge
and agreement between the City and State permitted the Respondents to submit fatally defective and

19
false claims to eMedNY secure in the knowledge
said claims would be and were, in fact, paid.
3. Petitioner Detailed that the Claim
Submission Procedure By the City to
the State Was Also, Simultaneously,
Submission to the Federal government.
As shown on the flowchart attached as Exhibit B
of the SAC (Pet. App. 53a), once a claim is approved
for payment, the New York State Financial Management System (SFS) automatically notifies the
Center for Medicaid and Medicare Services
(CMMS) Financial Management System of the
debit. As shown on said flowchart, there is no separate ‘time of submission’ to the Federal government. Ex. B of the SAC (Pet. App. 53a). The
eligibility status at the time of NYS adjudication is
the eligibility status at the time of submission to
the Federal government. Id. The accuracy of said
flowchart was not disputed by Respondents at any
point.
4. Claims Set Forth in the SAC Represent the Final Status of “Paid”
Claims, and the Second Circuit’s
Improper Speculation As To Why
These Claims Were Not Defective is
Irrelevant.
The relator’s actual knowledge pertains to the
final status of actual claims submitted for payment. The panel speculated that Respondents may

20
have corrected the claims at issue before submission, or that the eMedNY may have flagged the
claims in error, or that NYSDOH disclosed all possible defects to the Federal government in a subsequent expense report. (Pet. App. 80a-82a).
Chorches made it clear that Rule 9(b) only
requires that the relator make plausible allegations that lead to a strong inference that specific
claims were indeed submitted and that information
about the details of the claims submitted are peculiarly within the opposing party’s knowledge.
Chorches, 865 F.3d at 93.
Furthermore, the Chorches court held that all
reasonable and plausible inferences must be granted to plaintiffs. Chorches, 865 F.3d at 78.
Here, the Petitioner provided exacting details of
the final status of over twenty-two million claims
to NYS Medicaid for over $14 billion Federal dollars
over a period of six (6) years paid to the City-owned
and HHC managed facilities that Respondents
knew or should have known were false.
Respondents do not dispute the veracity of any of
petitioner’s factual statements—preferring to speculate about where, when, why, or how the claims at
issue might have been corrected, but not that they
were, in fact, actually corrected. (Pet. App. 80-82a,
84a).
Unfortunately, the panel adopted Respondents
unsupported speculations rather than making any
reasonable inference in Petitioner’s favor. Id. The
Respondents do not dispute that they received Fed-

21
eral money nor do Respondents dispute that those
Federal payments were directly and contemporaneously triggered by their claim to eMedNY.
Where the relator in Chorches had specific
knowledge of the internal falsification of records by
the defendant provider, here the relator has
detailed and specific knowledge of externally
reported falsehoods by the Respondent providers.
It is merely the converse of the same type of wrongful behavior.
5. The Respondents Do Not Dispute the
Eligibility Status of Any Claim.
The Second Circuit accepted Respondents speculation that perhaps eMedNY was in error or that
some remedial action might have rendered the
claims at issue payable. (Pet. App. 84a).
However, Respondents never alleged that the
claims at issue are, in fact, erroneous. It is also
undisputed that no remedial action was, in fact,
taken by Respondents.
In fact, no remedial action was possible for these
claims. SAC ¶ 100 (Pet. App. 28a). For example, it
is impossible to obtain ‘prior approval’ for a procedure already performed. Either the City-owned and
HHC managed facilities had prior approval (PA) or
they did not. SAC ¶ 110-11 (Pet. App. 31a). Nor is it
possible for an inpatient client to simultaneously
be an outpatient client—only one set of services
(inpatient or outpatient) could be legitimately
billed. SAC ¶ 121-23 (Pet. App. 34a). Nor is it possi-

22
ble to go back in time and bill within two (2) years
of the provision of services after the calendar limit
expired. SAC ¶ 104-5 (Pet. App. 29a). Either the
claim was submitted within two (2) years or it was
not. As to these matters of fact, and law, the panel
should have restricted itself to the SAC and accompanying exhibits and not engage, as Respondents
did, in mere speculation as to what might have
happened to these claims.
II. Respondents Failed to Meet the Standard
Imposed by Law For All Billing Providers
Under Governing State Regulation.
A. The Respondents Had a Duty Imposed
by Law to Not Submit Claims on Behalf
of Unenrolled Medicaid Providers.
The panel concluded that there was no financial
obligation to the Federal government on the part of
Respondents. (Pet. App. 87a, 89a). However, any
person who furnishes medical care, services or supplies for which payments under the medical assistance program are to be claimed must enroll as a
provider of services prior to being eligible to receive
such payments. 18 NYCRR 504.1(a). (Pet. App. 160a)
[emphasis added.] In other words, in those claims
where the provider was unenrolled, the prevaricating provider failed in a condition, imposed by law,
for receiving Medicaid payments—which of necessity include Federal moneys. As a condition of receiving said payments, they further had a duty
imposed by law to not make misrepresentations of

23
material fact. 18 NYCRR § 504.3(h). (Pet. App.
166a).
B. Respondents Breached Their Duty,
Imposed by Law, to Be Candid with
the Federal Government.
Medicaid fee for service providers are reimbursed
by Medicaid based on the information they submit
in support of their claims. Said information must
be true, accurate and complete. 18 NYCRR
§ 504.3(h). (Pet. App. 166a). The law requires, and
the system is based upon the presumption of, honest dealing between the providers and the State
and Federal governments. The governing law in
New York specifically requires such honest dealing
and the Federal government understandably relies
on such candor. Id.
Had the Federal government been aware that
City-owned and HHC managed entities were routinely falsifying material parts of Medicaid claims
—such as by deliberately entering false Prior
Approval (PA) numbers—it is likely that the Federal government would not have paid such claims. In
the present case, it is respectfully submitted that
the fabrication of false PA numbers represents a
material fraud against the United States since the
submission and payment of such claims would, of
necessity, and, in fact did, trigger Federal payments to the prevaricating provider. The fraud in
the present case is even more egregious because
the entities making the false claims are themselves
publicly owned and controlled.

24
C. Respondents Had a Duty Imposed by
Law to Know the Contents of the Medicaid Claims at Issue
Providers must maintain records demonstrating
the right to receive payment for six years. 18
NYCRR § 504.3(a). (Pet. App. 166a). In other words,
as a condition of receiving Medicaid reimbursement, the law imposes a duty to maintain good
records of the contents and proof of the statements
made in Medicaid claims. The need to create and
maintain such records, of necessity, places the
knowledge of the contents of the claims at issue—
including the dates of service in the untimely
claims, the enrolment status of providers in the
unenrolled provider claims, the fraudulent PA
numbers in the false PA claims—within the peculiar knowledge of the Respondents. If, as Respondents argue and the panel accepts, the details of
the claims at issue were not within the peculiar
knowledge of the City-owned and HHC managed
entities then it is submitted that they failed in a
duty imposed by law as a condition of receiving
Medicaid payments—which of necessity include
Federal moneys.
D. The Law and Relevant Regulations
Recognize No Difference Between
Public and Private Sector Providers.
The False Claims Act (FCA), 31 U.S.C. § 3729 et
seq., applies to those “who defraud the [Federal]
Government.” Universal Health Servs., Inc. v. United
States ex rel. Escobar, 136 S. Ct. 1989, 1995 (2016).

25
The FCA contains no exemption or different pleading standard for public sector providers than for
private sector providers.
Unfortunately the Second Circuit has unwittingly
unleashed a new standard that will effectively nullify the legislative intent of the False Claims Act
with respect to claims made against public sector
providers. Dick, 912 F.2d at 13.
SUMMARY
As demonstrated by petitioners’ unrebutted allegations of numerous false claims submitted, this
case presents exactly the type of harm that the
False Claims Act was designed prevent, by protecting the US Treasury and public fisc from both private and public fraud.
It is undisputed that:
1. All the claims at issue were claims for payment made to the Federal Government.
SAC ¶ 43 (Pet. App. 15a).
2. All the claims at issue were made and submitted to the State and Federal government simultaneously. SAC Ex. B (Pet. App.
53a).
3. All the claims at issue were fatally defective at the time of their presentation for
payment. SAC ¶ 98-143 (Pet. App. 28a-40a).
4. The City had an oversight responsibility
for, and HHC had a management responsi-

26
bility for the Providers submitting the
claims at issue. SAC ¶ 84 (Pet. App. 24a).
5. The City-owned and HHC managed
Providers had a duty imposed by law to be
candid with the Federal government, and
failed in said duty. 18 NYCRR § 504.3(h)
(Pet. App. 166a); SAC ¶ 98-143 (Pet. App.
28a-40a).
6. The City-owned and HHC managed
Providers had a duty imposed by law to not
submit Medicaid claims for unenrolled
providers, and failed in said duty. 18
NYCRR 504.1(a) (Pet. App. SAC 160a);
SAC ¶ 130 (Pet. App. 36).
7. The City-owned and HHC managed
Providers submitting the claims at issue
had a duty to maintain records of and to be
aware of the contents of all Medicaid
claims submitted to the Federal government, and failed in said duty. 18 NYCRR
§ 504.3(a) (Pet. App. 166a).
8. Medicaid claims are, ipso facto, claims
made to the United States of America to
the extent of Federal participation in the
Medicaid program. SAC ¶ 74 (Pet. App.
22a).
9. Respondents make no claim that any remedial measures were actually undertaken
regarding the claims at issue.

27
10.The City and HHC received and retained
the Federal payments at issue. SAC ¶ 48
(Pet. App. 16a).
It is submitted that these undisputed facts render the claims at issue to be false claims under
31 USC § 3729, et seq. (Pet. App. 119a-157a).
Reasons for Granting the Petition
I.

The adjudication of allegations of fraud by
committed governmental entities against the
Federal Government demands the same standard of review as was set in Escobar for such
fraud alleged against private entities.

II. The Second Circuit has relied on speculation as
to how the claims at issue might not have been
false, rather than drawing all reasonable inferences in Petitioner’s favor. Failure to reverse
the Second Circuit’s Order will establish a
pleading standard that will make it practically
impossible for such massive and systemic
Medicaid fraud as is alleged here against the
Government to be uncovered, much less adjudicated. No reasonable relator would take the
risk inherent in exposing the misconduct that
the False Claims Act was expressly designed to
uncover, if the procedural bar of FRCP 9(b) was
applied as the Second Circuit did here. See e.g.
U.S. ex rel. Dick v. Long Island Lighting Co.,
912 F.2d 13 (2nd Cir. 1990).
III. The City of New York has not specifically
denied any of the allegations in the SAC, which

28
sets forth plausible claims of violations of the
False Claims Act sufficient to satisfy the standards set forth by this Court in Ashcroft v.
Iqbal, 129 S. Ct. at 1937, Bell Atlantic Corp. v.
Twombly, 127 S. Ct. at 1955, Escobar, 136 S.
Ct . at 1996 and FRCP 9(b).

CONCLUSION
For the foregoing reasons, the Court should grant
the petition for certiorari.
Dated: January 14, 2020
Respectfully submitted,

~€_~ '~
By: Richard B. Ancowitz
LAW OFFICE OF
RICHARD B. ANCOWITZ

Attorneys for Petitioner
113 Great Oaks Boulevard
Albany, New York 12203
518-464-0444
ra@ancowitz.com
LAW OFFICE OF
SANFORD ROSENBLUM

Attorneys for Petitioner
113 Great Oaks Boulevard
Albany, New York 12203
518-464-0444
srosenblumlaw@gmail.com

29
To: Joseph V. Willey
KATTEN MUCHIN ROSENMAN LLP
Attorneys for Respondents
575 Madison Avenue
New York, New York 10022
212-940-7087
joseph.willey@kattenlaw.com
Jessica Hu
Assistant United States Attorney
UNITED STATES ATTORNEY’S OFFICE
SOUTHERN DISTRICT OF NEW YORK
Attorneys for United States of America
86 Chambers Street, 3rd Floor
New York, New York 10007
212-637-2696
jessica.hu@usdoj.gov

APPENDIX

1a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
No. 14 CV 0771
UNITED STATES OF AMERICA,
ex rel. ANDREW GELBMAN,
Plaintiff,
—against—
THE CITY OF NEW YORK and
NEW YORK CITY HEALTH
AND H OSPITALS C ORPORATION ,
Defendants.
Hon. Vernon S. Broderick
SECOND AMENDED COMPLAINT
Jury Trial Demanded
The individual plaintiff herein, ANDREW GELBMAN,
as relator, by his attorneys, the Law Office of
Richard B. Ancowitz, and the Law Office of Sanford
Rosenblum, complaining of the Defendants, alleges
the following:
1. At all times hereinafter mentioned, the
Defendant CITY OF NEW YORK was and is a municipality organized pursuant to the laws of New York
State.

2a
2. This Court has jurisdiction over the claims
brought herein pursuant to 31 USC 3729 through
3733, and in particular 31 USC 3730 (a), and over
all claims pursuant to this Honorable Court’s general equitable jurisdiction.
3. Venue lies pursuant to 31 USC 3732 (a), given
that the Defendants reside and can be found in this
District.
The Parties
4. At all times hereinafter mentioned, Plaintiff
A NDREW G ELBMAN (hereinafter “Plaintiff” or
“GELBMAN”) has been employed by the State of New
York, and specifically, Plaintiff has been employed
by the State of New York, Department of Health,
with the title of Information Specialist II since
October 5, 2006.
5. Since initial hiring, and continuing to date,
Plaintiff’s employment duties and responsibilities
have included:
•

Perform Business & Systems Analysis for
eMedNY

•

Consult on evolution and system improvements for the eMedNY system.

•

Consult on strategies for program implementation and verification.

•

Perform detailed work with eMedNY data
structures

3a
•

Perform a wide variety of Data Warehouse
interrogations related to Medicaid management and fraud detection

•

Consult on implementation of ICD-9/ICD10 codesets

•

Technical Writing especially letter and
memoranda, interim reports and formal
proposals.

•

Consult on evolution of Medicaid Data
Warehouse

•

Evaluate project design proposals and
project assessments

•

Model Business Processes for the eMedNY
system

6. At all times hereinafter mentioned, the
Defendant CITY OF NEW YORK is a duly constituted
municipality of the State of New York.
7. At all times hereinafter mentioned, the
Defendant CITY OF NEW YORK has acted primarily
via its agency, the Human Resources Administration/
Department of Social Services of The City of
New York (hereinafter collectively referred to as
“HRA” or “the City”).
8. At all times hereinafter mentioned, the
Defendant NEW YORK CITY HEALTH AND HOSPITALS
CORPORATION (also sometimes known as New York
City Health + Hospitals and hereinafter referred to
as HHC or NYCHHC), was a public benefit corpora-

4a
tion organized pursuant to the Chapter laws of the
State of New York.
9. At all times hereinafter mentioned, the
Defendant HHC functioned as a “component unit”
of the Defendant CITY OF NEW YORK, and had
numerous indicia of functioning as a de facto
municipal agency of said CITY.
10. At all times hereinafter mentioned, the
Comptroller of the City of New York produced comprehensive Financial Reports which indicated that
“component units”, such as HHC, were considered a
part of the CITY.1
11. At all times hereinafter mentioned, the
Financial Statements of HHC, as prepared by their
independent auditor KMPG, described HHC as
being a “component unit” of the Defendant CITY.2

1

E.g. Said report for the year ending June 30, 2014 can
be found at http://comptroller.nyc.gov/wp content/uploads/
documents/CAFR2014.pdf (see, inter alia, p. 56). Reports for
the other years at issue herein can be found at http://comptroller.nyc.gov/reports/comprehensive-annual-financialreports/
2

E.g. Said report for the years 2014 and 2013 can be
found at https://www. abo.ny. gov/annualreports/PARIS
AuditReports/FYE2014/Local/NewYorkCityHealth
HospitalsCorporation2013-14.pdf. Reports for the other years
at issue herein can be found at http://comptroller.nyc.gov/

5a
Summary of Plaintiff’s Contentions:
Defendants’ Scheme to Defraud Medicaid
12. In the State of New York, the Medicaid program, a joint federal and state program, was at
all times referenced herein administered by the
New York State Department of Health (NYSDOH).
eMedNY was the automated computer screening
system used by NYSDOH to determine whether
Medicaid claims were reimbursable by the UNITED
STATES OF AMERICA. Medicaid claims for Long Term
Care that originated from medical providers within
the City of New York were billed through the
CITY OF NEW YORK’S agency, HRA, and submitted to
NYSDOH for a determination via eMedNY whether
such claims were allowable. If the claims were
allowable, NYSDOH submitted the claims to the
UNITED STATES OF AMERICA for reimbursement.
13. It is alleged herein that Defendant CITY OF
NEW YORK presented, or caused to be presented,
Medicaid claims to THE UNITED STATES OF AMERICA,
which it knew were legally and factually false.
Defendant’s knowledge of the falsity of these
claims became known to Plaintiff through numerous project meetings, referred to as “Evolution
Project Meetings”, that Plaintiff participated in
from 2006 through 2015 at which the meeting participants, including representatives from the CITY
OF N EW Y ORK , its agency HRA, and participants
from the State of New York’s Department of
Health, conspired to manipulate and rig the manner in which Medicaid claims submitted by HRA

6a
were processed by eMedNY such that otherwise
ineligible and legally non-compliant Medicaid
claims were intentionally, knowingly and falsely
certified and submitted to the UNITED STATE OF
AMERICA at the behest of, and to the benefit of, the
CITY OF NEW YORK. Such claims included those
from physicians or other providers who were ineligible to participate in the Medicaid program, as
well as claims that were prohibited under New
York State and/or federal Medicaid laws from being
paid because they were either untimely, lacked
pre-authorization as required, or were duplicative,
representing “double dipping” by providers.
14. These health care providers, as will be set
forth in greater detail below, included provider
entities owned, operated, managed, and/or controlled by the Defendants.
15. The Defendants knew that such false claims
were being submitted on a regular basis and, in
fact, Defendants made sure at these “Evolution
Project Meetings” that these false claims would be
systematically authorized by the New York State
Department of Health and submitted to the UNITED
STATES OF AMERICA such that Defendants would be
reimbursed in order to avoid what it determined to
be a catastrophic impact on the New York City
Medicaid system as a whole, as well as the health
care providers and health care recipients who
relied upon it, if those claims were not to be reimbursed by the UNITED STATES OF AMERICA. In addition to the knowledge of this scheme obtained by
Plaintiff in these many aforesaid “Evolution Project

7a
Meetings”, information contained in Defendants’
own files and records also demonstrated to Plaintiff
that recipient-health care providers of said benefits
were not eligible or entitled, or were no longer eligible or entitled, to receive same. Examples of such
claims, which the Plaintiff became aware of
through his job with eMedNY, are set forth herein
below.
16. The following back-drop of the financial crisis
referenced above is critical to place the allegations
herein in context. The CITY OF NEW YORK had a
strong interest in ensuring the flow of health care
services, from both private and public providers, to
its residents. In particular, as concerns public
health care providers, New York City’s public hospitals have been described by a report published
by the CITY OF NEW YORK as the “critical safety net”
for treating low-income and uninsured residents
of New York (See, “One New York, Health Care
for Our Neighborhoods, Transforming Health +
Hospitals”, at page 5, et seq, archived at www1.nyc.
gov/assets/home/downloads/pdf/reports/2016/
Health-and-Hospitals-Report.pdf.) At all times referenced herein, there was a relationship between
Defendant CITY OF NEW YORK and its public hospitals, all of which are owned by Defendant NEW
YORK CITY HEALTH AND HOSPITALS CORPORATION, a
public benefit corporation, which although a de jure
separate entity, operated as a de facto municipal
agency of the CITY OF NEW YORK. Part of this relationship included, but was not limited to, substantial financial assistance being given to HHC by

8a
Defendant CITY OF NEW YORK for the benefit of
New York City residents. During the time period
referenced herein, the financial assistance given by
the CITY OF NEW YORK to HHC averaged almost
$300 million dollars a year. (See Manhattan Annual
Public Meeting, Remarks, January 11, 2011, by
Alan D. Aviles, President, NYC Health and
Hospitals Corporation, archived at http://www.
nychealthandhospitals.org/manhattan-publicmeeting/). In 2009, a financial crisis affecting the
City’s public hospitals became widely known when
HHC announced that it was cutting $300 million
from its budget by layoffs and otherwise “. . . .
because of Medicaid cuts, rising expenses and a
growing number of uninsured patients” (see article
in Modern Healthcare, April 10, 2009, “NYC health
system faces even deeper cuts”; The New York
Times, March 19, 2009 “City’s Public Hospital
System to Cut jobs and Programs”; “The New York
Times, February 22, 2010, “City’s Public Hospitals
Fear Huge Loss in Subsidies”). According to HHC’s
President Alan Aviles, by early 2010, with an
annual budget of $6 billion, HHC faced an “extraordinary” $1 billion dollar budget deficit (See
Manhattan Annual Public Meeting, Remarks,
January 11, 2011, by Alan D. Aviles, President,
NYC Health and Hospitals Corporation, ibid.). By
early 2011 HHC had reduced its deficit by about
$300 million, however, HHC’s Aviles warned:
“Because the City continues to face its own multibillion dollar deficits, we cannot expect our city
government to make up for any further state cuts
that may be imposed upon us.” (id.) By April of

9a
2016, the financial crisis had reached such proportions that a report issued by the City of New York
stated: “. . .Without swift and aggressive
action, Health + Hospitals is on the edge of a
financial cliff.” (bold added) (See, “One New York,
Health Care for Our Neighborhoods, Transforming
Health + Hospitals”, ibid., at page 22).
17. It was against this backdrop that the motives
of Defendant CITY OF NEW YORK can be understood.
Nonetheless, the submission of fraudulent claims
by the CITY OF NEW YORK to the UNITED STATES OF
AMERICA was in violation of the laws of the State of
New York and United States of America, and the
Federal False Claims Act provides for, and indeed
requires, recompense to the UNITED STATES OF
AMERICA for the submission of said false claims.
The Medicaid Program
18. At all times hereinafter mentioned, Medicaid
was and is a joint federal-state program designed
to help provide assistance to eligible low-income
individuals, as per 42 U.S.C. Sec. 1396, et seq. The
Medicaid program is also designed to help provide
assistance to eligible elderly and disabled persons.
19. Pursuant to the above-referred to legislation,
each State, including the State of New York, establishes its own eligibility standards, payment rates,
and program administration in accordance with
federal law and regulation.

10a
20. THE State of New York has promulgated an
extensive regulatory scheme governing the administration of the Medicaid program within the State
of New York.
21. As per this regulatory scheme, the State has
delegated the authority to The CITY OF NEW YORK
(and hence to HRA), the authority to administer
the Medicaid program within its jurisdiction, the 5
counties which comprise the City of New York: New
York, Kings, The Bronx, Richmond, and Queens.
22. HRA’s Medical Assistance Program (MAP) is
responsible for the administration of New York
State’s free and low-cost public health insurance
programs for low-income, eligible New York City
residents. These plans provide coverage for medical
care through fee-for-service arrangements with participating medical providers or through managed
care plans. MAP determines and maintains eligibility for applying and renewing consumers based
upon criteria including income and/or resource levels for each of the available health insurance programs and their related services.
23. At all times hereinafter mentioned , the state
“share” of Medicaid benefits paid was twenty-five
per cent (25%), though said “share” could vary
between 25 and 100%.
24. At all times hereinafter mentioned, the
Defendant CITY OF NEW YORK “share” of Medicaid
benefits was twenty-five per cent (25%) or less,
given State law which enacted a “Local Share Cap”,
which placed a maximum limit on the share that a

11a
local social services district, such as said
Defendant, would be responsible for in a given
year, with the excess to be borne by the State of
New York. L. 2005, Ch. 58, Part C, Section 1, as
applicable to the fiscal year commencing April 1,
2005.
25. At all times hereinafter mentioned, the
UNITED STATES OF AMERICA has paid fifty per cent
(50%) of all Medicaid benefits received by health
care provider-recipients though said “share” could
vary between 0 and 100%.
26. As used herein, the term “health care
provider” refers to health care professionals who
render medical services to residents of the CITY OF
NEW YORK.
27. Health care provider”, as used herein,
includes hospitals, nursing homes, intermediate
care facilities for the developmentally disabled,
and managed care providers, and other persons or
entities who have presented billing seeking payment for their related goods and/or services
through the Medicaid program.
28. The CITY’s responsibilities as part of included:
A. Acting as a health care “provider” via
New York City-owned, and New York City
Health and Hospitals Corporation-owned facilities, pursuant to 18 NYCRR 504.1 (b) and
504.1 (d) (19), and submitted billings based
upon services ostensibly rendered;

12a
B. Via HRA, certifying and re-certifying
providers of health care within the City of
New York;
C. Via HRA, certifying and re-certifying recipients of health care as patients within the City
of New York.
D. Via HRA, having oversight over the providing of services and the billing process;
E. Via the MICSA unit of HRA (Medical
Insurance
and
Community
Services
Administration), having fraud detection
responsibility and functions relative to said
billings;
F. Via the MICSA unit of HRA, having collection responsibility and functions.
29. Said Medicaid billings, as germane to this
action, were generated through care provided
through the Long Term Care, Intermediate Care
Facility for the Developmentally Disabled, and
Managed Care-related Medicaid programs.
30. The STATE OF NEW YORK paid for 25% of all
Medicaid benefits received by recipients.
31. The STATE OF NEW YORK, based upon information provided by the CITY OF NEW YORK, and on
behalf of the CITY OF NEW YORK, presented claims
for reimbursement of Medicaid expenses to the
UNITED STATES OF AMERICA.
32. Upon information and belief, these claims
were first submitted by the CITY OF NEW YORK to

13a
the New York State Department of Health in an
X-12/HIPPA compliant format, which then relied
on the information submitted therein, and forwarded said claims, in the same format, to the UNITED
STATES OF AMERICA, in order to obtain the Federal
share of Medicaid expenditures, for both the State
and the City’s benefit.
33. These claims were initially presented to the
UNITED STATES OF AMERICA on a weekly basis via a
“Claims Adjudication Summary Report”.
34. These claims were certified and presented to
the UNITED STATES OF AMERICA by the New York
State Department of Health via a quarterly report
on a form denominated as a Form CMS-64
Certification. A copy of said form is attached as
Exhibit “A”.
35. Said Form CMS-64 Certification requires the
executive officer of the state agency (in this case
NYSDOH) to certify to the U NITED S TATES OF
AMERICA via the Department of Health and Human
Services (HHS) and the Center for Medicare and
Medicaid Services (CMS) that the report (1) only
includes actual expenditures under the Medicaid
program (not estimates) (2) that these expenditures are allowable by law, and (3) that the information shown is correct to the best of the state
agency executive officer’s knowledge and belief.
36. States of the UNITED STATES OF AMERICA and
their subdivisions, including the counties of New
York State and the CITY OF NEW YORK, respectively,
are permitted to seek reimbursement of expenses

14a
that are incurred in accordance with State statutes
and regulations.
Summary of Legal Contentions
37. As set forth in detail herein below, the CITY
OF N EW Y ORK failed to comply with Federal and
State Law and Regulations in processing numerous
requests for Medicaid benefits as submitted by
health care providers, and thus allowed thousands
of health care providers, including HHC, to improperly receive benefits on hundreds of thousands of
occasions within the past six years.
38. The CITY OF NEW YORK, as billing agent for
providers owned by and de facto owned and operated by with the CITY OF NEW YORK, submitted
Medicaid claims via the STATE OF NEW YORK to the
UNITED STATES OF AMERICA which were fraudulent
and misleading to the UNITED STATES OF AMERICA,
in order to induce them to pay monies to THE CITY
OF N EW Y ORK that should not have been paid had
Defendant complied with applicable law and regulation.
39. Defendant CITY OF NEW YORK caused the
STATE OF NEW YORK to submit false claims to the
UNITED STATES OF AMERICA, which Defendant knew
were not in accord with applicable State statutes
and regulations, and which were false and not
properly compensable.
40. The CITY OF NEW YORK knowingly submitted,
via the State of New York, claims to the UNITED

15a
STATES OF AMERICA which were false, by virtue of
their expressed and implied certification that these
claims were in compliance with applicable federal
and state Medicaid law and regulations, when in
fact they were not in compliance.
41. The CITY OF NEW YORK and HHC violated
New York State and Federal laws and regulations
concerning the presentation of said false claims.
42. The CITY OF NEW YORK and HHC falsely certified to the UNITED STATES OF AMERICA and/or the
STATE OF NEW YORK that said New York State and
Federal laws and regulations had been complied
with.
43. The representations made by the CITY OF NEW
YORK and HHC to the UNITED STATES OF AMERICA
and/or the STATE OF NEW YORK concerning the payment of Medicaid benefits were a material and substantial factor in causing the UNITED STATES OF
AMERICA to pay said benefits to the CITY OF NEW
YORK.
44. The CITY OF NEW YORK and HHC expressly
and falsely represented its compliance with fundamental procedural requirements governing the
submission of claims to the UNITED STATES OF
AMERICA via the STATE OF NEW YORK.
45. The CITY OF NEW YORK and HHC impliedly
and falsely represented its compliance with fundamental procedural requirements governing the
submission of claims to the UNITED STATES OF
AMERICA via the STATE OF NEW YORK.

16a
46. On information and belief, the CITY OF NEW
YORK and HHC knew that, had the UNITED STATES
OF A MERICA known of the falsity and legal non-compliances of the Medicaid claims set forth herein,
the UNITED STATES OF AMERICA would have refused
reimbursement of such claims.
47. The CITY OF NEW YORK regularly and systematically authorized that Medicaid benefits be paid
to health care providers and recipients in violation
of STATE OF NEW YORK and UNITED STATES OF
AMERICA Medicaid regulations, and thus allowed
said certain health care providers to improperly
receive Medicaid benefits, despite their lack of eligibility to receive same.
48. As described herein, the CITY OF NEW YORK
and HHC knowingly and wrongfully submitted
legally and factually false claims in a knowing,
reckless disregard, and/or deliberate indifference
to the rights of the UNITED STATES OF AMERICA and
the STATE OF NEW YORK to be free from having false
claims made against them, all in contravention of
established laws and regulations.
49. Outside the City of New York, providers submit their claims to eMedNY, as more fully set forth
below, directly, or through a private authorized
billing agent who submits to eMedNY on their
behalf. No other county or municipality in New
York State had the oversight responsibilities which
the CITY OF NEW YORK had, or served as a billing
agent in the way that the CITY OF NEW YORK did.
This allowed the CITY OF NEW YORK to have signifi-

17a
cant leverage as to policy making, including claims
processing decisions, throughout the Medicaid system. Because of the sheer concentration in NYC of
the number of health care providers, and health
care recipients, necessarily resulting in millions of
claims and billions of dollars in the value of said
claims, it gave the City of New York significant
leverage in the policy considerations which determined the manner in which the eMedNY claims
processing system was used. In this case this
resulted in the manipulation and misuse of
eMedNY as set forth below.
The Process of Obtaining Medicaid Benefits
50. As the administrator of the Medicaid program
within the City of New York, the Defendant CITY OF
NEW YORK had a non-delegable duty and responsibility to determine provider and recipient eligibility for receiving Medicaid benefits, as well as determining continuing eligibility to receive Medicaid
benefits.3
51. For a period from six years prior to February
6, 2014, a health care provider who sought
Medicaid reimbursement for their goods or services
provided would enroll in the Medicaid program,
and then upon rendering services to a Medicaideligible person, submit a “claim” for Medicaid benefits to Defendant CITY OF NEW YORK, i.e. financial
3
Upon information and belief, under certain circumstances not relevant herein, these duties accrued to the State
of New York on and after January 1, 2014.

18a
remuneration for goods or services rendered, often
via a practice management software, New York
State’s ePaces system, or via hard-copy.
52. As an alternative to sending hard-copy application packages, and representing the most commonly utilized method of making such claims, the
authorized provider electronically submitted (in an
approved format such as x-12/HIPAA compliant)
data streams of application information and
images of claim verification documents.
53. Each submitter must have passed a certification process in order to participate in Medicaid
billing. As per HRA, the process is designed to
ensure that the format of the files received follows
the required format, and that the pass/fail rate
meets the 90% acceptance mark.
54. Such health care provider claims, whether
submitted electronically or via hard copy, would be
received by HRA, which would then use a proprietary computer system known as eMedNY, to submit claims in the proper x-12/HIPAA compliant format to the New York State Department of Health.
55. Part of Plaintiff’s job description, as stated
above, was to work perform analysis upon the
eMedNY system, as related to Medicaid management and fraud detection.
56. Plaintiff performed tasks consistent with said
job description, since his hiring by the New York
State Department of Health on October 5, 2006.

19a
57. At all times mentioned herein, eMedNY was
and is a computer system/program, set up by the
State of New York to adjudicate Medicaid health
care provider claims.
58. eMedNY would determine whether a claim
should be paid, denied, pended (i.e. delayed), or
otherwise disposed.
59. In addition to the above possible determinations, eMedNY could also indicate that although
there existed valid reasons for a claim not to be
paid, the claim should nevertheless be paid. These
types of claims were sometimes referred to as “pay
and report” claims.
60. If a claim was determined to be referred to as
“pay and report”, that was a determination by
eMedNY that the claim should be paid.
61. That eMedNY determined how a claim should
be disposed of based upon a complex series of algorhythms and factors, known as “edits”, and thus
determined which Medicaid claims should be paid
or not paid.
62. The Electronic Data Image Transmission
System (known as “EDITS”, as distinguished from
lower-case “edits”, referenced above), was and is an
HRA system designed, inter alia, to automate the
current paper flow between submitters and
HRA/DSS’s Medical Insurance and Community
Services Administration (MICSA) with electronic
transfer of data and images and eligibility determinations.

20a
63. The CITY OF NEW YORK relied upon the
eMedNY system and the system’s determinations,
based upon the aforementioned “edits”, that certain Medicaid health care provider claims be designated as “pay”, “deny”, or “pend”.
64. Claims as described above could be and were
designated as pay, notwithstanding that there
were failed edits which flagged and/or highlighted
infirmities, and sometimes glaring infirmities,
which warranted denial of the claim. Claims with
failed edits which were designated as claims which
should be paid were also known within DOH as
“pay and report” claims.
65. Specifically, at all times mentioned herein,
the CITY OF NEW YORK adopted the design and programming of eMedNY by the STATE OF NEW YORK,
such that certain Medicaid provider claims were
designated to as “pay”, “deny”, “pend”, or “pay and
report”.
66. Once eMedNY determined that health care
providers should be paid based upon HRA-provided
information, it systematically authorized monies to
be paid and subsequently caused these monies to
be paid to those providers.
67. The CITY OF NEW YORK, after having paid or
caused to be paid said health care providers as per
the parameters set by eMedNY, then sought recompense of said payments from the UNITED STATES OF
AMERICA, in order to obtain the latter’s statutory
share, as described above.

21a
68. Annexed as Exhibit “B” is a flow-chart
which illustrates the aforementioned path which
said Medicaid claims take, from initial provider
submission to the CITY OF NEW YORK until payment
of the federal share by the UNITED STATES OF
AMERICA to the CITY OF NEW YORK.
69. Plaintiff respectfully incorporates said flowchart as if fully set-forth herein, as an amplification of the above-described the path of said
Medicaid claims, from the making of the claim by
the provider, through claim processing, and concluding with payment by the UNITED STATES OF
AMERICA.
70. By permitting the payment of false claims to
health care providers who should not have lawfully
been paid, the Defendant CITY OF NEW YORK systematically and routinely breached their duty to
the taxpayers of the UNITED STATES OF AMERICA to
not submit false claims.
71. The Defendant CITY’s violations of law have
resulted in providers receiving more payments
than warranted as per the regulations promulgated
pertinent to the Medicaid program, resulting in
additional and unwarranted cost to taxpayers.
72. These services include Long Term Care,
Residential
Care,
Intermediate
Care
for
Developmentally Disabled persons, Managed Care,
medical care, and related services.

22a
73. Annexed hereto as Exhibit C4 is a spreadsheet denominated “Summary of Long Term Care,
Intermediate Care, Managed Care Medicaid
Claims Paid, broken down by year, from 2009-2015.
This spreadsheet delineates the “Edit Reason
Codes” (described therein as “Edit Rsn Cd”), as well
as an “Edit Reason Descriptions” (described therein as “Edit Rsn Descr”) pertaining to the eMedNY
“edits” described above, in the areas of billing
described above. Also included are the number of
claims per year, the average claim amount, and the
Federal share at issue herein.
74. Said spreadsheet represents a list of the various “edits” which were used by eMedNY to
describe billings ultimately falsely and improperly
presented to and paid by the UNITED STATES OF
AMERICA in the calendar years 2009 through 2015.
75. 18 NYCRR 504.3 (e) provides certain duties
which the providers of health care related services
must comply with, including submitting claims for
payment only for services actually furnished,
which were medically necessary and which were
provided to eligible persons.

4
Exhibit C represents a summary of data not attached
here, in compliance with this Local Civil Rule 5.2 of this
Honorable Court’s Electronic Case Filing Rules & Instructions. Said data is excerpted here, as same is too large to file
electronically, and a full copy is available and can be provided
to Defendant and to this Honorable Court via other media.
Representative excerpts of this data are provided as parts of
Exhibits D and E, discussed below.

23a
76. 18 NYCRR 504.3 (h) provides that providers
of health care related services must provide that
the information provided in relation to any claim
for payment “shall be true, accurate and complete”.
77. 18 NYCRR 515.2 (b)(1) specifically proscribes
the payment of Medicaid claims based upon the
submission of false information by providers.
78. These regulations were systematically and
routinely breached by the Defendants concerning
their submission of Medicaid provider claims to the
UNITED STATES OF AMERICA.
79. Requests for Medicaid reimbursement payments made by the UNITED STATES OF AMERICA were
conditioned upon compliance with said regulations.
80. The CITY OF NEW YORK systematically and
impliedly represented to the UNITED STATES OF
AMERICA its own compliance with said regulations
concerning the approval of Medicaid benefits.
81. Said representations were legally and factually false.
Plaintiff Witnessed a Scheme
to Defraud Medicaid
82. GELBMAN was present at numerous meetings
from 2006 through 2015, commonly referred to by
participants as “Evolution Planning Meetings”, on
a regular basis, sometimes as often as 2-3 times per
week, sometimes as little as once every few weeks,
held between the CITY OF NEW YORK representatives from HRA and the New York State

24a
Department of Health, in which it was averred by
said HRA representatives that policy considerations warranted the improper manipulation of edits
by the New York State Department of Health so as
to benefit the CITY OF NEW YORK.
83. Present at these meetings were GELBMAN’s
supervisors and co-workers within the Department
of Health, namely Jim Donnelly (during the years,
2006-2010), Mohammed Mufti (2010-2015), Dennis
McFadden and Ray King (both 2006 – present),
and Mark Malone and Steve Helman (both less
frequently participating, but also from 2006 –
present).
84. Present on behalf of THE CITY OF NEW YORK’S
HRA were various administrators who were
charged with the responsibility of assuring that the
claims made were paid and, upon information and
belief, insuring that the flow of medical services to
New York City residents by New York City
providers would continue in an unimpeded fashion.
85. It was clear to GELBMAN that all participants
in said “Evolution Planning Meetings” from NYSDOH and HRA were carrying out the instructions
that they had received from their superiors within
NYSDOH and HRA, respectively.
86. These Evolution Planning Meetings took place
at the Department of Health’s Office of Health
Insurance Programs, formerly known as Office of
Medicaid Management, located at 150 Broadway,
Riverview Center, Suite 480, Menands, New York,
12204, with the NYSDOH representatives mostly

25a
participating in person, and with HRA representatives participating via conference call.
87. As a result, it was known to GELBMAN, and
was also common knowledge within his own
department and within the New York State
Department of Health generally, that the CITY OF
NEW YORK’s Medicaid billers were to be protected,
and should be permitted to submit and be paid
claims notwithstanding non-compliance with laws
which otherwise would have rendered said claims
non-payable.
88. This was openly acknowledged on numerous
occasions from 2006-present by the above-referred
to NYSDOH meeting representatives in conversation with GELBMAN.
89. Specifically, GELBMAN had inquired of his
supervisors, including Jim Donnelly and Mark
Malone, as to why certain Medicaid claims were
being paid, notwithstanding that they failed one or
more edits.
90. G ELBMAN ’s superiors stated that it was
claimed by the CITY OF NEW YORK that failure to so
protect the CITY OF NEW YORK would lead to financial ruin for numerous New York City-located
providers and institutions, as well as lead to political problems for the administration of the CITY OF
NEW YORK and financial disruptions of the New
York State Medicaid program.
91. As a result, the CITY OF NEW YORK systematically and routinely sought and received improper
reimbursement for Medicaid expenses in violation

26a
of the aforementioned State regulations, given that
the services – for a variety of reasons described in
greater detail below – should not and could not
have lawfully been provided and recompensed to
the CITY OF NEW YORK.
92. To the extent that claims would not have
been reimbursed by the UNITED STATES OF AMERICA
had applicable laws been followed and the claims
denied, City of New York providers, public and private, would have had to absorb the costs thereof.
93. As a result, the CITY OF NEW YORK attempted
to avoid incurring such unreimbursed costs, and
was able to insure that their claims would be transmitted by the State of New York to the USA,
notwithstanding clear infirmities – described below
– which should have otherwise caused these claims
to be denied.
94. Further, given the “Local Share Cap” referred
to in paragraph 18 above, said Defendant had little
incentive to not cause false claims to be made to the
UNITED STATES OF AMERICA, given that they would
not have to pay the “Local” share of these expenses.
95. In addition, given the dire and precarious
financial state of many of the Defendant CITY OF
NEW YORK’s wholly owned or indirectly owned medical providers and institutions, such as the
Defendant NEW YORK CITY HEALTH AND HOSPITALS
CORPORATION, which were in significant measure
dependent upon receiving funds from the UNITED
STATES OF AMERICA, the Defendant CITY OF NEW
YORK had a clear incentive to continue such false

27a
representations and billings, in order to continue to
maintain the financial health of these medical
institutions.
96. It is well documented and even admitted by
the CITY OF NEW YORK that HEALTH AND HOSPITALS
CORPORATION, which owns and operates numerous
public hospitals in the City of New York (including
what are commonly known as Bellevue Hospital
and Kings County Hospital Center), is presently,
and has been at all times mentioned herein, in dire
financial straits. A 2016 report issued by the City
of New York (“One New York-Healthcare for Our
Neighborhoods“) concluded that after the sharp
decline of critical safety-net funding and the
increasing “safety-net funding gap” since at least
2007, “Without swift and aggressive action, Health
+ Hospitals is on the edge of a financial cliff.” (see
page 22 of that report). This report also notes that
“A recent analysis by the Citizens Budget
Commission has reached similar conclusions”,
referring to a 2012 report by CBC (id, at 22).
97. The Defendant systematically submitted, as a
standard practice and a matter of policy, false
claims to the UNITED STATE OF AMERICA, and this
practice and policy was motivated by the
Defendant’s knowledge of a present and further
developing financial crisis in delivering health care
services to its residents.

28a
Examples of Five Types of False Claims
98. A representative sampling of the edits contained in Exhibit C is set forth herein as Exhibits
D and E, and contains nine (9) categories of edits
each representing the payment of monies from the
UNITED STATES OF AMERICA to the CITY OF NEW
YORK, based upon false claims made by the CITY OF
NEW YORK, as transmitted via the State of New
York.
99. In certain of the nine types of false claims
specified below, the CITY OF NEW YORK facilitated and HHC actually engaged in - “double-dipping” by
the providers, in allowing claims to be submitted
and paid which had already been paid.
100. These claims, as made by health care
providers to the CITY OF NEW YORK, including HHC,
were each infirm for one or more reasons, and that
said infirmities were known to the CITY OF NEW
YORK, yet the City knowingly determined that said
claims should be paid, and that false claims should
be submitted to the UNITED STATES OF AMERICA for
reimbursement of said claims, either in whole or in
part.
101. The nine edits contained on Exhibit D are
broken down by “Edit Reason Code”, and each edit
also describes a particular sum paid by the UNITED
STATES OF AMERICA to the CITY OF NEW YORK in during the calendar years 2009 through 2015.
102. In edits numbered 00050, 00240, 00261,
00262, 00758, 00759, 01029, 01242, and 01244, the

29a
Defendants made false claims concerning the medical services which were provided, and knew that
these claims were materially defective and should
not have been submitted to eMedNY in the first
instance.
Claim Type #1: Untimely Claims
– Edit #00240
103. For example, as per Edit Reason Code #00240
[described therein as “Over Two Year Old Claim
Held For Future Adjudication”], $263,373,434
(federal share) was paid by the UNITED STATES OF
AMERICA from 2009 through 2015, as per false claims
presented by HHC and the CITY OF NEW YORK.
104. Medicaid regulations and in particular 18
NYCRR 540.6 (a)(3)(a) do not permit a claim to be
paid more than two years after the care, services,
or supplies were rendered, yet numerous such
claims were nevertheless routinely and systematically falsely certified and presented to the UNITED
STATES OF AMERICA outside of this time period by
HHC and the CITY OF NEW YORK.
105. Numerous false claims were submitted by
Defendant HHC and paid by the UNITED STATES OF
AMERICA relating to this Edit Code, and exemplar
claims are set forth below for each of the claim
types described here. Additional exemplars of the
above-referred to edits, and those that follow
below, may be found at Exhibit “E”.

30a
Exemplar Claim – Edit 00240
106. BROOKLYN HOSPITAL CENTER (NPI 1326046467,
MMIS ID 00243614) treated a patient on an inpatient basis and performed T OTAL A BDOMINAL
HYSTERECTOMY (Procedure Cd. 684) for MALIGNANT
NEOPLASM OF OVARY (Dx Cd. 1830) – beginning on
11/20/2004 and ending on 12/29/2004, inpatient
claim **********998422 was submitted on or about
5/15/2009 under rate code 2946 and was adjudicated on 5/15/2009, a payment of $191,849.57 was
made on 5/25/2009, of which $95,924.79 was the
Federal Share (50%) despite having set eMedNY
edit 00240 – OVER TWO YEAR OLD CLAIM HELD FOR
FUTURE ADJUDICATION.
107. Medicaid regulations require that such
claims be timely filed, yet such claims, representing capitation claims, were nevertheless presented
to the UNITED STATES OF AMERICA by HHC and the
CITY OF NEW YORK in an untimely manner.
108. The claims referable to Edit Codes 00240
were presented by the CITY, notwithstanding HHC
and the CITY’s knowledge that the provider and/or
recipients of services were ineligible to make such
Medicaid claims, due to the fact that these claims
were untimely, stale, invalid, excluded from coverage, and should not have been submitted in the
first instance by the provider HHC in 2009, and,
correspondingly, should not have been presented
for payment to the UNITED STATES OF AMERICA.

31a
Claim Type #2: Failure To
Present Valid Prior Approval –
Edit #00050 and Edit #00129
109. As per Edit Reason Code #00050 [described
therein as “Prior Approval Number Non-Numeric”],
$ $469,936,674 was paid by the UNITED STATES OF
AMERICA from 2009 to 2015 (Federal share), as per
false claims presented by HHC and the CITY OF
NEW YORK.
110. Medicaid regulations and in particular 18
NYCRR 540.6 (a)(1) does not permit certain claims
to be submitted without proper prior authorization,
where required, which these claims lacked, as gibberish numbers or letters were provided in the
prior approval code field, yet such claims were
falsely presented to the UNITED STATES OF AMERICA
by HHC and by the CITY OF NEW YORK for reimbursement.
111. Numerous false claims were submitted by
Defendants and paid by the UNITED STATES OF
AMERICA relating to Edit Code 00050, and an exemplar claim are set forth herein.
Exemplar Claim – Edit 00050
112. N ORTH C ENTRAL B RONX H OSPITAL (NPI
1023024882, MMIS 00246171) treated a patient on
an inpatient basis for SCHIZOAFFECTIVE DISORDER
(Dx. Cd. 29532) performing N ONEXCISIONAL
DEBRIDEMENT OF WOUND (Proc. Cd. 8628) beginning
on 4/14/2009 and ending on 8/19/2009, on or about

32a
9/19/2009 inpatient claim **********290520 was
submitted under rate code 2852 and was adjudicated on 9/19/2009 and on 9/28/2009 a payment of
$103,434.63 was made of which $51,717.32 was
federal share (50%) despite having set eMedNY
edit 00050 – P RIOR A PPROVAL N UMBER N ON NUMERIC.
113. These claims were presented by HHC and
the CITY, notwithstanding their knowledge that the
provider and/or recipients of services were ineligible to make such Medicaid claims, due to the fact
that these claims were facially invalid, and should
not have been paid in the first instance to the
provider, and, correspondingly, should not have
been presented for payment to the UNITED STATES
OF A MERICA .
114. Similarly, as per Edit Reason Code #01029
[described therein as “required PA (prior approval)
for rate code not found”], $119,054,243 was paid by
the UNITED STATES OF AMERICA from 2009 to 2015,
as per false claims presented by HHC and the CITY
OF N EW Y ORK .
115. Specifically, Medicaid regulations and in
particular 18 NYCRR 540.6 (a)(1) do not permit
claims to be submitted without proper prior
authorization, which these claims lacked, as no
prior approval code was provided in the prior
approval claim field, yet such claims were falsely
presented to the UNITED STATES OF AMERICA by the
CITY OF NEW YORK for reimbursement.

33a
116. The following Medicaid regulations and policies do not permit payment, and in fact exclude coverage of, Assisted Living Program patient claims
and Special Care Patient claims claims of these
types without the requisite prior approvals and/or
authorizations: 18 NYCRR 505.35 Assisted living
programs, and more particularly subsections (a)
and (h)(2) and (3); the New York State Medicaid
Program Assisted Living Program (ALP) Manual
Policy Guidelines Assisted Living Policy Manual
Policy Guidelines, Version 2006 at page 5; and, the
New York State Medicaid Program, Information for
All Providers General Policy, Version 2011.
117. Numerous false claims were submitted by
Defendants and paid by the UNITED STATES OF
AMERICA relating to Edit Code 01029, and an exemplar claim is set forth herein.
Exemplar Claim – Edit 01029
118. BROOKDALE HOSPITAL MEDICAL CENTER ALP
(MMIS 01891469) treated a patient on a residential
basis with UNKNOWN AND UNSPECIFIED CAUSE (Proc.
Cd. 7999) beginning on 6/1/2013 and ending on
6/30/2013 and on or about 7/12/2013 residential
claim **********305330 was submitted under rate
code 3309 and was adjudicated on 7/12/2013 and on
7/22/2013 a payment of $2594.40 of which $1297.20
was federal share (50%) despite having set
eMedNY edit 01029 – REQUIRED PA FOR RATE CODE
NOT FOUND.

34a
119. These claims were presented by HHC and
the CITY, notwithstanding their knowledge that the
provider of services was ineligible to make such
Medicaid claim, due to existing law and/or regulation requiring that prior approval be given by the
New York State Department of Health.
Claim Type #3: Duplicative Claims –
Edit #00758 and Edit #00759
120. As per Edit Reason Code #00758 [described
therein as “duplicate inpatient/pharmacy claim”],
$718,354,109 was paid by the UNITED STATES OF
AMERICA in 2009 through 2015 (federal share), as
per false claims presented by HHC and the CITY OF
NEW YORK.
121. These claims were submitted by HHC and
the CITY, notwithstanding their knowledge that the
provider and/or recipient of services was ineligible
to make such Medicaid claim, due to the fact a
duplicate claim had already been presented and
paid.
122. “Double-dipping” for the same services
billed by a provider is on its face impermissible
under state and federal Medicaid regulations and
laws.
123. Numerous false claims submitted by
Defendants and paid by the UNITED STATES OF
AMERICA relating to this Edit Code, and exemplar
claims are set forth herein:

35a
Exemplar Claim – Edit 00758
124. L INCOLN M EDICAL /M ENTAL H LTH (NPI
1427063270, MMIS 00246126) treated a patient on
an inpatient basis for a diagnosis of CHRONIC
RESPIRATORY FAILURE related to DIABETES WITH
OTHER SPECIFIED MANIFESTATION, specifically procedure cd. 311 (TEMPORARY TRACHEOSTOMY) beginning
on 4/15/2008 and ending on 5/14/2008, inpatient
claim **********773622 was submitted under rate
code 2946 on or about 4/10/2009 and was adjudicated on 4/10/2009, a payment of $464,910.56 was
made on 4/20/2009 of which $232,455.28 was the
Federal Share (50%) despite having set eMedNY
edit 00758 – D UPLICATE I NPATIENT /P HARMACY
CLAIM.
125. As per Edit Reason Code #00759 [described
therein
as
“duplicate
inpatient/clinic”],
$185,238,449 was paid by the UNITED STATES OF
AMERICA in 2009 through 2015 (federal share), as
per false claims presented by HHC and the CITY OF
NEW YORK.
126. These claims were submitted by HHC and
the CITY, notwithstanding their knowledge that the
provider and/or recipient of services was ineligible
to make such Medicaid claim, due to the fact a
duplicate claim had already been presented and
paid.
127. Numerous false claims submitted by
Defendants and paid by the UNITED STATES OF
AMERICA relating to this Edit Code, and exemplar
claims are set forth herein:

36a
Exemplar Claim – Edit 00759
128. HARLEM HOSPITAL CENTER (NPI 1033124961,
MMIS 00246108) treated patient on an inpatient
basis for Dx. Cd. 1481 (MALIGNANT NEOPLASM OF
P YRIFORM
S INUS )
performing
T EMPORARY
T RACHEOSTOMY (Proc. Cd. 311) beginning on
6/8/2009 and ending on 9/11/2009, on or about
2/23/2010 inpatient claim **********303420 was
submitted under rate code 2946 and was adjudicated on 3/1/2010, on 2/23/2010 a payment of
$343,618.05 was made of which $171,809.03 was
federal share (50%) despite setting eMedNY edit
00759 – DUPLICATE INPATIENT/CLINIC CLAIM.
Claim Type #4: Provider Ineligible
– Edit # 01242 and Edit #01244
129. As per Edit Reason Codes #01242 and 01244
[described therein as “Order/Referring Provider
Not in Active Status on Date of Service” and
“Service Provider Not in Active Status on Date
of Service”, respectively], $29,993,213 and
$41,439,167 were paid, respectively, by the UNITED
STATES OF AMERICA in 2013, as per false claims presented by HHC and the CITY OF NEW YORK.
130. These claims were submitted by HHC and
the CITY, in violation of 18 NYCRR 504.1(b)(1)
notwithstanding their knowledge that the referring
provider and the provider who actually rendered
the services, respectively, were ineligible to make

37a
such Medicaid claim, due to their failure to be
properly enrolled in the Medicaid system.
131. 18 NYCRR 504.1(b)(1) prohibits payments to
persons who are not enrolled as a provider of services in the Medicaid program.
132. Numerous false claims submitted by
Defendants and paid by the UNITED STATES OF
AMERICA relating to Edit Codes 01242 and 01244,
and exemplar claims are set forth herein.
Exemplar Claim – Edit 01242
133. KINGSBROOK JEWISH MEDICAL CENTER (NPI
1356307656, MMIS 02998745) treated patient on
an inpatient basis for OTHER SPECIFIED PULMONARY
T UBERCULOSIS (Dx. Cd. 1184) and performed
CLOSED ENDOSCOPIC BIOPSY OF BRONCHU (Proc. Cd.
3324) beginning on 10/8/2010 and ending on
11/1/2010, inpatient claim **********540720 was
submitted under rate code 2946 on or about
2/1/2011 and adjudicated on 2/1/2011, a payment
was made on 2/7/2011 for $20672.90 of which
$10336.45 was Federal share (50%) despite having
set eMedNY edit 01242 – ORDER/REFERRING PROVIDER
NOT ON ACTIVE STATUS ON DATE OF SERVICE.
Exemplar Claim – Edit 01244
134. JACOBI MEDICAL CENTER (NPI 1679587679,
MMIS 00246048) treated a patient on an inpatient
basis for ACUTE GASTRIC ULCER WITH PERFORATION
(Dx. Cd. 53110) performing SUTURE OF GASTRIC

38a
ULCER SITE (Proc. Cd. 4441) beginning on 7/10/2007
and ending on 7/18/2007, on or about 1/20/2010
inpatient claim ********** 895222 was submitted
under rate code 2946 and was adjudicated on
1/20/2010 and on 1/25/2010 a payment of
$39,910.82 was made of which $19,955.41 was federal share (50%) despite having set eMedNY edit
1244 – SERVICE PROVIDER NOT IN ACTIVE STATUS ON
DATE OF SERVICE.
Claim Type #5: Other Insurance
Paid/Medicare Paid –
Edit #00261 and Edit #00262
135. As per Edit Reason Code #00261 [described
therein as “Other Insurance Paid”], and Edit
Reason Code #00262 [described therein as
“Medicare Paid”] $122,558,467 and 70,194,833 was
paid, respectively, by the U NITED S TATES OF
AMERICA in 2009 through 2015 (Federal share), as
per false claims presented by HHC and the CITY OF
NEW YORK.
136. These claims were submitted by HHC and
the CITY, notwithstanding their knowledge that the
provider and/or recipient of services were ineligible
to make such Medicaid claim, due to the fact that
these claims had been previously paid by other
insurers, including Medicare should not have been
presented.
137. These payments represented “double-dipping” by providers, and should not have been presented to the UNITED STATES OF AMERICA, since the

39a
Medicaid program is a payor of last resort, which
can only properly pay for services not reimbursed
by other insurance, as per 42 USC 1396a (25)(A)
and (B) et seq. and 18 NYCRR 540.6(e)(1).
138. Numerous false claims submitted by
Defendants and paid by the UNITED STATES OF
AMERICA relating to this Edit Code, and exemplar
claims are set forth herein:
Exemplar Claim – Edit 00261
139. JACOBI MEDICAL CENTER (NPI 1679587679,
MMIS 00246048) treated a patient on an inpatient
basis for Dx. Cd. 8052 (C LOSED F RACTURE OF
DORSAL THORACIC VERTEBRAE) and performing Proc.
Cd. 8105 (DORSAL AND DORSOLUMBAR FUSION) beginning on 5/28/2013 and ending on 6/12/2013, on or
about 8/14/2013 inpatient claim **********201320
was submitted under rate code 2946 and adjudicated on 8/14/2013 and on 8/19/2013 a payment of
$32,571.22 was made, of which $16,285.61 was federal share (50%) despite having set eMedNY edit
00261 – OTHER INSURANCE PAID.
Exemplar Claim – Edit 00262
140. JACOBI MEDICAL CENTER (NPI 1679587679,
MMIS 00246048) treated a patient on an inpatient
basis for Dx. Cd. 389 (P NEUMONITIS D UE TO
INHALATION OF FOOD OR DRINK) and performing
Proc. Cd. 9672 (CONTINUOUS INVASIVE MECHANICAL
VENTILATION) beginning on 2/27/2013 and ending on

40a
3/11/2013, on or about 8/12/2013 inpatient claim
**********620820 was submitted under rate code
2946 and adjudicated on 8/12/2013 and 8/19/2013 a
payment of $3256.00 was made, of which $1628
was federal share (50%) despite having set
eMedNY edit 00262 – MEDICARE PAID.
141. All of the aforementioned exemplar claims
are representative of numerous false claims made
by Defendants to the UNITED STATES OF AMERICA,
relative to these and numerous other edits which
were designed to stop payment of these claims, but
which were manipulated by HHC and the CITY OF
NEW YORK, with the aid of the New York State
Department of Health, to insure that these claims
were instead paid.
142. The entire universe of false claims submitted by HHC and the CITY OF NEW YORK, for both
public and private providers, as typified by the
exemplar claims recited above, from 2009 through
2015, is contained in summary fashion in Exhibit
C, and is excerpted in Exhibits D and E.
Discussion of Legal Contentions – Liability
143. In submitting the above-referred to
Medicaid claims to the UNITED STATES OF AMERICA,
the Defendants C ITY OF N EW Y ORK and HHC
impliedly represented that the claims properly submitted in accord with applicable federal and state
regulations, and were not falsely made.

41a
144. The Defendants also induced the NYSDOH
to make false representations to the UNITED STATES
OF A MERICA in the Form CMS 64 Certifications that
the Medicaid claims being submitted for reimbursement to the USA complied with all applicable
laws and regulations.
145. The UNITED STATES OF AMERICA would not
have paid the claims referred to herein if they had
known of said non-compliance with regulations,
and if they had known that the claims were falsely
made.
146. Said non-compliance was material to the
payment decisions made by the UNITED STATES OF
AMERICA.
147. The UNITED STATES OF AMERICA would have
refused to pay these claims had they known of the
falsity and legal non-compliance of same is evidenced by extensive references in law, regulation
and the New York State Medicaid Program,
Information for all Providers, General Policy,
Version 2011-2, at page 23 that certain claims
would not be paid, and are excluded, such as for:
A. Claims rendered outside the provider’s
period of eligibility;
B. Claims which require prior approval or
authorization, which had not been
obtained;
C. Claims which had previously paid, and for
which further payment would result in a
duplication of claims;

42a
D. Claims which were received and paid
which were untimely, and which should
not have been paid.
148. Failing to disclose the legal non-compliances
set forth hereinabove was fraudulent and constituted material omissions that induced the UNITED
STATES OF AMERICA to reimburse such claims when
they otherwise would have refused to pay had they
known of such non-compliances.
149. Further demonstration that the U NITED
STATES OF AMERICA would have refused to pay these
claims had they known of the falsity and legal noncompliance of same is demonstrated by audits of
the United States Department of Health and
Human Services (DHHS), Office of Inspector (OIG),
which have required various governmental entities, including the State of New York, to refund to
the Federal Government the Federal Medicaid
share where such entities submitted claims for
services of providers who were not enrolled in New
York’s Medicaid program (see e.g. DHHS Office of
Inspector General—Audit “Review of Medicaid
Claims Made by Lake Grove Schools in New York,”
(A-02-06-01001), September 13, 2006); also, various publications and memoranda from CMS and
the (Government Accountability Office (“GAO”)5
5

See e.g., United States Government Accountability
Office Report to Congressional Requesters, January 2015,
M EDICAID , Additional Federal Action Needed to Further
Improve Third-Party Liability Efforts, GAO-15-208, also referencing prior GAO reports on the same issue since at least

43a
further demonstrate the U NITED S TATES OF
AMERICA’S efforts to prevent payment to non-eligible medical providers.
150. The claims submitted by the Defendants on
behalf of the various providers contained herein as
set forth in the exemplar claims provided, and in
the aggregate claims provided as well, were legally
and factually false ab initio, and should not have
been submitted in the first instance.
151. Defendants knew that the aforesaid claims
were false and furthermore knew that, had the
United States of America known of the falsity and
legal non-compliance of such claims, the USA
would have refused to pay such claims.
152. The fact that the Defendants knew that
these claims were false and that the USA would not
have paid such claims despite their legal non-compliances is evidenced by the manipulation of the
edits in the eMedNY system to allow such claims to
be submitted to the USA despite their non-compliances; that is to say, had these claims been in compliance with State and Federal Medicaid laws and
regulations, THE CITY OF NEW YORK would not have
needed to have prevailed upon the NYSDOH to
manipulate the edits.
153. The manipulation of the edits was evidenced
by the following, as referenced herein above: the
“gibberish” submitted in place of the prior authorization codes; the submission and authorization of
August 2001 at Page 8, and discussing at Page 1, CMS efforts
to address this same issue.

44a
claims that were on their face past the 2 year deadline; and the payment of claims from ineligible
providers.
154. Concerning all of the above-described
Medicaid claims made by the Defendants, representations were made therein by the Defendants to
the UNITED STATES OF AMERICA concerning the services actually rendered, and concerning the compliance by the CITY OF NEW YORK with applicable law
and regulation.
155. The above-referred to claims were legally
and factually false.
156. The UNITED STATES OF AMERICA relied upon
those representations in paying said claims.
157. In addition, the Defendants, acting as
providers, had a duty to return monies received
which represented false claims submitted, as per
31 USC 3729 (a)(1)(G) and as per the Patient
Protection and Affordable Care Act (“PPACA”)
Section 6402 (d), which amended Part A of Title XI
of the Social Security Act, 42 USC 1301, et seq.
158. Pursuant to the PPACA, Defendants were
obligated to return overpayments based upon
Medicaid claims made within 60 days after the
date on which said payment was identified.
159. On each of the payment dates in the claims
specified herein, and in the exemplars stated within, upon information and belief, each claim paid to
the Defendants as providers was accompanied by a
“remittance advice”, which specified the amount

45a
claimed as well as additional information describing infirmities in the claims.
160. For the claims set forth herein, Defendants
were put on actual notice, and had constructive
notice as well, that they overbilled for Medicaid
reimbursements, and received monies to which
they were not entitled under law given the various
infirmities in their billings (e.g. duplicate claims,
failure of prior approval, etc.).
161. Defendants not only failed to report these
overbillings to either DOH or HHS within the requisite 60 day time period as required by law, upon
information and belief, they still have not reported
said overpayments to date, in violation of law.
Damages
162. Said spreadsheet at Exhibit C also depicts
the aggregate monies paid to the CITY OF NEW YORK
by the UNITED STATES OF AMERICA, broken down by
“edits” which allowed monies to be improperly submitted and paid, from 2009 through 2015.
163. Exhibit F depicts the claims detail data for
the summary contained as described in the paragraph above.
164. Said spreadsheet and detail data thus represents damages sustained by the UNITED STATES OF
AMERICA, representing false claims presented by
the CITY OF NEW YORK and HHC to the UNITED
STATES OF AMERICA which, upon information and
belief, is representative of monies paid by the

46a
UNITED STATES OF AMERICA from calendar year 2009
through 2015.
165. Said spreadsheet also indicates that the
amount of claims paid by the UNITED STATES OF
AMERICA from 2009 through 2015, results in damages, exclusive of interest, penalties, or other damages, in the amount up to Fourteen Billion, Two
Hundred and Twenty-Two Million, Four Hundred
and Fifty-Seven Thousand, Two Hundred and
Seventy-Eight Dollars ($14,222,457,278).
166. Said damages represent the pecuniary loss
the pecuniary loss suffered by the UNITED STATES
OF A MERICA , and represent twenty-three million,
six hundred and thirty-thousand, five hundred and
twenty-eight (23,630,528) Medicaid claims made by
the CITY OF NEW YORK.
As And For a First Cause of Action
by Plaintiffs on behalf of GELBMAN and on
behalf of the UNITED STATES OF AMERICA:
Presenting False Claims For Payment
per 31 USC 3729 (a)(1)(A)
167. Plaintiffs repeat, reiterate and re-allege
each and every allegation as set forth above of the
within Amended Complaint with the same force
and effect as though each were more fully set forth
at length herein.
168. At all times herein mentioned, the
Defendant did knowingly, or acting with deliberate
ignorance or reckless disregard for the truth, pres-

47a
ent or caused to be presented, false claims to the
United States of America seeking payment and/or
reimbursement of monies paid to Medicaid
providers and/or benefit recipients, in violation of
31 USC 3729 (a)(1)(A).
169. It is claimed that a civil penalty be assessed
against Defendant for not less than $5,500 and not
more than $11,000 for each one of said claims, as
per 31 USC 3729 (g), as adjusted upwards by applicable law.
170. Said claims related to the types of Long
Term Care, Intermediate Care Facility for the
Developmentally Disabled, and Managed Carerelated Medicaid claims presented to the UNITED
STATES OF AMERICA, as described herein.
171. In requesting payment, the CITY OF NEW
Y ORK falsely certified and represented to the
UNITED STATES OF AMERICA that the providers and
or recipients of said services were eligible to
receive said services, in contravention of applicable
law and regulation, including but not limited to
18 NYCRR 360-1 and 18 NYCRR 360-3.
172. The presentation of said false claims to the
UNITED STATES OF AMERICA caused the UNITED
STATES OF AMERICA to suffer significant pecuniary
losses, by paying false claims which, contrary to
eligibility law and regulation, should not have been
presented to them.

48a
As And For a Second Cause of Action by
Plaintiffs on behalf of GELBMAN and on behalf
of the UNITED STATES OF AMERICA: Use of False
Statements per 31 USC 3729 (a)(1)(B)
173. Plaintiffs repeat, reiterate and re-allege
each and every allegation as contained herein,
including those set forth in the First Cause of
Action of the within Amended Complaint, with the
same force and effect as though each were more
fully set forth at length herein.
174. As set forth above, the Defendant did knowingly, or acting with deliberate ignorance and/or
reckless disregard for the truth, made, used, or
caused to be made or used, false records or statements material to a false or fraudulent claim, in
connection with the submission of the aforementioned claims for Medicaid services rendered, in
violation of 31 USC 3729 (a)(1)(B).
175. The CITY OF NEW YORK knowingly used false
records in order to induce the UNITED STATES OF
AMERICA to pay said false claims.
176. The use of false records, as presented to the
UNITED STATES OF AMERICA, caused the UNITED
STATES OF AMERICA to pay said claims to Defendant,
and to suffer significant pecuniary losses as a
result.

49a
As And For a Third Cause of Action by
Plaintiffs on behalf of GELBMAN and on
behalf of the UNITED STATES OF AMERICA:
Conspiracy per 31 USC 3729 (a)(1)(C)
177. Plaintiffs repeat, reiterate and re-allege
each and every allegation as contained herein,
including those set forth in the First and Second
Causes of Action of the within Amended
Complaint, with the same force and effect as
though each were more fully set forth at length
herein.
178. As set forth above, the Defendants did
knowingly, or acting with deliberate ignorance
and/or reckless disregard for the truth, conspire
with the State of New York to make, use, or caused
to be made or used, false claims to be submitted to
the UNITED STATES OF AMERICA, in connection with
the submission of the aforementioned claims for
Medicaid services rendered, in violation of 31 USC
3729 (a)(1)(C).
179. There was an agreement between each of
the Defendants and the New York State
Department of Health to violate the False Claims
Act, as stated above.
180. There were numerous overt acts from 2006
through 2015, including at each of the meetings
between the above actors described above, which
manifest a knowing and conscious implementation
of said agreement, and a consequent conscious disregard for the rights of the UNITED STATES OF

50a
AMERICA to not be required to pay Medicaid claims
in contravention of Medicaid rules.
As And For a Fourth Cause of Action by
Plaintiffs on behalf of GELBMAN and on
behalf of the UNITED STATES OF AMERICA:
Reverse False Claims – Unlawful
Retention of Medicaid Paid Claims
per 31 USC 3729 (a)(1)(G).
181. Plaintiffs repeat, reiterate and re-allege
each and every allegation as contained herein,
including those set forth in the First, Second, and
Third Causes of Action of the within Amended
Complaint, with the same force and effect as
though each were more fully set forth at length
herein.
182. Defendants each, as providers of health
services, billed for and received benefits as part of
the Medicaid program, as set forth herein.
183. That these benefits were in the form of overpayments known to Defendants, for which a duty
existed under the Patient Protection and
Affordable Care Act (“PPACA”) and 31 USC 3729
(a)(1)(G) to report any “obligation” as per 31 USC
3729 (b)(3) – such as said overpayments – and
return same.
184. Given the Defendant CITY OF NEW YORK’s
obligations, duties, and involvement in the billing
process pertaining to all Medicaid providers, public
and private in the City of New York as set forth

51a
above, the CITY’s failure to carry out said obligations and duties has resulted in liability for reverse
false claims as set forth by 31 USC 3729 (a)(1)(G).
185. The sums claimed herein as damages represent netted false claims paid by the United States
of America, the State of New York, and the City of
New York, after appropriate adjustments had been
made.
186. That said sums were wrongfully retained by
Defendants, and upon information and belief, no
recoupment of said funds were made by Defendants
to any governmental entity.
W HEREFORE , Plaintiffs, as indicated above,
demand judgment against the Defendants in the
amount of Fourteen Billion, Two Hundred and
Twenty-Two Million, Four Hundred and FiftySeven Thousand, Two Hundred and Seventy-Eight
Dollars ($14,222,457,278) for each of the First,
Second and Third Causes of Action, together with
attorneys’ fees, costs, disbursements, interest,
statutory damages, and exemplary damages,
including but not limited to treble damages and
civil penalties as the law allows, and a civil penalty
of not less than $5,500 and not more than $11,000
for each and every violation of the False Claims Act
claimed herein, as per 31 USC 3729 (a)(1)(G), and
as increased by applicable adjustments in law.
Dated: Albany, New York
September 5, 2017

52a
Respectfully submitted,
/s/ RICHARD B. ANCOWITZ
RICHARD B. ANCOWITZ, ESQ.,
LAW OFFICE OF RICHARD B. ANCOWITZ
Counsel for Plaintiffs
115 Great Oaks Boulevard
Albany, New York 12203
factlaw@yahoo.com
(518) 464-0444
SANFORD ROSENBLUM, ESQ.
LAW OFFICE OF SANFORD ROSENBLUM
Co-counsel for Plaintiffs
115 Great Oaks Boulevard
Albany, NY 12203
srosenblumlaw@gmail.com
(518) 464-0444

53a

54a
ONG-TERM
CARE, A
ND MANAGED
AR E
ARE, IN
SUMMARY O
SUMMARY
OFF LLONGLONG
TERM C
CARE,
INTTERMEDIATE
TERMEDIATE CARE,
AND
MANAGED C
CARE
LAIMS P
AID 2009MEDICAID C
MEDICAID
CLAIMS
PAID
2009
200
2009
9-2015
2015
20
15
2009
2009
Edit
Code
00050

Description

Federal Share

Claims Filed

PRIOR APPROVAL NUMBER NON-NUMERIC

21,834,864

10,024

Avg.
Claim
2,178

00123

AMOUNT CHARGED IS LESS THAN MEDICARE 30,393
APPROVED AMOUNT

860

35

00131

THIRD PARTY INDICATED/OTHER INSURANCE AMT 57,628
NOT SUBMITTED

14

4,116

00142

RECIPIENT BIRTH DATE NOT EQUAL FILE

117,716

47

2,505

00144

RECIPIENT SEX NOT EQUAL FILE

77,031

24

3,210

00152

RECIPIENT
FILE
INDICATES
MEDICARE PRESENT

114

1,464

00233

PROCEDURE
FORMS

826

1,863

00239

NO FAULT OR WORKMANS COMP INDICATED/NOT 777,545
COVERED BY MEDICAID

94

8,272

00240

OVER TWO YEAR OLD CLAIM HELD FOR FUTURE 27,486,306
ADJUDICATION

6,913

3,976

00260

MEDICARE PART B AND OR D INDICATED BUT 97,047,955
RECIPENT HAS NO SUCH COVERAGE ON FILE

155,144

626

00261

OTHER INSURANCE PAID

38,146,469

43,834

870

00262

MEDICARE PAID

12,396,565

23,848

520

00397

AMOUNT IS 10% OR LS AMT ON PROCEDURE FILE

62

4

15

00674

INVALID ADJUST CODE
ADJUSTMENT/VOID

247

10,736

00713

CLIENT HAS MEDICARE PART B AND MEDICAID 99,265
OTHER IS BLANK

28

3,545

00728

PA REQUIRED - STAY GT 15 DAYS OR LEVEL OF 2,442,280
CARE CHANGED

1,722

1,418

00744

DIAGNOSIS CODE NOT VALID FOR AIDS RATE CODE

121,644

23

5,289

00758

DUPLICATE INPATIENT/PHARMACY CLAIM

126,812,070

24,766

5,120

INDICATES

MEDICARE/NO 166,932

STERILIZATION/CHECK 1,539,218

FOR

STATE

TSN 2,651,738

55a
Edit
Code
00759

Description

Federal Share

Claims Filed

DUPLICATE INPATIENT/CLINIC

50,031,941

4,771

Avg.
Claim
10,487

00760

SUSPECT DUPLICATE

3,712

36

103

00795

COST OUTLIER CLAIM REQUIRES MANUAL PRICING

29,314,654

577

50,805

00833

RECIPIENT INELIGIBLE FOR PART OF THE SERVICE 348,404
PERIOD ON DRG CLAIM

38

9,169

00927

MODIFIER INVALID FOR SUBMITTED PROCEDURE 25,483
CODE

644

40

01047

DATE OF SERVICE SIX YEARS PRIOR TO DATE 619,050
RECEIVED

38

16,291

01067

BED RETENTION DAYS OVER LIMIT FOR PATIENT 2,333,594
STATUS

1,886

1,237

01131

PAYMENT NOT ALLOWED
INSURANCE IS MAXIMIZED

147,974

2,763

01141

PROVIDER
(OMIG)

871

10,365

01172

PREPAID CAPITATION RECIPIENT
COVERED WITHIN PLAN (DENY)

8

2,084

01197

SERVICE
CONFLICT
IN
COMBO
SERVICE/CLAIM; PAY/RECORD FOR NOW

3,915

5,396

01220

DAY TREATMENT RATE INVALID FOR PRINCIPLE 59,220
PROVIDER CODE

326

182

01242

ORDER/REFERRING PROVIDER NOT IN ACTIVE 783,138
STATUS ON DATE OF SERVICE

146

5,364

01244

SERVICE PROVIDER NOT IN ACTIVE STATUS ON 4,508,058
DATE OF SERVICE

2,389

1,887

01630

M/I PROCESSOR CONTROL NUMBER OR NO TSN 82,663
FOUND FOR PROVIDER ID

7,506

11

EXCEPTION

IND

UNTIL

MEDICARE 408,782,027

REQUIRES
-

PEND 9,028,073

SERVICE 16,674
PRIOR 21,126,974

01705

REVENUE CODE NOT ON DB

11,669,243

98,413

119

01724

LI DOS OUTSIDE FROM/THRU DATES

482,337

637

757

01737

VALUE CODE AMOUNT INVALID FOR SUBMITTED 70,924,728
VALUE CODE

743,844

95

01995

SPECIAL INPUT EDIT (DOH)

247

10,736

2,651,738

56a
Edit
Code
01996

Description

Federal Share

Claims Filed

SPECIAL INPUT EDIT (PCG)

822,933

441

Avg.
Claim
1,866

01997

SPECIAL INPUT EDIT (IPRO)

26,794,079

6,537

4,099

01999

CLAIM HAS BEEN SPECIAL INPUT BY NYS FA

2,251,688

742

3,035

02001

CLAIM PAYER PD AMT NOT EQUAL TO SUM OF 12,224
LINE PAYER PD AMT

495

25

02015

MEDICARE COINSURANCE > 0 AND MEDICARE 18,578,083
PAYMENT = 0

49,922

372

02020

MISSING BILLING NPI

42,554

917

39,010,852

02023

MISSING ATTENDING NPI

47,409,093

36,032

1,316

02024

MISSING OPERATING NPI

8,739,999

3,776

2,315

02025

MISSING RENDERING NPI

8,394,604

287,277

29

02033

INVALID ATTENDING NPI

777,469

3,459

225

02035

INVALID RENDERING NPI

313,799

10,899

29

02037

INVALID OTHER NPI

104,709

3,808

27

02042

REFERRING MMIS PROVIDER ID CAN NOT BE 18,084,576
DERIVED

239,997

75

02043

ATTENDING MMIS PROVIDER ID CAN NOT BE 153,391,704
DERIVED

500,258

307

02044

OPERATING MMIS PROVIDER ID CAN NOT BE 41,787,395
DERIVED

10,458

3,996

02047

OTHER MMIS PROVIDER ID CAN NOT BE DERIVED

9,740

29

02050

INVALID NPI AND MMIS BILLING PROVIDER ID 526,290,590
COMBINATION

1,234,061

426

02052

INVALID NPI AND MMIS REFERRING PROVIDER ID 8,088,025
COMBINATION

75,926

107

02053

INVALID NPI AND MMIS ATTENDING PROVIDER ID 59,186,863
COMBINATION

137,166

431

02054

INVALID NPI AND MMIS OPERATING PROVIDER ID 10,404,333
COMBINATION

3,971

2,620

02055

INVALID NPI AND MMIS RENDERING PROVIDER ID 6,964,179
COMBINATION

242,649

29

281,821

57a
Edit
Code
02056

Description

Federal Share

INVALID NPI AND MMIS SUPERVISING PROVIDER 307,362
ID COMBINATION

10,338

Avg.
Claim
30

02063

TRANSPORTATION SERVICE PAID DURING THIS 6,307,580
INPATIENT ADMISSION PERIOD

832

7,581

02066

DRUG CODE MISSING

412

1,857

02067

ATTENDING PROVIDER NOT LINKED TO BILLING 565,203,913
PROVIDER

185,824

3,042

02068

PROVIDER RATE FOUND WITHOUT MATCHING 766,912,673
ZIP/LOCATOR CODE

1,016,994

754

02071

ORDERING MMIS ID CAN NOT BE DERIVED FROM 371,960
NPI

12,739

29

02075

NPI NOT ALLOWED FOR THIS CATEGORY OF 1,644,535
SERVICE

49,148

33

02077

MORE LINES ON ADJUSTMENT THAN ORIGINAL

2,393

57

42

02079

MISSING OR INVALID POA CODE

28,580,726

6,809

4,197

02098

MEDICARE/OTHER INSURANCE AMOUNTS INVALID

25,357

10

2,536

total

3,292,407,885

5,466,129

602

Edit
Code
00050

Description

Federal Share

Claims Filed

PRIOR APPROVAL NUMBER NON-NUMERIC

26,302,299

11,338

Avg.
Claim
2,320

00123

AMOUNT CHARGED IS LESS THAN MEDICARE 9,435
APPROVED AMOUNT

405

23

00131

THIRD PARTY INDICATED/OTHER INSURANCE AMT 96,364
NOT SUBMITTED

20

4,818

764,971

Claims Filed

2010
2010

00142

RECIPIENT BIRTH DATE NOT EQUAL FILE

276,722

66

4,193

00144

RECIPIENT SEX NOT EQUAL FILE

119,730

43

2,784

00152

RECIPIENT
FILE
INDICATES
MEDICARE PRESENT

MEDICARE/NO 146,080

78

1,873

00233

PROCEDURE
FORMS

STERILIZATION/CHECK 1,447,569

742

1,951

00239

NO FAULT OR WORKMANS COMP INDICATED/NOT 1,591,515

118

13,487

INDICATES

58a
Edit
Code

Description

Federal Share

Claims Filed

Avg.
Claim

COVERED BY MEDICAID
00240

OVER TWO YEAR OLD CLAIM HELD FOR FUTURE 28,716,928
ADJUDICATION

12,191

2,356

00260

MEDICARE PART B AND OR D INDICATED BUT 103,390,504
RECIPENT HAS NO SUCH COVERAGE ON FILE

171,068

604

00261

OTHER INSURANCE PAID

34,626

1,240

42,935,990

00262

MEDICARE PAID

11,423,234

21,953

520

00561

DRUGS/SUPPLY CODE NOT ON FILE

20,002

34

588

00674

INVALID ADJUST CODE
ADJUSTMENT/VOID

284

12,834

00713

CLIENT HAS MEDICARE PART B AND MEDICAID 28,011
OTHER IS BLANK

14

2,001

00728

PA REQUIRED - STAY GT 15 DAYS OR LEVEL OF 1,421,910
CARE CHANGED

1,277

1,113

00744

DIAGNOSIS CODE NOT VALID FOR AIDS RATE CODE

24

2,721

00758

DUPLICATE INPATIENT/PHARMACY CLAIM

137,059,686

25,751

5,322

00759

DUPLICATE INPATIENT/CLINIC

36,893,738

2,841

12,986

00795

COST OUTLIER CLAIM REQUIRES MANUAL PRICING

31,921,684

725

44,030

00833

RECIPIENT INELIGIBLE FOR PART OF THE SERVICE 407,306
PERIOD ON DRG CLAIM

48

8,486

00970

RECIPIENT NOT AUTHORIZED ON
PROVIDER SYSTEM

227

298

00972

RECIPIENT NOT AUTHORIZED FOR LONG TERM 344,185
CARE FOR SERVICE PERIOD

1,308

263

01047

DATE OF SERVICE SIX YEARS PRIOR TO DATE 673,251
RECEIVED

325

2,072

01067

BED RETENTION DAYS OVER LIMIT FOR PATIENT 1,314,650
STATUS

1,650

797

01131

PAYMENT NOT ALLOWED
INSURANCE IS MAXIMIZED

166,307

3,131

01141

PROVIDER
(OMIG)

10,397

391

EXCEPTION

IND

FOR

STATE

TSN 3,644,718

65,311

PRINCIPAL 67,623

UNTIL MEDICARE 520,781,063
REQUIRES

PEND 4,067,980

59a
Edit
Code
01172

Description

6

Avg.
Claim
2,657

01197

SERVICE
CONFLICT
IN
COMBO
SERVICE/CLAIM; PAY/RECORD FOR NOW

6,516

7,352

01220

DAY TREATMENT RATE INVALID FOR PRINCIPLE 62,207
PROVIDER CODE

312

199

01240

RESTRICTED RECIPIENT INPATIENT SERVICE NOT 25,573
PROVIDED/ORDERED/REFERRED BY PRIMARY
PROVIDER

35

731

01242

ORDER/REFERRING PROVIDER NOT IN ACTIVE 419,504
STATUS ON DATE OF SERVICE

148

2,834

01244

SERVICE PROVIDER NOT IN ACTIVE STATUS ON 5,751,416
DATE OF SERVICE

5,133

1,120

01630

M/I PROCESSOR CONTROL NUMBER OR NO TSN 39,942
FOUND FOR PROVIDER ID

3,699

11

01705

REVENUE CODE NOT ON DB

16,919,219

150,523

112

01724

LI DOS OUTSIDE FROM/THRU DATES

448,198

1,612

278

01737

VALUE CODE AMOUNT INVALID FOR SUBMITTED 70,107,784
VALUE CODE

753,810

93

01739

OCCURRENCE DATE INVALID FOR SUBMITTED 11,063
OCCURRENCE CODE

4

2,766

01995

SPECIAL INPUT EDIT (DOH)

284

12,834

PREPAID CAPITATION RECIPIENT
COVERED WITHIN PLAN (DENY)

Federal Share
-

SERVICE 15,942
PRIOR 47,905,680

3,644,718

Claims Filed

01996

SPECIAL INPUT EDIT (PCG)

622,317

361

1,724

01997

SPECIAL INPUT EDIT (IPRO)

28,655,350

7,025

4,079

01999

CLAIM HAS BEEN SPECIAL INPUT BY NYS FA

712,122

2,013

354

02001

CLAIM PAYER PD AMT NOT EQUAL TO SUM OF 2,143
LINE PAYER PD AMT

100

21

02015

MEDICARE COINSURANCE > 0 AND MEDICARE 19,632,953
PAYMENT = 0

53,681

366

02063

TRANSPORTATION SERVICE PAID DURING THIS 4,743,436
INPATIENT ADMISSION PERIOD

525

9,035

02066

DRUG CODE MISSING

5

0

0

60a
Edit
Code
02067

Description

Federal Share

ATTENDING PROVIDER NOT LINKED TO BILLING 224,847,663
PROVIDER

72,180

Avg.
Claim
3,115

02068

PROVIDER RATE FOUND WITHOUT MATCHING 1,601,970,547
ZIP/LOCATOR CODE

2,436,738

657

02077

MORE LINES ON ADJUSTMENT THAN ORIGINAL

1,347

21

64

02079

MISSING OR INVALID POA CODE

25,359,810

6,021

4,212

02105

PROVIDER IS NOT VALID FOR BARIATRIC SURGERY 690,630
FOR OBESITY

267

2,587

02112

CROSSOVER IS A DUPLICATE OF A CLAIM IN 1,453,293
HISTORY

2,055

707

02144

MEDICARE/MCO
REASONABLE

476

412
759

PAYER

AMOUNTS

NOT 195,944

Claims Filed

Total

3,009,406,288

3,967,410

Description

Federal Share

Claims Filed

2011
2011
Edit
Code
00050
00123
00142
00144
00152
00233
00239
00240
00260
00261
00262
00397
00674
00702

PRIOR APPROVAL NUMBER NON-NUMERIC
AMOUNT CHARGED IS LESS THAN MEDICARE
APPROVED AMOUNT
RECIPIENT BIRTH DATE NOT EQUAL FILE
RECIPIENT SEX NOT EQUAL FILE
RECIPIENT FILE INDICATES MEDICARE/NO
MEDICARE PRESENT
PROCEDURE INDICATES STERILIZATION/CHECK
FORMS
NO FAULT OR WORKMANS COMP INDICATED/NOT
COVERED BY MEDICAID
OVER TWO YEAR OLD CLAIM HELD FOR FUTURE
ADJUDICATION
MEDICARE PART B AND OR D INDICATED BUT
RECIPENT HAS NO SUCH COVERAGE ON FILE
OTHER INSURANCE PAID
MEDICARE PAID
AMOUNT IS 10% OR LS AMT ON PROCEDURE FILE
INVALID ADJUST CODE FOR STATE TSN
ADJUSTMENT/VOID
SERVICE DATE NOT WITHIN PA APPROVED DATE

39,436,536
7,191

Avg.
Claim
17,501
2,253
230
31

176,543
99,140
64,191

44
23
34

4,012
4,310
1,888

794,584

473

1,680

827,499

112

7,388

31,235,759

15,060

2,074

114,584,510

192,813

594

24,169,155
11,564,615
91
3,140,514

22,252
21,311
6
281

1,086
543
15
11,176

88,897

53

1,677

61a
Edit
Code
00713
00728
00744
00758
00759
00795
00833
00903
00927
00972
01047
01067
01131
01197
01220
01240

01242
01244
01630
01705
01724
01737
01739
01995
01996

Description
RANGE
CLIENT HAS MEDICARE PART B AND MEDICAID
OTHER IS BLANK
PA REQUIRED - STAY GT 15 DAYS OR LEVEL OF
CARE CHANGED
DIAGNOSIS CODE NOT VALID FOR AIDS RATE CODE
DUPLICATE INPATIENT/PHARMACY CLAIM
DUPLICATE INPATIENT/CLINIC
COST OUTLIER CLAIM REQUIRES MANUAL PRICING
RECIPIENT INELIGIBLE FOR PART OF THE SERVICE
PERIOD ON DRG CLAIM
ORDERING OR REFERRING PROVIDER ID OR
LICENSE NUMBER NOT ON CLAIM
MODIFIER INVALID FOR SUBMITTED PROCEDURE
CODE
RECIPIENT NOT AUTHORIZED FOR LONG TERM
CARE FOR SERVICE PERIOD
DATE OF SERVICE SIX YEARS PRIOR TO DATE
RECEIVED
BED RETENTION DAYS OVER LIMIT FOR PATIENT
STATUS
PAYMENT NOT ALLOWED UNTIL MEDICARE
INSURANCE IS MAXIMIZED
SERVICE CONFLICT IN COMBO PRIOR
SERVICE/CLAIM; PAY/RECORD FOR NOW
DAY TREATMENT RATE INVALID FOR PRINCIPLE
PROVIDER CODE
RESTRICTED RECIPIENT INPATIENT SERVICE NOT
PROVIDED/ORDERED/REFERRED BY PRIMARY
PROVIDER
ORDER/REFERRING PROVIDER NOT IN ACTIVE
STATUS ON DATE OF SERVICE
SERVICE PROVIDER NOT IN ACTIVE STATUS ON
DATE OF SERVICE
M/I PROCESSOR CONTROL NUMBER OR NO TSN
FOUND FOR PROVIDER ID
REVENUE CODE NOT ON DB
LI DOS OUTSIDE FROM/THRU DATES
VALUE CODE AMOUNT INVALID FOR SUBMITTED
VALUE CODE
OCCURRENCE DATE INVALID FOR SUBMITTED
OCCURRENCE CODE
SPECIAL INPUT EDIT (DOH)
SPECIAL INPUT EDIT (PCG)

Federal Share

Claims Filed

Avg.
Claim

78,430

31

2,530

122,312

149

821

69,380
125,046,104
30,398,868
42,313,580
286,871

15
24,328
2,288
1,263
52

4,625
5,140
13,286
33,502
5,517

340

15

23

12,538

396

32

595,952

1,463

407

991,305

326

3,041

237,647

923

257

604,698,937

190,533

3,174

50,437,122

6,209

8,123

65,922

400

165

26,720

36

742

270,749

141

1,920

2,908,202

2,938

990

20,213

1,631

12

6,492,855
720,635
116,872,688

82,586
680
1,049,474

79
1,060
111

3,152

5

630

3,140,514
663,177

281
248

11,176
2,674

62a
Edit
Code
01997
01999
02001
02015
02042
02043
02063
02067
02068
02071
02079
02112
02144

Description

Federal Share

SPECIAL INPUT EDIT (IPRO)
CLAIM HAS BEEN SPECIAL INPUT BY NYS FA
CLAIM PAYER PD AMT NOT EQUAL TO SUM OF
LINE PAYER PD AMT
MEDICARE COINSURANCE > 0 AND MEDICARE
PAYMENT = 0
REFERRING MMIS PROVIDER ID CAN NOT BE
DERIVED
ATTENDING MMIS PROVIDER ID CAN NOT BE
DERIVED
TRANSPORTATION SERVICE PAID DURING THIS
INPATIENT ADMISSION PERIOD
ATTENDING PROVIDER NOT LINKED TO BILLING
PROVIDER
PROVIDER RATE FOUND WITHOUT MATCHING
ZIP/LOCATOR CODE
ORDERING MMIS ID CAN NOT BE DERIVED FROM
NPI
MISSING OR INVALID POA CODE
CROSSOVER IS A DUPLICATE OF A CLAIM IN
HISTORY
MEDICARE/MCO PAYER AMOUNTS NOT
REASONABLE
Totals

21,814,077
1,852,109
4,911

Claims Filed

Avg.
Claim
4,800
4,545
2,534
731
458
11

13,163,917

35,663

369

5,066,015

38,677

131

37,313,106

77,724

480

4,490,932

509

8,823

3,588,518

718

4,998

684,503,840

1,087,535

629

151,506

5,049

30

11,980,042
1,038,152

2,545
1,725

4,707
602

1,144,294

3,516

325

1,998,774,855

2,898,057

690

Claims Filed

2012
2012
Edit
Code
00050

Description
PRIOR APPROVAL NUMBER NON-NUMERIC

Total Federal
Share
56,625,244

18,302

Avg.
Claim
3,094

0050

PRIOR APPROVAL NUMBER NON-NUMERIC

56,625,244

18,302

3,094

00123

AMOUNT CHARGED IS LESS THAN MEDICARE
APPROVED AMOUNT

1,141

27

42

00131

THIRD PARTY INDICATED/OTHER INSURANCE AMT
NOT SUBMITTED

475,686

145

3,281

00142

RECIPIENT BIRTH DATE NOT EQUAL FILE

250,743

62

4,044

00144

RECIPIENT SEX NOT EQUAL FILE

00152

RECIPIENT
FILE
INDICATES
MEDICARE PRESENT

00233

PROCEDURE

INDICATES

289,616

54

5,363

MEDICARE/NO

112,582

59

1,908

STERILIZATION/CHECK

482,860

297

1,626

63a
Edit
Code

Description

Total Federal
Share

Claims Filed

Avg.
Claim

FORMS
00239

NO FAULT OR WORKMANS COMP INDICATED/NOT
COVERED BY MEDICAID

748,264

107

6,993

00240

OVER TWO YEAR OLD CLAIM HELD FOR FUTURE
ADJUDICATION

36,207,031

13,690

2,645

00260

MEDICARE PART B AND OR D INDICATED BUT
RECIPENT HAS NO SUCH COVERAGE ON FILE

100,509,747

178,136

564

00261

OTHER INSURANCE PAID

8,728,822

12,500

698

00262

MEDICARE PAID

10,837,092

20,338

533

00653

STATEMENT FROM DATE PRIOR TO ADMISSION
DATE

30,446

19

1,602

00674

INVALID ADJUST CODE
ADJUSTMENT/VOID

TSN

1,784,832

175

10,199

00713

CLIENT HAS MEDICARE PART B AND MEDICAID
OTHER IS BLANK

85,501

22

3,886

00728

PA REQUIRED - STAY GT 15 DAYS OR LEVEL OF
CARE CHANGED

40,959

27

1,517

00744

DIAGNOSIS CODE NOT VALID FOR AIDS RATE CODE

5,723

4

1,431

00758

DUPLICATE INPATIENT/PHARMACY CLAIM

98,353,635

14,522

6,773

00759

DUPLICATE INPATIENT/CLINIC

23,344,047

1,836

12,715

00789

STATEMENT FROM DATE NOT EQUAL ADMIT DATE
FOR DRG CLAIM

406,974

207

1,966

00795

COST OUTLIER CLAIM REQUIRES MANUAL PRICING

54,446,132

1,566

34,768

00833

RECIPIENT INELIGIBLE FOR PART OF THE SERVICE
PERIOD ON DRG CLAIM

269,208

31

8,684

00927

MODIFIER INVALID FOR SUBMITTED PROCEDURE
CODE

5,841

212

28

00939

ORDERING/REFERRING PROVIDER
PRIOR TO SERVICE/ORDER DATE

EXCLUDED

35,575

7

5,082

00970

RECIPIENT NOT AUTHORIZED ON
PROVIDER SYSTEM

PRINCIPAL

64,323

40

1,608

00972

RECIPIENT NOT AUTHORIZED FOR LONG TERM

292,158

498

587

FOR

STATE

64a
Edit
Code

Description

Total Federal
Share

Claims Filed

Avg.
Claim

CARE FOR SERVICE PERIOD
01029

REQUIRED PA FOR RATE CODE NOT FOUND

4,463,655

107,092

42

01047

DATE OF SERVICE SIX YEARS PRIOR TO DATE
RECEIVED

327,871

45

7,286

01067

BED RETENTION DAYS OVER LIMIT FOR PATIENT
STATUS

96,441

456

211

01131

PAYMENT NOT ALLOWED
INSURANCE IS MAXIMIZED

659,739,944

195,520

3,374

01141

PROVIDER
(OMIG)

PEND

1,844,076

63,217

29

01172

PREPAID CAPITATION RECIPIENT
COVERED WITHIN PLAN (DENY)

SERVICE

49,907

8

6,238

01173

PREPAID CAPITATION RECIPIENT-REFERRAL OR
SPECIALIST ID INVALID

16,476

4

4,119

01180

ABORTION CODE INVALID FOR RECIPIENTS AGE

155

8

19

01197

SERVICE
CONFLICT
IN
COMBO
SERVICE/CLAIM; PAY/RECORD FOR NOW

PRIOR

37,736,621

4,504

8,378

01220

DAY TREATMENT RATE INVALID FOR PRINCIPLE
PROVIDER CODE

77,910

572

136

01240

RESTRICTED RECIPIENT INPATIENT SERVICE NOT
PROVIDED/ORDERED/REFERRED BY PRIMARY
PROVIDER

634,377

704

901

01242

ORDER/REFERRING PROVIDER NOT IN ACTIVE
STATUS ON DATE OF SERVICE

5,504,944

4,024

1,368

01244

SERVICE PROVIDER NOT IN ACTIVE STATUS ON
DATE OF SERVICE

7,234,222

4,945

1,463

01630

M/I PROCESSOR CONTROL NUMBER OR NO TSN
FOUND FOR PROVIDER ID

21,999

1,763

12

EXCEPTION

IND

UNTIL

MEDICARE

REQUIRES
-

01705

REVENUE CODE NOT ON DB

01724

LI DOS OUTSIDE FROM/THRU DATES

01737

VALUE CODE AMOUNT INVALID FOR SUBMITTED
VALUE CODE

31,341

18

1,741

956,275

779

1,228

310,317,088

1,265,416

245

65a
Edit
Code
01739

Description

Total Federal
Share
12,492

Claims Filed
4

Avg.
Claim
3,123

01995

SPECIAL INPUT EDIT (DOH)

1,787,345

176

10,155

01996

SPECIAL INPUT EDIT (PCG)

01997

SPECIAL INPUT EDIT (IPRO)

649,796

254

2,558

24,316,012

4,855

5,008

01999

CLAIM HAS BEEN SPECIAL INPUT BY NYS FA

02001

CLAIM PAYER PD AMT NOT EQUAL TO SUM OF
LINE PAYER PD AMT

64,730,789

10,924

5,926

2,260

151

15

02015

MEDICARE COINSURANCE > 0 AND MEDICARE
PAYMENT = 0

2,666,217

7,573

352

02016

MEDICARE MANAGED CARE (MCO) QUALIFIER 16
CONFLICTS WITH MEDICARE PART A OR PART B
QUALIFIERS

667,030

1,500

445

02042

REFERRING MMIS PROVIDER ID CAN NOT BE
DERIVED

46,924,105

206,611

227

02043

ATTENDING MMIS PROVIDER ID CAN NOT BE
DERIVED

53,051,513

87,528

606

02063

TRANSPORTATION SERVICE PAID DURING THIS
INPATIENT ADMISSION PERIOD

4,087,335

555

7,365

02066

DRUG CODE MISSING

1,070

16

67

02067

ATTENDING PROVIDER NOT LINKED TO BILLING
PROVIDER

1,465,566

286

5,124

02071

ORDERING MMIS ID CAN NOT BE DERIVED FROM
NPI

755,324

27,385

28

02074

UNITS GREATER THAN MAXIMUM

610,059

45

13,557

02077

MORE LINES ON ADJUSTMENT THAN ORIGINAL

8,020

360

22

02079

MISSING OR INVALID POA CODE

2,383,643

542

4,398

02112

CROSSOVER IS A DUPLICATE OF A CLAIM IN
HISTORY

780,221

1,475

529

02139

PSYCHIATRIC RE-ADMISSION CLAIM

20,616,456

2,491

8,276

02144

MEDICARE/MCO
REASONABLE

477,365

1,446

330

OCCURRENCE DATE INVALID FOR SUBMITTED
OCCURRENCE CODE

PAYER

AMOUNTS

NOT

66a
Edit
Code
02157

Description

Total Federal
Share
1,804,991

Claims Filed
794

Avg.
Claim
2,273

02160

DELAY REASON CODE 4 (DELAY IN CERTIFYING
PROVIDER) INVALID

960,875

1,112

864

02162

DELAY REASON CODE 7 (THIRD PARTY PROCESSING
DELAY) INVALID

1,232,192

5,244

235

02163

DELAY REASON CODE 8 (DELAY IN ELIGIBILITY
DETERMINATION) INVALID

10,142,350

4,177

2,428

02164

DELAY REASON CODE 9 (ORIGINAL CLAIM DENIED
UNRELATED TO TIMELINESS EDITS) INVALID

2,822,866

2,489

1,134

02165

DELAY REASON CODE 10 (ADMINISTRATIVE DELAY
IN THE PRIOR APPROVAL PROCESS) INVALID

331,043

15,823

21

02213

PYR 16 INVALID - CLIENT NOT ENRL IN MCARE
ADVANT

10,352,205

27,382

378

1,733,751,869

2,341,458

740

DELAY REASON CODE 1 (PROOF OF ELIGIBILITY
UNKNOWN) INVALID

Total

2013
2013
Edit
Code
00050
00123
00131
00142
00144
00152
00233
00239
00240
00260
00261
00262

Description
PRIOR APPROVAL NUMBER NON-NUMERIC
AMOUNT CHARGED IS LESS THAN MEDICARE
APPROVED AMOUNT
THIRD PARTY INDICATED/OTHER INSURANCE AMT
NOT SUBMITTED
RECIPIENT BIRTH DATE NOT EQUAL FILE
RECIPIENT SEX NOT EQUAL FILE
RECIPIENT
FILE
INDICATES
MEDICARE/NO
MEDICARE PRESENT
PROCEDURE INDICATES STERILIZATION/CHECK
FORMS
NO FAULT OR WORKMANS COMP INDICATED/NOT
COVERED BY MEDICAID
OVER TWO YEAR OLD CLAIM HELD FOR FUTURE
ADJUDICATION
MEDICARE PART B AND OR D INDICATED BUT
RECIPENT HAS NO SUCH COVERAGE ON FILE
OTHER INSURANCE PAID
MEDICARE PAID

Federal Share
68,428,178
693

Claims Filed

Avg.
Claim
22,036
3,105
17
41

290,504

142

2,046

233,090
265,867
118,027

80
68
29

2,914
3,910
4,070

241,484

157

1,538

487,069

88

5,535

31,744,122

13,896

2,284

87,352,632

132,359

660

3,160,439
8,954,814

2,760
13,118

1,145
683

67a
Edit
Code
00653
00674
00713
00728
00744
00758
00759
00795
00833
00843
00848
00854
00970
00972
01027
01029
01047
01067
01131
01141
01145
01148
01172
01197
01220
01240

Description
STATEMENT FROM DATE PRIOR TO ADMISSION
DATE
INVALID ADJUST CODE FOR STATE TSN
ADJUSTMENT/VOID
CLIENT HAS MEDICARE PART B AND MEDICAID
OTHER IS BLANK
PA REQUIRED - STAY GT 15 DAYS OR LEVEL OF
CARE CHANGED
DIAGNOSIS CODE NOT VALID FOR AIDS RATE CODE
DUPLICATE INPATIENT/PHARMACY CLAIM
DUPLICATE INPATIENT/CLINIC
COST OUTLIER CLAIM REQUIRES MANUAL PRICING
RECIPIENT INELIGIBLE FOR PART OF THE SERVICE
PERIOD ON DRG CLAIM
CALCULATED PAYMENT AMOUNT LT 0
THIRD PARTY DAYS NOT EQUAL TO BILLING
PERIOD
SUSPEND MASS ADJUSTMENT/VOID
RECIPIENT NOT AUTHORIZED ON
PRINCIPAL
PROVIDER SYSTEM
RECIPIENT NOT AUTHORIZED FOR LONG TERM
CARE FOR SERVICE PERIOD
MA COV CD 06/09 MEDICARE APPVD AMOUNT
MISSING
REQUIRED PA FOR RATE CODE NOT FOUND
DATE OF SERVICE SIX YEARS PRIOR TO DATE
RECEIVED
BED RETENTION DAYS OVER LIMIT FOR PATIENT
STATUS
PAYMENT NOT ALLOWED UNTIL MEDICARE
INSURANCE IS MAXIMIZED
PROVIDER EXCEPTION IND REQUIRES PEND
(OMIG)
PSYCHIATRIC DIAG/DRG INCONSISTENT WITH
PSYCH EXEMPT UNIT CLAIM
PSYCHIATRIC DIAG/DRG CODE IND PSYCH UNIT
BILL RT
PREPAID CAPITATION RECIPIENT - SERVICE
COVERED WITHIN PLAN (DENY)
SERVICE
CONFLICT
IN
COMBO
PRIOR
SERVICE/CLAIM; PAY/RECORD FOR NOW
DAY TREATMENT RATE INVALID FOR PRINCIPLE
PROVIDER CODE
RESTRICTED RECIPIENT INPATIENT SERVICE NOT

Federal Share
6,972,802

Claims Filed

Avg.
Claim
2,312
3,016

633,872

33

19,208

40,432

10

4,043

41,513

26

1,597

7,496
75,154,796
16,178,133
33,018,017
433,805

3
10,889
1,472
689
54

2,499
6,902
10,991
47,922
8,033

6,558
5,349,158

654
1,793

10
2,983

511,607
39,551

55
87

9,302
455

486,213

519

937

46,791

6

7,799

32,137,534
912,922

646,302
255

50
3,580

83,469

547

153

365,510,719

187,779

1,946

577,401

17,045

34

930,203

172

5,408

933,899

329

2,839

66,558

11

6,051

27,674,450

2,964

9,337

53,108

608

87

2,546,370

1,027

2,479

68a
Edit
Code

01242
01244
01245
01724
01737
01739
01995
01996
01997
01999
02015
02016
02042
02043
02063
02066
02067
02071
02074
02077
02079
02112
02139
02144
02158
02159

Description
PROVIDED/ORDERED/REFERRED BY PRIMARY
PROVIDER
ORDER/REFERRING PROVIDER NOT IN ACTIVE
STATUS ON DATE OF SERVICE
SERVICE PROVIDER NOT IN ACTIVE STATUS ON
DATE OF SERVICE
RESTRICTED RECIPIENT INPATIENT SERVICE NOT
PROVIDED/ORDERED/REFERRED BY PRIMARY
PROVIDER/PEND FOR REVIEW
LI DOS OUTSIDE FROM/THRU DATES
VALUE CODE AMOUNT INVALID FOR SUBMITTED
VALUE CODE
OCCURRENCE DATE INVALID FOR SUBMITTED
OCCURRENCE CODE
SPECIAL INPUT EDIT (DOH)
SPECIAL INPUT EDIT (PCG)
SPECIAL INPUT EDIT (IPRO)
CLAIM HAS BEEN SPECIAL INPUT BY NYS FA
MEDICARE COINSURANCE > 0 AND MEDICARE
PAYMENT = 0
MEDICARE MANAGED CARE (MCO) QUALIFIER 16
CONFLICTS WITH MEDICARE PART A OR PART B
QUALIFIERS
REFERRING MMIS PROVIDER ID CAN NOT BE
DERIVED
ATTENDING MMIS PROVIDER ID CAN NOT BE
DERIVED
TRANSPORTATION SERVICE PAID DURING THIS
INPATIENT ADMISSION PERIOD
DRUG CODE MISSING
ATTENDING PROVIDER NOT LINKED TO BILLING
PROVIDER
ORDERING MMIS ID CAN NOT BE DERIVED FROM
NPI
UNITS GREATER THAN MAXIMUM
MORE LINES ON ADJUSTMENT THAN ORIGINAL
MISSING OR INVALID POA CODE
CROSSOVER IS A DUPLICATE OF A CLAIM IN
HISTORY
PSYCHIATRIC RE-ADMISSION CLAIM
MEDICARE/MCO
PAYER
AMOUNTS
NOT
REASONABLE
DELAY REASON CODE 2 (LITIGATION) INVALID
DELAY REASON CODE 3 (AUTHORIZATION DELAYS)

Federal Share

Claims Filed

Avg.
Claim

6,258,348

13,256

472

5,688,263

6,786

838

6,119

1

6,119

796,943
359,914,433

483
1,248,548

1,650
288

7,224

5

1,445

637,118
446,792
19,840,181
70,838,070
1,477,822

48
122
4,048
9,984
3,540

13,273
3,662
4,901
7,095
417

1,187,512

1,850

642

22,204,060

102,998

216

20,583,173

17,121

1,202

3,385,562

441

7,677

357
1,289,946

11
80

32
16,124

317,375

7,092

45

2,818,923
21,866
879,884
238,027

151
942
339
541

18,668
23
2,596
440

45,627,226
99,603

5,307
204

8,598
488

506,518
25,876,306

1,171
68,092

433
380

69a
Edit
Code
02162
02216
02217
02219
02223
02224

Description

Federal Share

INVALID
DELAY REASON CODE 7 (THIRD PARTY PROCESSING
DELAY) INVALID
REFERRING MMIS PROVIDER ID CAN NOT BE
DERIVED
ATTENDING MMIS PROVIDER ID CAN NOT BE
DERIVED
ORDERING MMIS PROVIDER ID CAN NOT BE
DERIVED
DELAY REASON CODE 15 (NATURAL DISASTER)
INVALID
INPATIENT TO NH/ICF-DD/CHILDCARE DUPLICATE
Total

Claims Filed

Avg.
Claim

1,636

79

21

58,793,468

392,255

150

54,399,859

225,959

241

479,837

17,292

28

352,505

105

3,357

1,878,559
1,478,477,812

570
3,189,812

3,296
463

2014
2014
Edit
Code
00050

Description

Federal Share

Claims Filed

PRIOR APPROVAL NUMBER NON-NUMERIC

98,778,095

27,337

Avg.
Claim
3,613

00131

THIRD PARTY INDICATED/OTHER INSURANCE AMT 54,975
NOT SUBMITTED

73

753

00142

RECIPIENT BIRTH DATE NOT EQUAL FILE

28,422

16

1,776

00144

RECIPIENT SEX NOT EQUAL FILE

10,775

00152

RECIPIENT
FILE
INDICATES
MEDICARE PRESENT

00233

PROCEDURE
FORMS

00239

8

1,347

30

1,420

87

1,733

NO FAULT OR WORKMANS COMP INDICATED/NOT 876,082
COVERED BY MEDICAID

119

7,362

00240

OVER TWO YEAR OLD CLAIM HELD FOR FUTURE 20,047,577
ADJUDICATION

20,503

978

00260

MEDICARE PART B AND OR D INDICATED BUT 89,629,500
RECIPENT HAS NO SUCH COVERAGE ON FILE

159,460

562

00261

OTHER INSURANCE PAID

2,304,887

2,569

897

00262

MEDICARE PAID

9,068,882

14,484

626

00653

STATEMENT FROM DATE PRIOR TO ADMISSION 41,318,205
DATE

12,306

3,358

INDICATES

MEDICARE/NO 42,595

STERILIZATION/CHECK 150,772

70a
Edit
Code
00728

Description

Federal Share

PA REQUIRED - STAY GT 15 DAYS OR LEVEL OF 13,663
CARE CHANGED

10

Avg.
Claim
1,366

00758

DUPLICATE INPATIENT/PHARMACY CLAIM

76,304,779

13,332

5,723

00759

DUPLICATE INPATIENT/CLINIC

15,727,714

1,363

11,539

00795

COST OUTLIER CLAIM REQUIRES MANUAL PRICING

39,555,322

1,337

29,585

00810

NUMBER OF DAYS BILLED GREATER THAN DAYS IN 18,270
BILLING PERIOD

1

18,270

00833

RECIPIENT INELIGIBLE FOR PART OF THE SERVICE 485,760
PERIOD ON DRG CLAIM

50

9,715

00843

CALCULATED PAYMENT AMOUNT LT 0

2,552

0

00848

THIRD PARTY DAYS NOT EQUAL TO BILLING 33,913,932
PERIOD

7,393

4,587

00854

SUSPEND MASS ADJUSTMENT/VOID

29,616

651

00970

RECIPIENT NOT AUTHORIZED ON
PROVIDER SYSTEM

305

671

00972

RECIPIENT NOT AUTHORIZED FOR LONG TERM 972,469
CARE FOR SERVICE PERIOD

2,745

354

01002

RECIPIENT COVERED BY MEDICARE PART-B; RE- 28,810
BILL WITH PART-B RATE

35

823

01027

MA COV CD 06/09 MEDICARE APPVD AMOUNT 113,937
MISSING

13

8,764

796

19,283,347
PRINCIPAL 204,747

01029

REQUIRED PA FOR RATE CODE NOT FOUND

784,632

48

01047

DATE OF SERVICE SIX YEARS PRIOR TO DATE 1,367,577
RECEIVED

399

3,428

01067

BED RETENTION DAYS OVER LIMIT FOR PATIENT 52,231
STATUS

690

76

01131

PAYMENT NOT ALLOWED
INSURANCE IS MAXIMIZED

193,726

1,324

01141

PROVIDER
(OMIG)

11,149

24

01145

PSYCHIATRIC DIAG/DRG INCONSISTENT WITH 315,162
PSYCH EXEMPT UNIT CLAIM

56

5,628

EXCEPTION

IND

UNTIL

37,372,226

Claims Filed

MEDICARE 256,543,212

REQUIRES

PEND 269,778

71a
Edit
Code
01148

Description

Federal Share

PSYCHIATRIC DIAG/DRG CODE IND PSYCH UNIT 483,774
BILL RT

156

Avg.
Claim
3,101

01172

PREPAID CAPITATION RECIPIENT
COVERED WITHIN PLAN (DENY)

4

1,392

01197

SERVICE
CONFLICT
IN
COMBO
SERVICE/CLAIM; PAY/RECORD FOR NOW

3,258

8,998

01220

DAY TREATMENT RATE INVALID FOR PRINCIPLE 13,893
PROVIDER CODE

193

72

01240

RESTRICTED RECIPIENT INPATIENT SERVICE NOT 2,434,964
PROVIDED/ORDERED/REFERRED BY PRIMARY
PROVIDER

1,134

2,147

01242

ORDER/REFERRING PROVIDER NOT IN ACTIVE 7,425,093
STATUS ON DATE OF SERVICE

18,773

396

01244

SERVICE PROVIDER NOT IN ACTIVE STATUS ON 6,932,658
DATE OF SERVICE

12,923

536

01292

DATE OF SERVICE TWO YEARS PRIOR TO DATE 28,657
RECEIVED

27

1,061

01724

LI DOS OUTSIDE FROM/THRU DATES

846

1,413

01737

VALUE CODE AMOUNT INVALID FOR SUBMITTED 306,032,887
VALUE CODE

1,117,244

274

-

SERVICE 5,569
PRIOR 29,314,525

1,195,410

Claims Filed

01996

SPECIAL INPUT EDIT (PCG)

139,187

72

1,933

01997

SPECIAL INPUT EDIT (IPRO)

7,904,085

1,588

4,977

01999

CLAIM HAS BEEN SPECIAL INPUT BY NYS FA

4,573,921

8,799

520

02015

MEDICARE COINSURANCE > 0 AND MEDICARE 1,110,529
PAYMENT = 0

2,119

524

02016

MEDICARE MANAGED CARE (MCO) QUALIFIER 16 1,632,950
CONFLICTS WITH MEDICARE PART A OR PART B
QUALIFIERS

2,777

588

02042

REFERRING MMIS PROVIDER ID CAN NOT BE 12,121,321
DERIVED

28,781

421

02043

ATTENDING MMIS PROVIDER ID CAN NOT BE 12,136,512
DERIVED

21,659

560

02063

TRANSPORTATION SERVICE PAID DURING THIS 3,454,651

466

7,413

72a
Edit
Code

Description

Federal Share

Claims Filed

Avg.
Claim

INPATIENT ADMISSION PERIOD
02067

ATTENDING PROVIDER NOT LINKED TO BILLING 286,050
PROVIDER

74

3,866

02071

ORDERING MMIS ID CAN NOT BE DERIVED FROM 61,032
NPI

2,355

26

02074

UNITS GREATER THAN MAXIMUM

1,522,756

70

21,754

02077

MORE LINES ON ADJUSTMENT THAN ORIGINAL

23,672

897

26

02105

PROVIDER IS NOT VALID FOR BARIATRIC SURGERY 193,966
FOR OBESITY

119

1,630

02112

CROSSOVER IS A DUPLICATE OF A CLAIM IN 283,840
HISTORY

1,104

257

02139

PSYCHIATRIC RE-ADMISSION CLAIM

02144

MEDICARE/MCO
REASONABLE

02158

DELAY REASON CODE 2 (LITIGATION) INVALID

02159

3,273

9,070

153

514

1,060

448

DELAY REASON CODE 3 (AUTHORIZATION DELAYS) 77,956,960
INVALID

177,420

439

02183

HOSPITAL LEAVE DAYS OR OTHER LEAVE OF 112
ABSENCE DAYS THAT ARE CONSISTENT WITH A
PLAN OF CARE ORDERED BY SUCH PATIENTS
TREATING HEALTH CARE PROFESSIONAL HAVE
BEEN EXCEEDED FOR THIS CLIENT FOR
REIMBURSEMENT

1

112

02213

PYR 16 INVALID - CLIENT NOT ENRL IN MCARE 131
ADVANT

1

131

02217

ATTENDING MMIS PROVIDER ID CAN NOT BE 4,018,982
DERIVED

3,236

1,242

02223

DELAY REASON CODE 15 (NATURAL DISASTER) 3,291,606
INVALID

675

4,876

02224

INPATIENT TO NH/ICF-DD/CHILDCARE DUPLICATE

5

2,187

02234

SERVICE LINE PROCEDURE CODE NOT COMPATIBLE 133,242
TO CLAIM TYPE A OR L

3,129

43

total

2,700,787

466

PAYER

AMOUNTS

29,687,476
NOT 78,570
475,186

10,933

1,259,819,599

73a
2015
2015
Edit
Code
00050

Description

Federal Share

Claims Filed

101,906,214

28,698

Avg.
Claim
3,551

00131

THIRD PARTY INDICATED/OTHER INSURANCE AMT
NOT SUBMITTED

23,843

6

3,974

00152

RECIPIENT
FILE
INDICATES
MEDICARE PRESENT

MEDICARE/NO

34,198

28

1,221

00233

PROCEDURE
FORMS

STERILIZATION/CHECK

117,417

82

1,432

00239

NO FAULT OR WORKMANS COMP INDICATED/NOT
COVERED BY MEDICAID

1,280,338

139

9,211

00240

OVER TWO YEAR OLD CLAIM HELD FOR FUTURE
ADJUDICATION

83,472,802

59,173

1,411

00260

MEDICARE PART B AND OR D INDICATED BUT
RECIPENT HAS NO SUCH COVERAGE ON FILE

84,858,587

137,912

615

00261

OTHER INSURANCE PAID

3,112,705

3,262

954

00262

MEDICARE PAID

5,949,631

10,110

588

00653

STATEMENT FROM DATE PRIOR TO ADMISSION
DATE

28,294,092

8,303

3,408

00664

ATTENDING PHYSICIAN LICENSE NUMBER MISSING

162,893,402

448,746

363

00674

INVALID ADJUST CODE
ADJUSTMENT/VOID

305,242

42

7,268

00727

NEAR DUPLICATE CLAIM IN HISTORY

152,843

10

15,284

00728

PA REQUIRED - STAY GT 15 DAYS OR LEVEL OF
CARE CHANGED

13,420

10

1,342

00758

DUPLICATE INPATIENT/PHARMACY CLAIM

79,623,039

13,667

5,826

PRIOR APPROVAL NUMBER NON-NUMERIC

INDICATES

FOR

STATE

TSN

00759

DUPLICATE INPATIENT/CLINIC

12,664,008

1,201

10,545

00795

COST OUTLIER CLAIM REQUIRES MANUAL PRICING

30,690,836

866

35,440

00833

RECIPIENT INELIGIBLE FOR PART OF THE SERVICE
PERIOD ON DRG CLAIM

892,606

69

12,936

00843

CALCULATED PAYMENT AMOUNT LT 0

00854

SUSPEND MASS ADJUSTMENT/VOID

2,386

2,955

1

26,282,534

31,739

828

74a
Edit
Code
00972

Description

Federal Share

Claims Filed

RECIPIENT NOT AUTHORIZED FOR LONG TERM
CARE FOR SERVICE PERIOD

514,011

710

Avg.
Claim
724

01027

MA COV CD 06/09 MEDICARE APPVD AMOUNT
MISSING

56,920

17

3,348

01029

REQUIRED PA FOR RATE CODE NOT FOUND

45,080,828

865,140

52

01047

DATE OF SERVICE SIX YEARS PRIOR TO DATE
RECEIVED

1,040,348

84

12,385

01067

BED RETENTION DAYS OVER LIMIT FOR PATIENT
STATUS

72,525

1,060

68

01131

PAYMENT NOT ALLOWED
INSURANCE IS MAXIMIZED

210,752,783

185,505

1,136

01141

PROVIDER
(OMIG)

PEND

206,515

8,113

25

01172

PREPAID CAPITATION RECIPIENT
COVERED WITHIN PLAN (DENY)

-

SERVICE

64,394

5

12,879

01197

SERVICE
CONFLICT
IN
COMBO
SERVICE/CLAIM; PAY/RECORD FOR NOW

PRIOR

26,570,374

2,794

9,510

01220

DAY TREATMENT RATE INVALID FOR PRINCIPLE
PROVIDER CODE

36,829

512

72

01240

RESTRICTED RECIPIENT INPATIENT SERVICE NOT
PROVIDED/ORDERED/REFERRED BY PRIMARY
PROVIDER

2,715,698

1,182

2,298

01242

ORDER/REFERRING PROVIDER NOT IN ACTIVE
STATUS ON DATE OF SERVICE

9,331,437

21,678

430

01244

SERVICE PROVIDER NOT IN ACTIVE STATUS ON
DATE OF SERVICE

8,416,348

16,973

496

01292

DATE OF SERVICE TWO YEARS PRIOR TO DATE
RECEIVED

3,954

3

1,318

01724

LI DOS OUTSIDE FROM/THRU DATES

01737

VALUE CODE AMOUNT INVALID FOR SUBMITTED
VALUE CODE

01995
01996

EXCEPTION

IND

UNTIL

MEDICARE

REQUIRES

814,432

499

1,632

309,332,889

980,259

316

SPECIAL INPUT EDIT (DOH)

305,242

42

7,268

SPECIAL INPUT EDIT (PCG)

861,205

211

4,082

75a
Edit
Code
01997

Description
SPECIAL INPUT EDIT (IPRO)

Federal Share

Claims Filed

7,960,189

1,133

Avg.
Claim
7,026

01999

CLAIM HAS BEEN SPECIAL INPUT BY NYS FA

44,368,553

17,169

2,584

02015

MEDICARE COINSURANCE > 0 AND MEDICARE
PAYMENT = 0

217,258

453

480

02016

MEDICARE MANAGED CARE (MCO) QUALIFIER 16
CONFLICTS WITH MEDICARE PART A OR PART B
QUALIFIERS

1,785,377

1,985

899

02023

MISSING ATTENDING NPI

5,493,182

5,191

1,058

02042

REFERRING MMIS PROVIDER ID CAN NOT BE
DERIVED

3,883,485

1,729

2,246

02043

ATTENDING MMIS PROVIDER ID CAN NOT BE
DERIVED

3,907,098

1,686

2,317

02046

SUPERVISING MMIS PROVIDER ID CAN NOT BE
DERIVED

731

44

17

02063

TRANSPORTATION SERVICE PAID DURING THIS
INPATIENT ADMISSION PERIOD

3,272,311

434

7,540

02067

ATTENDING PROVIDER NOT LINKED TO BILLING
PROVIDER

292,355

6

48,726

02071

ORDERING MMIS ID CAN NOT BE DERIVED FROM
NPI

1,871

37

51

02077

MORE LINES ON ADJUSTMENT THAN ORIGINAL

16,111

528

31

02079

MISSING OR INVALID POA CODE

126,766

15

8,451

02105

PROVIDER IS NOT VALID FOR BARIATRIC SURGERY
FOR OBESITY

623,319

326

1,912

02112

CROSSOVER IS A DUPLICATE OF A CLAIM IN
HISTORY

267,188

607

440

02139

PSYCHIATRIC RE-ADMISSION CLAIM

02144

MEDICARE/MCO
REASONABLE

37,130,830

4,256

8,724

NOT

35,176

83

424

02158

DELAY REASON CODE 2 (LITIGATION) INVALID

1,058,429

1,732

611

02159

DELAY REASON CODE 3 (AUTHORIZATION DELAYS)
INVALID

90,210,854

185,248

487

PAYER

AMOUNTS

76a
Edit
Code
02213

Description

Federal Share

Claims Filed

PYR 16 INVALID - CLIENT NOT ENRL IN MCARE
ADVANT

2,824

1

Avg.
Claim
2,824

02217

ATTENDING MMIS PROVIDER ID CAN NOT BE
DERIVED

8,644,342

3,923

2,204

02223

DELAY REASON CODE 15 (NATURAL DISASTER)
INVALID

1,110,439

229

4,849

02231

INPATIENT CLAIM CONTAINS ALC DAYS - NEED TO
SPLIT BILL

41,031

5

8,206

02232

ADMIT DATE PRIOR TO SERVICE BEG DATE FOR
DRG OR PSYCH CLAIM

52,181

12

4,348

02234

SERVICE LINE PROCEDURE CODE NOT COMPATIBLE
TO CLAIM TYPE A OR L

372,329

8,204

45

02248

INPATIENT DRG/EMERGENCY DEPARTMENT CLINIC
CLAIMS DUPLICATE

197,866

34

5,820

1,449,818,970

3,066,875

473

total

77a
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
No. 18-3162
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT
HAVE PRECEDENTIAL EFFECT. CITATION
TO A SUMMARY ORDER FILED ON OR
AFTER JANUARY 1, 2007 IS PERMITTED
AND IS GOVERNED BY FEDERAL RULE OF
APPELLATE PROCEDURE 32.1 AND THIS
COURT’S LOCAL RULE 32.1.1. WHEN CITING
A SUMMARY ORDER IN A DOCUMENT
FILED WITH THIS COURT, A PARTY MUST
CITE EITHER THE FEDERAL APPENDIX OR
AN ELECTRONIC DATABASE (WITH THE
NOTATION “SUMMARY ORDER”). A PARTY
CITING TO A SUMMARY ORDER MUST
SERVE A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley
Square, in the City of New York, on the 17th day of
October, two thousand nineteen.

78a
PRESENT:
PIERRE N. LEVAL,
SUSAN L. CARNEY,
Circuit Judges,
TIMOTHY C. STANCEU,
Judge.*
UNITED STATES OF AMERICA,
EX REL. ANDREW GELBMAN,
Plaintiff-Appellant,
v.
CITY OF NEW YORK,
NEW YORK CITY HEALTH AND
HOSPITALS CORPORATION,
Defendants-Appellees.
FOR PLAINTIFF-APPELLANT:
BRIAN J. ISAAC, Pollack Pollack Isaac &
DeCicco, LLP, New York, NY (Richard B.
Ancowitz, Law Office of Richard B.
Ancowitz, Albany, NY, on the brief).
FOR DEFENDANTS-APPELLEES:
JOSEPH V. WILLEY (Alan J. Brudner, on
the brief), Katten Muchin Rosenman LLP,
New York, NY.

* Chief Judge Timothy C. Stanceu, of the United States
Court of International Trade, sitting by designation.

79a
Appeal from a judgment of the United States District Court for the Southern District of New York
(Broderick, J.).
U PON D UE C ONSIDERATION W HEREOF , I T I S
HEREBY ORDERED, ADJUDGED, AND DECREED that
the judgment entered on September 30, 2018, is
AFFIRMED.
Plaintiff-Appellant Andrew Gelbman appeals
from the judgment of the District Court (Broderick,
J.), dismissing his qui tam complaint filed under
the False Claims Act (the “FCA”), 31 U.S.C. § 3729
et seq., for failure to state a claim under Federal
Rule of Civil Procedure 12(b)(6) and failure to
plead fraud with particularity under Rule 9(b). We
assume the parties’ familiarity with the underlying
facts, procedural history, and arguments on
appeal, to which we refer only as necessary to
explain our decision to affirm.
Gelbman alleges that the City of New York (the
“City”) and the Health and Hospitals Corporation
(“HHC”) (collectively, “Defendants-Appellees”) submitted false claims to the United States government for reimbursement under the Medicaid
program. 1 The second amended complaint (the
“SAC”) sets forth the following factual allegations
relating to the alleged fraudulent scheme, which
we take as true for the purposes of evaluating a
motion to dismiss.
1

The Medicaid Act, 42 U.S.C. §§ 1396 et seq., established
a cooperative federal-state program designed to provide medical assistance to low-income individuals.

80a
To obtain Medicaid reimbursements from the
federal government, health care providers that
operate within the City’s jurisdiction submit their
Medicaid claims to the City’s Human Resources
Administration (the “HRA”). HRA, in turn, relays
these claims to the New York State Department of
Health (the “NYSDOH”), the state agency charged
with administering New York’s state Medicaid
plan.
NYSDOH then uses eMedNY—an automated
computer screening system that was “design[ed]
and program[ed]” by New York State—to determine whether a claim is reimbursable under Medicaid. App’x 34. Specifically, eMedNY runs the
claims through a series of computer algorithms,
called “edits,” that classify each claim according to
various characteristics that are relevant to billing
and reimbursement. App’x 33. Based on these computer edits, eMedNY determines whether to pay or
deny a claim. If the eMedNY system applies an
“edit” indicating that a claim is flawed or otherwise
ineligible, the provider is informed of the issue and
has an opportunity to cure the error and resubmit
the claim. The provider may also argue that the
“edit” was applied in error or request an exception
to the denial. See New York State Department of
Health, New York State Electronic Medicaid System Remittance Advice Guideline 106-07 (2013).
NYSDOH then submits the paid claims, as determined by eMedNY, to the United States for reimbursement of the federal government’s share of
Medicaid expenditures. It does so through a
CMS-64 Quarterly Expense Report (the “Expense

81a
Report”) that, inter alia, certifies to the United
States that “[t]his report only includes expenditures under the Medicaid program . . . that are
allowable in accordance with applicable implementing federal, state, and local statutes, regulations, policies, and the state plan approved by the
Secretary.” App’x 60.
Gelbman asserts, however, that DefendantsAppellees and NYSDOH have “conspired to manipulate and rig the manner in which Medicaid claims
. . . [are] processed by eMedNY,” such that claims
that were flagged by eMedNY as ineligible for
reimbursement under state or federal law are nevertheless being submitted to the federal government. App’x 23. Gelbman learned of the alleged
fraudulent scheme through his employment as an
“Information Specialist II” at NYSDOH, where he
performed work on eMedNY, including “Medicaid
management and fraud detection.” App’x 21, 33.
Gelbman alleges that, during various meetings
held between the City and NYSDOH, certain
unnamed HRA representatives “averred . . . that
policy considerations warranted the improper
manipulation of edits by [NYSDOH],” and that as a
result of these meetings, Defendants-Appellees and
NYSDOH manipulated the eMedNY system to
ensure that certain ineligible claims were paid and
submitted for reimbursement “so as to benefit the
[City].” App’x 37. When Gelbman asked why certain Medicaid claims were being paid even though
they were ineligible for reimbursement under state
or federal law, his supervisors at NYSDOH
explained that failure to do so would lead to “finan-

82a
cial ruin” for the City’s health care providers and
“political problems” for the City. App’x 38.
Gelbman also alleges that he discovered “files
and records” showing that the United States government had reimbursed the City on claims that
eMedNY had, at some point in time, identified as
(1) “untimely,” (2) “submitted without proper prior
authorization,” (3) “duplicative,” (4) submitted by
providers who were not properly enrolled in the
Medicaid program, or (5) had already been paid by
another insurer or by Medicare. App’x 24, 41-48,
53-54. For each category of claims, the SAC identifies the laws that allegedly render the claim ineligible, as well as provides detailed payment
information for more than 80 individual “exemplar”
claims. App’x 41. Gelbman estimates that, from
2009 through 2015, the submission of these five
types of Medicaid claims has resulted in the federal
government overpaying the City by more than $14
billion in Medicaid reimbursements.
In February 2014, Gelbman filed suit on behalf of
the United States under the qui tam provisions of
the FCA. Gelbman asserts four FCA claims against
Defendants-Appellees for (1) presenting a false
claim, in violation of 31 U.S.C. § 3729(a)(l)(A); (2)
making or using a false record or statement material to a false claim, in violation of § 3729(a) (l) (B);
(3) conspiring to violate the FCA, in violation of
§ 3729(a) (l) (C); and (4) making or using a false
record to avoid an obligation to pay the federal government (i.e., a “reverse false claim”), in violation
of § 3729(a)(l)(G). The United States declined to
intervene in the action.

83a
Defendants-Appellees sought dismissal of the
SAC under Rule 12(b)(6) for failure to state a claim
and under Rule 9(b) for failure to allege fraud with
particularity. The District Court granted Defendants-Appellees’ motion; denied Gelbman’s request
for leave to further amend his complaint; and dismissed the action with prejudice. Gelbman now
appeals the District Court’s dismissal of the SAC,
but not its denial of leave to amend. For the reasons set forth below, we affirm the District Court’s
dismissal, primarily for the SAC’s failure to satisfy
Rule 9(b).
1.

31 U.S.C. §§ 3729(a)(l)(A), (B), and (C)

Gelbman’s counts under §§ 3729(a)(l)(A), (B), and
(C) of the FCA are subject to Rule 9(b), see United
States ex rel. Ladas v. Exelis, Inc., 824 F.3d 16, 26
(2d Cir. 2016), which requires a party alleging
fraud to “state with particularity the circumstances constituting fraud.” Fed. R. Civ. P. 9(b). We
review de novo the dismissal of a complaint on Rule
9(b) grounds, Ladas, 824 F.3d at 26, taking as true
a plaintiff’s well-pleaded factual allegations, United States ex rel. Chorches v. Am. Med. Response,
Inc., 865 F.3d 71, 81 (2d Cir. 2017).
To satisfy Rule 9(b)’s particularity standard, a
plaintiff must “(1) specify the statements that the
plaintiff contends were fraudulent, (2) identify the
speaker, (3) state where and when the statements
were made, and (4) explain why the statements
were fraudulent.” Chorches, 865 F.3d at 81 (citation omitted). We have “rigorously” enforced Rule

84a
9(b), recognizing that the rule has a number of
“salutary purposes,” including (1) “provid[ing] a
defendant with fair notice of a plaintiff’s claim,” (2)
“safeguard[ing] a defendant’s reputation from
improvident charges of wrongdoing,” and (3) “protect[ing] a defendant against the institution of a
strike suit.” Ladas, 824 F.3d at 25-26.
In dismissing the SAC, the District Court focused
on Gelbman’s failure to provide details about the
eligibility status of the Medicaid claims at the time
of their submission to the federal government. As
the District Court noted, and as Gelbman does not
dispute, the SAC assumes that NYSDOH submitted claims to the federal government that were
ineligible for Medicaid reimbursement because
these claims had, at some point prior to their submission, been flagged as ineligible by eMedNY.
This assumption, however, presupposes a number
of conditions. To begin, eMedNY’s identification of
a claim as ineligible might, itself, have been an
error that NYSDOH later discovered and corrected.
Alternatively, the health care providers might have
corrected the underlying problem before submission. Moreover, because Gelbman fails to identify
the specific Expense Reports that NYSDOH actually
submitted to the federal government, the SAC
leaves open the possibility that NYSDOH fully disclosed to the United States any potential defects
in the claims submitted for reimbursement.2 See
2

Gelbman attaches to the SAC a blank, unsigned
Expense Report that contains no information on the claims
that Gelbman asserts were false.

85a
Universal Health Servs., Inc. v. United States ex
rel. Escobar, 136 S. Ct. 1989, 1996, 2003 (2016)
(holding that “[a] misrepresentation” about a
claim’s compliance with the law “must be material
to the Government’s payment decision in order to
be actionable under the [FCA],” and that the Government’s payment of “a particular claim in full
despite its actual knowledge that certain requirements were violated . . . is very strong evidence
that those requirements are not material”).
Of course, a qui tam complaint need not always
allege, based on personal knowledge, the actual
submission of false claims to the federal government. As we explained in Chorches, to survive dismissal under Rule 9(b) when the complaint pleads
only on information and belief that fraudulent
claims were actually submitted to the United
States, a plaintiff must (1) “make plausible allegations that the bills or invoices actually submitted to
the government were uniquely within [the defendant’s] knowledge and control,” and (2) “adduce
specific facts supporting a strong inference of
fraud.” Chorches, 865 F.3d at 83 (internal quotation marks omitted).
Gelbman does neither in this case. The SAC does
not “set[ ] forth facts establishing specific reasons
why [the] information [contained in] the particular
bills that were submitted for reimbursement is
peculiarly within [Defendants-Appellees’] knowledge.” Id. at 82 (internal quotation marks and
alterations omitted). This omission is particularly
noteworthy in light of Gelbman’s position as an
Information Specialist working on Medicaid reim-

86a
bursement at NYSDOH, the agency responsible for
submitting Medicaid claims to the federal government. Nor does the qui tam complaint “put[ ] forth
particularized allegations of a scheme to falsify
records” or “describe[ ] specific instances of the
implementation of that scheme.” Id. at 84. Instead,
Gelbman alleges in a conclusory fashion that his
superiors at NYSDOH “conspired” with an
unknown number of unidentified “HRA representatives” to “manipulate and rig” eMedNY. App’x 23,
37. Gelbman does not detail how eMedNY was
rigged (e.g., by altering eMedNY’s computer algorithms, or by making post-hoc adjustments to
eMedNY payment determinations), or who carried
out the rigging (e.g., NYSDOH employees, City
employees, or some unknown third party). As a
result, we are left to speculate as to the specific
design and implementation of a scheme that purportedly defrauded the federal government of more
than $14 billion over the course of six years.
Gelbman’s complaint therefore bears no more
than the remotest resemblance to the qui tam complaint at issue in Chorches, a case that he relies on
heavily. In that case, we considered whether
Chorches—the trustee for the bankruptcy estate of
Fabula, a medical technician—had alleged with
sufficient particularity that the defendant, an
ambulance company, falsified patient care reports
so that they would qualify for Medicare reimbursement. Chorches, 865 F.3d at 75-78. Although
Chorches failed to identify actual invoices submitted by the defendant to the federal government, we
nevertheless allowed his FCA claims to proceed. Id.

87a
at 82, 93. In doing so, however, we emphasized that
the qui tam complaint’s factual allegations showed
that the defendant’s “billing procedures . . . made
it virtually impossible for most employees to have
access to all the information necessary to certify on
personal knowledge both that a particular invoice
was submitted for payment and that the facts stated to justify the invoice were false.” Id. at 82. We
further concluded that “[the] allegations detail specific and plausible facts from which we may easily
infer . . . that [the defendant] systematically falsified its records,” noting in particular that the complaint named the “supervisory personnel” who
directed the falsification of the reports; identified
more than ten specific instances in which Fabula
was ordered to fabricate documents; and explained
in detail “both the scheme itself and the method by
which [the defendant] executed the scheme.” Id. at
77, 83-84. In light of Chorches’s “plausible and particularized allegations,” we concluded that his complaint survived dismissal under Rule 9(b). Id. at
85-86.
Gelbman, by contrast, offers no such detail,
either as to his reasons for not having personal
knowledge of the contents of the Expense Reports
submitted to the federal government, or as to the
contours of the Defendants-Appellees’ alleged
scheme to rig and manipulate eMedNY. Instead,
his FCA claims under §§ 3729 (a) (l) (A), (B), and
(C) rest on “speculation and conclusory allegations.” Id. at 86 (citation omitted). We therefore
affirm dismissal for failure to satisfy Rule 9(b)’s
particularity standard.

88a
2.

31 U.S.C. § 3729(a)(l)(G)

We have also applied Rule 9(b)’s heightened
pleading standard to qui tam actions brought
under § 3729(a)(l)(G) for reverse false claims. See
United States ex rel. Takemoto v. Nationwide Mut.
Ins. Co., 674 F. App’x 92, 95 n.1 (2d Cir. 2017) (collecting cases); see also Olson v. Fairview Health
Servs. of Minnesota, 831 F.3d 1063, 1074 (8th Cir.
2016) (“[I]t would be remarkable if relators could
escape Rule 9(b)’s heightened pleading requirements for fraud by seeking recovery through subsection (a)(1)(G).”). Section 3729(a)(1)(G) prohibits
a person from “knowingly mak[ing], us[ing], or
caus[ing] to be made or used, a false record or
statement material to an obligation to pay or transmit money or property to the Government, or knowingly conceal[ing] or knowingly and improperly
avoid[ing] or decreas[ing] an obligation to pay or
transmit money or property to the Government.”
Accordingly, a claim under § 3729(a) (l) (G) requires
the plaintiff to establish that the defendant had a
financial obligation to the federal government.
Gelbman’s reverse false claim theory thus fails
for the same reason that his other FCA claims fail.
As expressed above, the SAC does not plausibly
allege that Defendants-Appellees caused the submission of false claims to the federal government.
Accordingly, the SAC does not plausibly allege that
Defendants-Appellees had any obligation to repay
to the federal government any funds it received,
directly or indirectly, as a result of the Medicaid
claims it submitted to NYSDOH.

89a
We therefore conclude that dismissal of Gelbman’s reverse false claims action was warranted
under Rule 9(b). See Chesbrough v. VPA, P. C., 655
F.3d 461, 473 (6th Cir. 2011) (dismissing reverse
claims theory because the relators “have not identified in their complaint any concrete obligation
owed to the government”).
* * *
We have considered Gelbman’s remaining arguments and conclude that they are without merit.
Accordingly, the District Court’s judgment is
AFFIRMED.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court
[SEAL]
/s/ CATHERINE O’HAGAN WOLFE

90a
[LETTERHEAD UNITED STATES COURT OF APPEALS
FOR THE S ECOND C IRCUIT ]
Date: October 17, 2019

DC Docket #: 14-cv-771

Docket #: 18-3162cv

DC Court: SDNY
(NEW YORK
CITY)

Short Title:
DC Judge: Broderick
United States of America,
ex r v. City of New York
BILL OF COSTS INSTRUCTIONS
The requirements for filing a bill of costs are set
forth in FRAP 39. A form for filing a bill of costs is
on the Court’s website.
The bill of costs must:
*

be filed within 14 days after the entry of judgment;

*

be verified;

*

be served on all adversaries;

*

not include charges for postage, delivery, service, overtime and the filers edits;

*

identify the number of copies which comprise
the printer’s unit;

*

include the printer’s bills, which must state the
minimum charge per printer’s unit for a page,
a cover, foot lines by the line, and an index and
table of cases by the page;

91a
*

state only the number of necessary copies
inserted in enclosed form;

*

state actual costs at rates not higher than
those generally charged for printing services in
New York, New York; excessive charges are
subject to reduction;

*

be filed via CM/ECF or if counsel is exempted
with the original and two copies.

92a
[LETTERHEAD UNITED STATES COURT OF APPEALS
FOR THE S ECOND C IRCUIT ]
Date: October 17, 2019

DC Docket #: 14-cv-771

Docket #: 18-3162cv

DC Court: SDNY
(NEW YORK
CITY)

Short Title:
DC Judge: Broderick
United States of America,
ex r v. City of New York
VERIFIED ITEMIZED BILL OF COSTS
Counsel for
_______________________________________________
respectfully submits, pursuant to FRAP 39 (c) the
within bill of costs and requests the Clerk to prepare an itemized statement of costs taxed against
the
_______________________________________________
and in favor of
_______________________________________________
for insertion in the mandate.
Docketing Fee _____________________
Costs of printing appendix
(necessary copies ______________ ) ______________

93a
Costs of printing brief
(necessary copies ______________ ) ______________
Costs of printing reply brief
(necessary copies ______________ ) ______________
(VERIFICATION HERE)
________________________
Signature

94a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
14-CV-771 (VSB)
Date Filed: September 30, 2018
UNITED STATES OF AMERICA
ex rel. ANDREW GELBMAN,
Plaintiff,
—against—
THE CITY OF NEW YORK and
NEW YORK CITY HEALTH
AND H OSPITALS C ORPORATION ,
Defendants.
OPINION & ORDER
Appearances:
Richard Bradley Ancowitz
Law Office of Richard B. Ancowitz
Albany, New York
Counsel for Plaintiff
Stephen Edward Kitzinger
New York City Law Department
New York, New York
Counsel for Defendant City

95a
Joseph Victor Willey
Alan J. Brudner
Elizabeth Darrow Langdale
Katten Muchin Rosenman, LLP
New York, New York
Counsel for Defendants City and HHC
VERNON S. BRODERICK, United States District Judge:
Relator Andrew Gelbman (“Relator” or
“Gelbman”) brings this action under the qui tam
provisions of the civil False Claims Act (“FCA”),
which permit a private person to file an action on
behalf of the Government. Before me are the
motions of Defendants the City of New York
(“City”) and New York City Health and Hospitals
Corporation (“HHC”) to dismiss the second amended complaint pursuant to Rules 12(b)(6) and 9(b) of
the Federal Rules of Civil Procedure. Because
Relator fails to plausibly allege any type of false
claim under the FCA and the second amended complaint otherwise fails to meet the pleading standard set forth in Rule 9(b), Defendants’ motions are
GRANTED.
I. Background
A. Regulatory Background
The Medicaid Act, enacted in 1965 as Title XIX of
the Social Security Act, 42 U.S.C. §§ 1396, et seq., is
a cooperative federal-state program designed to
provide medical assistance to persons with insufficient resources to meet the costs of their necessary

96a
medical care. Although states are not required to
participate in Medicaid, states that choose to do so
must formulate a “state plan”—a plan of administration that complies with both the Medicaid Act
and regulations promulgated by the United States
Department of Health and Human Services (“HHS”).
See 42 U.S.C. § 1396a. Federal Medicaid funds are
made available to states that have such a state
plan that has been approved by HHS. See 42 U.S.C.
§§ 1396a(b), 1396b.
New York State participates in Medicaid pursuant to New York Social Services Law. Federal law
requires states to designate a “single state agency”
to administer the state plan. See 42 U.S.C.
§§ 1396a(a)(4) & (5); 42 C.F.R. § 431.10(b). In New
York the designated agency is the New York State
Department of Health (“NYSDOH”). See N.Y. Pub.
Health Law § 201(1)(v); N.Y. Soc. Serv. Law
§§ 363-a(1)–(3). Among other responsibilities, NYSDOH “promulgates all necessary regulations and
guidelines for [Medicaid] Program administration.”1
Although NYSDOH is primarily responsible for
administering Medicaid in New York, some aspects
of program administration are spread across other
state agencies and local departments of social services. N.Y. Soc. Serv. Law §§ 365-n(2), (4). The five
counties representing the City of New York share
one local department of social services (“LDSS”).
1
eMedNY Provider Manual, Information for All Providers,
Introduction, “Forward,” version 2011-1 (June 1, 2011), available at https://www.emedny.org/ProviderManuals/AllProviders/
PDFS/Information_for_All_ProvidersIntroduction.pdf.

97a
N.Y. Soc. Serv. Law § 61(1). LDSSs are responsible
for denying or approving recipients’ Medicaid eligibility applications and for determining Medicaid
recipients’ access to certain services. See N.Y. Soc.
Serv. Law § 364(1)(a); N.Y. Comp. Codes R. & Regs.
tit. 18, § 404.1.
Medical providers (e.g., physicians, hospitals, or
nursing homes) that wish to participate as providers
in the Medicaid program must submit an enrollment application to NYSDOH and, if approved by
NYSDOH, sign a provider agreement with the
New York State. N.Y. Comp. Codes R. & Regs. tit. 18,
§§ 504.2(b); 504.4(a), (e). Participating providers
who furnish services to Medicaid recipients submit
their claims for payment to NYSDOH. N.Y. Soc.
Serv. Law § 367-b(2); N.Y. Comp. Codes R. & Regs.
tit. 18, §§ 540.6(b), 635.1(a). Most providers submit
their claims electronically through eMedNY, a software system.
NYSDOH uses eMedNY to process Medicaid
claims and payments for services. See N.Y. Soc.
Serv. Law § 367-b(1)(c). Specifically, eMedNY
“[r]eceives, reviews and pays claims submitted by
the providers of health care for services rendered to
eligible patients (enrollees).”2 Claims in eMedNY
may be paid, pended, or denied. See N.Y. Soc. Serv.
Law § 367-b(8)(b)(1) (requiring prior to payment a
“review for proper coding and such other review as
2
eMedNY Provider Manual, Information for All Providers,
Introduction, “Medicaid Management Information System,”
version 2011-1 (June 1, 2011), available at https://www.
emedny.org/providermanuals/allproviders/PDFS/Information
_for_All_Providers-Introduction.pdf.

98a
may be deemed necessary”); N.Y. Comp. Codes R. &
Regs. tit. 18, § 504.8(c) (delineating prepayment
review that “may deny claims, adjust claims to
eliminate noncompensable items . . . correct . . .
errors, pend claims for further audit or review, or
approve the claim for payment”).
LDSSs play a role in approving coverage of certain services that under State law are subject to a
“prior approval” or “prior authorization” requirement.3 When required, prior approval and prior
authorization must be completed before a provider
may submit a claim for services—a claim may be
denied if prior approval and/or prior authorization
were not completed or were denied for the service.4
B. The Second Amended Complaint5
Since October 5, 2006, Gelbman has worked as
an “Information Specialist II” at NYSDOH. (Doc.
52 (“SAC”) ¶ 4.) Gelbman’s employment duties and
responsibilities include, among other things, per3

See eMedNY Provider Manual, Information for All
Providers–General Policy, “Prior Approval,” “Prior Authorization,” version 2011-2 (Oct. 20, 2011), available at https://www.
emedny.org/ProviderManuals/AllProviders/PDFS/Information_for_All_Providers-General_Policy.pdf.
4
5

See supra note 3.

The following factual summary is drawn from the allegations of the second amended complaint unless otherwise
indicated, which I assume to be true for purposes of this
motion. See Kassner v. 2nd Ave. Delicatessen Inc., 496 F.3d
229, 237 (2d Cir. 2007). My references to these allegations
should not be construed as a finding as to their veracity, and
I make no such findings.

99a
forming business and systems analysis for
eMedNY. (Id. ¶¶ 5, 12.) He also consults on strategies for program implementation and verification,
evaluates project design proposals and project
assessments, and models business processes for
eMedNY. (See id. ¶ 5.) In 2014, while still employed
by NYSDOH, Gelbman filed a complaint under seal
in this case alleging several violations of the FCA.
Relator alleges that the City presented, or caused
to be presented, Medicaid claims to the United
States, “which it knew where legally and factually
false.” (Id. ¶ 13.) To support this allegation, Relator
identifies meetings called “Evolution Project
Meetings” that Relator participated in from 2006
through 2015, during which the meeting participants—including representatives from the City
and NYSDOH—“conspired to manipulate and rig
the manner in which Medicaid claims . . . were
processed by eMedNY.” (Id.) The Evolution Project
Meetings occurred as often as two to three times
per week. (Id. ¶ 82.) Gelbman’s co-workers and
supervisors were present at these meetings. (Id.)
When Gelbman asked his supervisors why certain
Medicaid claims were being paid despite not meeting the requisite criteria, his supervisors explained
that the City would face “financial ruin” and “political problems [in] the administration.” (Id. ¶ 90.)
The SAC describes examples of five types of false
claims the City allegedly caused the State to pay,
and to then submit to the United States for reimbursement. These types include “untimely” claims,
(id. ¶¶ 103–08), claims involving “failure to present
valid prior approval,” (id. ¶¶ 109–19), “duplicative

100a
claims,” (id. ¶¶ 120–28), “provider ineligible” claims,
(id. ¶¶ 129–34), and claims where “other insurance
paid” or “Medicare paid,” (id. ¶¶ 135–42). For each
type of claim, Relator provides at least one “exemplar claim,” which includes payment information
such as dates, amounts, and the edit codes used in
eMedNY.
Relator also alleges a relationship between the
City and its public hospitals, all of which are owned
by HHC. (Id. ¶ 16.) Part of this relationship included substantial financial assistance that the City
provided to HHC, averaging almost $300 million
per year. (Id.) HHC owns or indirectly owns certain
of the City’s medical providers, “which were in significant measure dependent upon receiving funds”
for Medicaid claims from the United States. (Id.
¶ 95.) Through this relationship, “regulations were
systematically and routinely breached” by both
Defendants. (Id. ¶¶ 78, 102.)
II. Procedural History
On February 6, 2014, Relator filed a complaint
under seal pursuant to the qui tam provisions of the
FCA, which permit a private person to file an action
on behalf of the Government. The Government
declined to intervene in the action. (Doc. 34.)
On April 10, 2017, Relator amended his complaint, (Doc. 39), and the City moved to dismiss the
amended complaint, (Doc. 44). With leave from the
Court, Relator filed the SAC, (Doc. 52), adding
HHC as a party, and the City’s motion to dismiss

101a
the amended complaint was dismissed as moot
with leave to re-file, (Doc. 51).
On September 19, 2017, the City filed its motion
to dismiss the SAC, (Doc. 57), and memorandum of
law in support of its motion, (Doc. 58). On October
17, 2017, the Government requested leave to file a
statement of interest (“SOI”), (Doc. 68), which I
granted, (Doc. 70). On November 1, 2017, Relator
filed his opposition to the City’s motion, (Doc. 73),
and supporting declaration and exhibits, (Doc. 74).
The Government filed its SOI on November 8, 2017.
(Doc. 76.) On December 15, 2017, the City filed its
reply. (Doc. 79.)
On November 11, 2017, I held a pre-motion conference in connection with HHC’s motion to dismiss
the SAC, at which point I granted HHC leave to file
its motion. On January 12, 2018, HHC filed its
motion to dismiss the SAC, (Doc. 82), and memorandum of law in support of its motion, (Doc. 83).
On February 22, 2018, Relator filed his opposition
to HHC’s motion, (Doc. 84), and supporting declaration and exhibits, (Doc. 85). On March 23, 2018,
HHC filed its reply. (Doc. 86.)
III. Legal Standards
A. Rule 12(b)(6)
To survive a motion to dismiss under Rule
12(b)(6), “a complaint must contain sufficient factual matter, accepted as true, to ‘state a claim to
relief that is plausible on its face.’ ” Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570 (2007)). A

102a
claim will have “facial plausibility when the plaintiff pleads factual content that allows the court to
draw the reasonable inference that the defendant
is liable for the misconduct alleged.” Id. This standard demands “more than a sheer possibility that a
defendant has acted unlawfully.” Id. “Plausibility
. . . depends on a host of considerations: the full
factual picture presented by the complaint, the
particular cause of action and its elements, and the
existence of alternative explanations so obvious
that they render plaintiff’s inferences unreasonable.” L-7 Designs, Inc. v. Old Navy, LLC, 647 F.3d
419, 430 (2d Cir. 2011).
In considering a motion to dismiss, a court must
accept as true all well-pleaded facts alleged in the
complaint and must draw all reasonable inferences
in the plaintiff’s favor. See Kassner, 496 F.3d at
237. A complaint need not make “detailed factual
allegations,” but it must contain more than mere
“labels and conclusions” or “a formulaic recitation
of the elements of a cause of action.” Iqbal, 556
U.S. at 678 (internal quotation marks omitted).
Although all allegations contained in the complaint
are assumed to be true, this tenet is “inapplicable
to legal conclusions.” Id. A complaint is “deemed to
include any written instrument attached to it as an
exhibit or any statements or documents incorporated in it by reference.” Chambers v. Time Warner,
Inc., 282 F.3d 147, 152 (2d Cir. 2002) (quoting Int’l
Audiotext Network, Inc. v. Am. Tel. & Tel. Co., 62
F.3d 69, 72 (2d Cir. 1995)).

103a
B. Rule 9(b)
Because the FCA is an anti-fraud statute, qui
tam complaints filed under the FCA must also comply with Rule 9(b) of the Federal Rules of Civil
Procedure, which requires a plaintiff to plead fraud
claims “with particularity.” Fed. R. Civ. P. 9(b). To
comply with Rule 9(b), a complaint must “(1) specify
the statements that the plaintiff contends were
fraudulent, (2) identify the speaker, (3) state where
and when the statements were made, and (4)
explain why the statements were fraudulent.”
United States ex rel. Chorches for Bankr. Estate of
Fabula v. Am. Med. Response, Inc., 865 F.3d 71, 81
(2d Cir. 2017) (“Chorches”) (quoting United States
ex rel. Ladas v. Exelis, Inc., 824 F.3d 16, 25 (2d Cir.
2016)). “Rule 9(b) does not require that every qui
tam complaint provide details of actual bills or
invoices submitted to the government.” Id. at 93.
However, “the complaint must be supported by
more than ‘conclusory statements’ or ‘hypotheses,’
and it must set forth ‘particularized allegations of
fact.’ ” United States ex rel. Tessler v. City of
New York, 712 F. App’x 27, 29 (2d Cir. 2017) (summary order) (quoting Ladas, 824 F.3d at 26–27).
Although Rule 9(b) permits scienter to be asserted
generally, the Second Circuit has “repeatedly
required plaintiffs to plead the factual basis which
gives rise to a strong inference of fraudulent
intent.” Id. (quoting O’Brien v. Nat’l Prop. Analysts
Partners, 936 F.2d 674, 676 (2d Cir. 1991)); see also
Universal Health Servs., Inc. v. United States ex rel.

104a
Escobar, 136 S. Ct. 1989, 2002 (2016) (observing
that the FCA’s scienter requirement is “rigorous”).
IV. Discussion
A. The Declarations of Richard P.
Billera
Relator submits the declarations of Richard P.
Billera6 in support of his oppositions to Defendants’
motions to dismiss (“Billera Declarations”). (Docs.
71-1, 85.) The Billera Declarations, and their contents, are entirely extrinsic to the SAC, were created specifically for this litigation, and Relator has
offered no credible basis on which I may consider
them. Indeed, Relator himself concedes that “evidence from extrinsic sources is typically not to be
used to oppose” a motion to dismiss. (Opp. City 5.)7
Despite conceding the legal standard upon which
motions to dismiss are evaluated, Realtor asserts
that this case is unique and he should be permitted
to submit extrinsic evidence “to demonstrate a
lack of implausibility,” and that the Billera
6

Billera is the Vice President and Chief Financial Officer of Ranejane, LLC, a company that, among other things,
“provides consulting services to providers and contractors
in dealing with Medicaid and Medicare claims, and in particular, claims involving the New York State Department of
Health, and the United States Department of Health and
Human Services.” (Doc. 71-1 ¶ 1.)
7

“Opp. City” refers to Relator’s Memorandum of Law in
Opposition to the Defendant City of New York’s Motion to
Dismiss the Second Amended Complaint, filed November 1,
2017. (Doc. 73.)

105a
Declarations are “integral” to the SAC. In considering a motion to dismiss, I look to the allegations on
the face of the complaint. See supra Part III.A.
Relator’s claims that the Billera Declarations
should be deemed “integral” to the SAC are baseless, since Relator neither (1) had actual notice of
the Billera Declarations, nor (2) relied upon them
in framing the SAC—indeed, the Billera Declarations
—specifically created as part of Relator’s opposition to the motion to dismiss—did not exist at the
time that the SAC was drafted. See Chechele v.
Scheetz, 819 F. Supp. 2d 342, 347 (S.D.N.Y. 2011).
The Billera Declarations fail to satisfy any of the
exceptions that would permit me to consider them
in deciding the pending motions, and I will disregard them.
B. The FCA
Relator alleges that Defendants violated the FCA
by (1) presenting, or causing to be presented, false
claims (in violation of 31 U.S.C. § 3729(a)(1)(A)); (2)
making or using a false record or statement (in violation of § 3729(a)(1)(B)); (3) conspiring to submit
or cause to be submitted a false claim or to make
or use a false record or statement (in violation of
§ 3729(a)(1)(C)); and (4) making a false claim in
order to avoid paying the Government—a so-called
“reverse false claim” (in violation of § 3729(a)(1)(G)).
(SAC ¶¶ 167–86.) Because the SAC fails to plausibly
allege any type of false claim under the FCA and
falls short of the pleading standard set forth in

106a
Rule 9(b) of the Federal Rules of Civil Procedure,
the SAC must be dismissed in its entirety.
1. Applicable Law
The FCA imposes liability for, among other
things, “knowingly” presenting or causing to be
presented, a false or fraudulent claim “for payment or approval.” 31 U.S.C. § 3729(a). Although
Congress has repeatedly amended the FCA, “its
focus remains on those who present or directly
induce the submission of false or fraudulent
claims.” Escobar, 136 S. Ct. at 1996. A “claim”
includes direct requests to the Government for payment as well as claims for reimbursement under
federal benefits programs. Id. Pursuant to the private, or qui tam, provisions of the FCA, a private
person may bring a civil action on behalf of the
Government, as a “relator,” for violations of each
act. 31 U.S.C. § 3730(b). If a relator brings such an
action under the FCA, the Government may elect,
within a set amount of time, to intervene in the
action. 31 U.S.C. § 3730(b)–(c).
To prove a false claim under FCA §§ 3729(a)(1)(A)
and 3729(a)(1)(B), a relator must show that the
defendant “(1) made a claim, (2) to the [ ] government, (3) that is false or fraudulent, (4) knowing
of its falsity, and (5) seeking payment from the federal treasury.” Bishop v. Wells Fargo & Co., 823
F.3d 35, 43 (2d Cir. 2016) (quoting Mikes v. Straus,
274 F.3d 687, 695 (2d Cir. 2001)), abrogated on
other grounds by Escobar, 136 S. Ct. 1989. Under
the FCA, “claims” include “direct requests to the

107a
Government for payment as well as reimbursement
requests made to the recipients of federal funds
under federal benefits programs.” Escobar, 136 S.
Ct. at 1996. In order to demonstrate that a defendant acted knowingly, the relator must prove that
the defendant had actual knowledge, acted in deliberate ignorance, or acted in reckless disregard of
the falsity of the claims being submitted. See 31
U.S.C. § 3729(b)(1)(A).
a. Factually False Claims
Under the FCA, claims are either “factually”
false or “legally” false. The typical FCA claim is a
factually false claim and “involves an incorrect
description of goods or services provided or a
request for reimbursement for goods or services
never provided.” Mikes, 274 F.3d at 697. A factually false claim may also be based on fraudulent
inducement. This type of factually false claim
alleges that the defendant made fraudulent representations to the Government to induce it to enter
a contract, and although no false statements were
made at the time of the actual claims for payment,
they too are “actionable false claims” because the
claims “derived from the original fraudulent misrepresentation.” United States ex rel. Feldman v.
Van Gorp, 697 F.3d 78, 91 (2d Cir. 2012) (quoting
United States ex rel. Longhi v. United States, 575
F.3d 458, 468 (5th Cir. 2009)).

108a
b. Legally False Claims
A legally false claim, meanwhile, is “predicated
upon a false representation of compliance with a
federal statute or regulation or a prescribed contractual term.” Mikes, 274 F.3d at 696. There are
two types of legally false claims: (i) express false
certification claims and (ii) implied false certification claims. Express false certification occurs
where “a party certifies compliance with a statute
or regulation as a condition to governmental payment, but is not actually compliant.” Bishop, 823
F.3d at 43 (internal quotation marks omitted).
Implied false certification occurs “where the submission of the claim itself is fraudulent because it
impliedly constitutes a certification of compliance.”
Id. A theory of implied false certification can be a
basis for liability where two conditions are satisfied: “first, the claim does not merely request payment, but also makes specific representations
about the goods or services provided; and second,
the defendant’s failure to disclose noncompliance
with material statutory, regulatory, or contractual
requirements makes those representations misleading half-truths.” Escobar, 136 S. Ct. at 2001.
For a relator to state an FCA claim under a
legally false theory, he must show that the misrepresentation about compliance is “material” to the
Government’s decision to pay. Id. At 2002–03
(explaining that this is because the FCA is not
intended to be “‘an all-purpose antifraud statute’ or
a vehicle for punishing garden-variety breaches of
contract or regulatory violations” (quoting Allison

109a
Engine Co. v. United States ex rel. Sanders, 553
U.S. 662, 672 (2008))). In order to be material, the
misrepresentation must “hav[e] a natural tendency
to influence, or be capable of influencing, the payment or receipt of money or property.” Id. at 1996
(quoting 31 U.S.C. § 3729(b)(4)). The Supreme
Court has explained that materiality is a “demanding” standard that requires a holistic assessment.
Id. at 2003. Provisions are “not automatically
material, even if they are labeled conditions of
payment.” Id. at 2001. For example, “if the
Government pays a particular claim in full despite
its actual knowledge that certain requirements
were violated, that is very strong evidence that
those requirements are not material.” Id. at 2003.
Conversely, where “a reasonable person would
realize” that the misrepresentation concerned an
“imperative” aspect of the good or service, “a defendant’s failure to appreciate the materiality of that
condition would amount to ‘deliberate ignorance’ or
‘reckless disregard’ of the ‘truth or falsity of the
information’ even if the Government did not spell
this out.” Id. at 2001–02.
c. Reverse False Claims
To state a “reverse false claim” under
§ 3729(a)(1)(G), a relator must show: “(1) proof that
the defendant made a false record or statement (2)
at a time that the defendant had a presently-existing obligation to the government—a duty to pay
money or property.” United States ex rel. Kester v.
Novartis Pharm. Corp., 43 F. Supp. 3d 332, 367

110a
(S.D.N.Y. 2014) (internal quotation marks omitted). “Subsection (a)(1)(G) is referred to as the
‘reverse false claims’ provision because ‘it covers
claims of money owed to the government, rather
than payments made by the government.’ ” Id. at
368 (quoting United States ex rel. Capella v.
Norden Sys., Inc., No. 3:94-CV-2063 (EBB), 2000
WL 1336487, at *10 (D. Conn. Aug. 24, 2000)).
2. Application
a. Factually False Claims
Relator fails to plausibly allege that Defendants
submitted factually false claims for payment. The
SAC merely alleges that “the City of New York and
HHC knowingly submitted . . . factually false
claims.” (SAC ¶¶ 13, 48, 81, 150.) These allegations
are the only allegations in the SAC that even mention a factually false claim, and they are entirely
conclusory. To plead factual falsity, a relator must
allege that a billed for service was either not provided or not described truthfully. Mikes, 274 F.3d
at 697; see also United States ex rel. Colucci v. Beth
Israel Med. Ctr., 785 F. Supp. 2d 303, 313–14
(S.D.N.Y. 2011) (finding that plaintiff failed to
state a claim under the factual falsity theory where
it did not allege that the provider submitted claims
for a falsified service or “for services rendered to
fictitious patients”). Despite identifying a number
a types of allegedly false claims, (see, e.g., SAC
¶¶ 103–42), Relator does not identify a single claim
relating to a service that was not provided or not
truthfully described. Any claims based on a theory

111a
that either the City or HHC submitted factually
false claims for payment is therefore dismissed.
b. Legally False Claims – Express
Certification
Relator similarly fails to plausibly allege that
Defendants submitted legally false claims under an
express certification theory. As an initial matter,
the SAC does not distinguish between the legal
standards governing implied and express certifications, nor does it specify which theory is being pursued.8 Instead, the SAC alleges that “by virtue of
their expressed [sic] and implied certification that
these claims were in compliance with applicable
federal and state Medicaid law” the City submitted
false claims to the Government. (SAC ¶ 40.) This
lack of clarity alone is a basis to dismiss the legally
false claims. See United States v. N.Y. Soc. for the
Relief of the Ruptured & Crippled, Maintaining the
Hosp. for Special Surgery, No. 07 Civ. 292(PKC),
2014 WL 3905742, at *17 (S.D.N.Y. Aug. 7, 2014)
(providing basis for dismissal of legally false claims
where the complaint merely alleged that defendants
“either expressly or impliedly submitted false legal
certifications”).
8

Relator’s oppositions likewise fail to delineate between
the legal standards governing implied and express certifications. While Relator is certainly correct that he is “permitted
to allege both expressed [sic] and implied certification,” (Opp.
City 17), it does not follow that he need not respond to Defendants’ separate arguments asserted under each legal standard.

112a
Further, neither the SAC nor Relator’s oppositions point to any certification that could serve as a
basis for an express certification claim. Although
the Second Circuit recently held that an alleged
express certification need not certify compliance
with a “particular” statute or regulation, Bishop,
870 F.3d at 106–07, such a claim must nevertheless
plead an actual certification that was either (1)
signed by the defendant or (2) caused to be signed
because of the false claims alleged in the complaint. The SAC only describes one certification—
the Form CMS-64—a form that by Relator’s own
admission is not required to be signed by the City
or HHC.9 (SAC ¶ 35 (“Form CMS-64 Certification
requires the executive officers of the state agency
(in this case NYSDOH) to certify. . . .”).) Moreover,
the Form CMS-64 attached to the SAC is blank and
9

In its SOI, the Government asserts, correctly, that it
would be sufficient for the SAC to plausibly allege that the
City caused the submission of false claims, rather than submitting the claims itself. (SOI 7–8); see also United States ex
rel. Wood v. Allergan, Inc., 246 F. Supp. 3d 772, 819 (S.D.N.Y.
2017) (“Where the defendant is a non-submitting entity,
courts merely ask ‘whether that entity knowingly caused the
submission of either a false or fraudulent claim or false
records or statements to get such a claim paid. The statute
makes no distinction between how non-submitting and submitting entities may render the underlying claim or statements false or fraudulent.’ ” (quoting United States ex rel.
Hutcheson v. Blackstone Med., Inc., 647 F.3d 377, 389 (1st
Cir. 2011)), rev’d on other grounds, 899 F.3d 163 (2d Cir.
2018). Relator, however, does not allege that the City or HHC
caused the submission of false claims: the SAC does not provide any non-conclusory facts to connect either of Defendants
to the claims that the providers submitted for payment.

113a
unsigned. (SAC Ex. A.) Because the SAC fails to
plausibly allege that either Defendant certified
compliance with a statute or regulation as a condition to governmental payment, Relator fails to
state a claim under an express certification theory.
See United States ex rel. Hussain v. CDM Smith,
Inc., No. 14-CV-9107 (JPO), 2017 WL 4326523, at
*6 (S.D.N.Y. Sept. 27, 2017) (“Without an express
certification, there is no express certification
claim.”).
c. Legally False Claims – Implied
Certification
Relator’s legally false claims also fail under an
implied certification theory. The City argues,
among other things, that the SAC does not plausibly allege that (1) the City submitted, or caused the
submission of, any false claims; (2) the underlying
provider claims were false; and (3) the edits were
material to the Government’s decision to pay the
claims. (City Mem. 14–19.)10 HHC argues, among
other things, that the SAC fails to differentiate
between the City and HHC, and it therefore fails to
plausibly allege that HHC participated in a scheme
to defraud the Government. (HHC Mem. 9–11.)11
10

“City Mem.” refers to the Memorandum of Law in Support of Defendant the City of New York’s Motion to Dismiss
the Second Amended Complaint of Relator Andrew Gelbman,
filed September 19, 2017. (Doc. 58.)
11

“HHC Mem.” refers to the Memorandum of Law in Support of Defendant New York City Health and Hospitals Corporation’s Motion to Dismiss the Second Amended Complaint of
Relator Andrew Gelbman, filed February 22, 2018. (Doc. 83.)

114a
The crux of Relator’s allegations is that certain
edit codes (e.g., “untimely claims,” “lack of prior
approval,” “duplicative claims,” “provider ineligible,” “other insurance paid/Medicare paid”) were
applied to claims that various New York City medical providers submitted to Medicaid. Putting aside
Defendants’ argument that it is the State—not the
City or HHC—that plays a role in submission of
these claims, the SAC utterly fails to meet the
pleading standards under Rules 12(b)(6) and 9(b).
Although Relator provides details and descriptions
of the edit codes themselves, he fails to allege how
the existence of an edit rendered the claim false or
why the claim was not ultimately entitled to payment. For example, the SAC does not allege that
the edit code was still on the claim when the claim
was paid. The SAC does not allege that the
provider did not correct the alleged error before
resubmitting the claim, and it does not allege any
facts about the conduct that led the edit to occur
(e.g., that a medical provider was ineligible, who
the provider was, instances of duplicate billing,
who applied the edit code to the claim, etc.).
Instead, the SAC incorporates the assumption that
the edit codes themselves indicate that a claim was
submitted “in violation of state and federal laws.”
(See, e.g., SAC ¶¶ 41, 43.) This conclusory allegation, even when coupled with detail about the edit
codes and exemplar claims, is insufficient to state a
claim for fraud with particularity under Rule 9(b).
Because the SAC fails to plausibly allege that
either Defendant failed to comply with a legal or

115a
contractual requirement, Relator fails to state a
claim under an implied certification theory.
d. Reverse False Claims
Nor do the allegations in the SAC plausibly
allege any so-called “reverse false claims” under
the FCA. In support of his reverse false claims,
Relator alleges that various providers of health
services billed for and received benefits that were
“in the form of overpayments known to
Defendants.” (SAC ¶¶ 182–83.) The SAC, however,
is devoid of any factual information to suggest that
either Defendant owed a financial obligation to the
Government. Relator’s reverse false claim allegations—which essentially boil down to various
providers allegedly receiving payment on false
claims and thus retaining Government funds to
which they were not entitled— are not an adequate
basis on which to allege a reverse false claim. See
CDM Smith, Inc., 2017 WL 4326523, at *9 (“A complaint that ‘makes no mention of any financial obligation that the defendant owed to the government’
and ‘does not specifically reference any false
records or statements used to decrease such an
obligation’ must be dismissed.” (quoting Allergan,
Inc., 246 F. Supp. 3d at 826)).
Contrary to Relator’s arguments, the Second
Circuit’s opinion in Chorches does not alter this
result. In Chorches, the bankruptcy estate of a
medical technician brought an FCA claim against
an ambulance company. Chorches, 865 F.3d at 75.
The Second Circuit allowed the case to proceed

116a
even though the relator had “not identified actual
invoices that were submitted to the federal government” because “the particular bills that were submitted for reimbursement [were] peculiarly within
[the defendant’s] knowledge.” Id. at 82 (internal
quotation marks omitted). The Second Circuit held
that the relator’s claims were sufficient because he
intricately detailed the “time period . . . during
which the fraudulent scheme took place” as well as
the “dates, both precise and approximate” of false
claims and even “patient names” included in fraudulent bills. Id. at 83–84. All that the relator lacked
was proof that the fraudulent bills had actually
been submitted—i.e., the “specific documents containing false claims”—which he did not have access
to given the program at issue. The Second Circuit
made clear, however, that pleading “on information
and belief” still requires adducing “specific facts
supporting a strong inference of fraud.” Id. at 82
(internal quotation marks omitted).
Relator, relying on Chorches, argues that he provides “an enormous amount of final claims detail.”
(Opp. HHC 23.)12 Alleging an enormous amount of
detail about the edit codes, however, does not
equate to a plausible reverse false claim, which
requires “(1) proof that the defendant made a false
record or statement (2) at a time that the defendant had a presently-existing obligation to the gov12

“Opp. HHC” refers to Relator’s Memorandum of Law in
Opposition to the Defendant HHC’s Motion to Dismiss the
Second Amended Complaint, filed February 22, 2018. (Doc.
84.)

117a
ernment—a duty to pay money or property.”
Novartis Pharm. Corp., 43 F. Supp. 3d at 367
(internal quotation marks omitted). Relator does
not point to any allegations in the SAC that support either of these requirements. Accordingly,
Defendants’ motions are also granted as to the
reverse false claims.13
C. Leave to Amend
In the event of dismissal of the SAC, Relator
requests leave to amend the SAC. (Opp. City 24.)
However, the SAC is the third complaint filed by
Relator in this matter. Indeed, Relator was granted
leave to amend his complaint in response to the
City’s previously filed motion to dismiss. (See Doc.
51.) Courts may deny leave to amend in cases of,
among other things, “undue delay, bad faith or
dilatory motive on the part of the movant, repeated
failure to cure deficiencies by amendments previously allowed, undue prejudice to the opposing
party by virtue of allowance of the amendment,
[and/or] futility of amendment.” Ruotolo v. City of
New York, 514 F.3d 184, 191 (2d Cir. 2008) (internal quotation marks omitted). Here, I find that
Relator’s repeated failures to cure deficiencies,
including after the filing of the City’s initial motion
to dismiss, warrant dismissal of his claims with
13
Because the SAC only alleges a conspiracy in connection with the edit code scheme, there is no need to determine
whether plaintiff has sufficiently alleged the elements of a
conspiracy. See United States ex rel. Mooney v. Americare,
Inc., No. 06-CV-1806 (FB)(VVP), 2013 WL 1346022, at *6
(E.D.N.Y. Apr. 3, 2013).

118a
prejudice. Accordingly, Relator’s claims are dismissed with prejudice.
V. Conclusion
For the foregoing reasons, Defendants’ motions
to dismiss are GRANTED and Relator’s claims are
dismissed with prejudice. The Clerk of Court is
respectfully directed to terminate the pending
motions, (Docs. 57, 82), enter judgment for Defendants, and close this case.
SO ORDERED.
Dated: September 30, 2018
New York, New York
/s/ VERNON S. BRODERICK
Vernon S. Broderick
United States District Judge

119a
§ 3729. False claims
(a) Liability for certain acts.—
(1) In general.—Subject to paragraph (2), any person who—
(A) knowingly presents, or causes to be presented,
a false or fraudulent claim for payment or
approval;
(B) knowingly makes, uses, or causes to be made or
used, a false record or statement material to a false
or fraudulent claim;
(C) conspires to commit a violation of subparagraph (A), (B), (D), (E), (F), or (G);
(D) has possession, custody, or control of property
or money used, or to be used, by the Government
and knowingly delivers, or causes to be delivered,
less than all of that money or property;
(E) is authorized to make or deliver a document
certifying receipt of property used, or to be used, by
the Government and, intending to defraud the Government, makes or delivers the receipt without
completely knowing that the information on the
receipt is true;
(F) knowingly buys, or receives as a pledge of an
obligation or debt, public property from an officer
or employee of the Government, or a member of the
Armed Forces, who lawfully may not sell or pledge
property; or
(G) knowingly makes, uses, or causes to be made or
used, a false record or statement material to an

120a
obligation to pay or transmit money or property to
the Government, or knowingly conceals or knowingly and improperly avoids or decreases an obligation to pay or transmit money or property to the
Government, is liable to the United States Government for a civil penalty of not less than $5,000 and
not more than $10,000, as adjusted by the Federal
Civil Penalties Inflation Adjustment Act of 1990
(28 U.S.C. 2461 note; Public Law 104-4101), plus 3
times the amount of damages which the Government sustains because of the act of that person.
(2) Reduced damages.—If the court finds that—
(A) the person committing the violation of this subsection furnished officials of the United States
responsible for investigating false claims violations
with all information known to such person about
the violation within 30 days after the date on which
the defendant first obtained the information;
(B) such person fully cooperated with any Government investigation of such violation; and
(C) at the time such person furnished the United
States with the information about the violation, no
criminal prosecution, civil action, or administrative
action had commenced under this title with respect
to such violation, and the person did not have actual knowledge of the existence of an investigation
into such violation, the court may assess not less
than 2 times the amount of damages which the
Government sustains because of the act of that person.

121a
(3) Costs of civil actions.—A person violating
this subsection shall also be liable to the United
States Government for the costs of a civil action
brought to recover any such penalty or damages.
(b) Definitions.—For purposes of this section—
(1) the terms “knowing” and “knowingly” —
(A) mean that a person, with respect to information—
(i) has actual knowledge of the information;
(ii) acts in deliberate ignorance of the truth or falsity of the information; or
(iii) acts in reckless disregard of the truth or falsity of the information; and
(B) require no proof of specific intent to defraud;
(2) the term “claim”—
(A) means any request or demand, whether under
a contract or otherwise, for money or property and
whether or not the United States has title to the
money or property, that—
(i) is presented to an officer, employee, or agent of
the United States; or
(ii) is made to a contractor, grantee, or other recipient, if the money or property is to be spent or used
on the Government’s behalf or to advance a Government program or interest, and if the United
States Government—
(I) provides or has provided any portion of the
money or property requested or demanded; or

122a
(II) will reimburse such contractor, grantee, or
other recipient for any portion of the money or
property which is requested or demanded; and
(B) does not include requests or demands for
money or property that the Government has paid to
an individual as compensation for Federal employment or as an income subsidy with no restrictions
on that individual’s use of the money or property;
(3) the term “obligation” means an established
duty, whether or not fixed, arising from an express
or implied contractual, grantor-grantee, or licensor-licensee relationship, from a fee-based or similar relationship, from statute or regulation, or from
the retention of any overpayment; and
(4) the term “material” means having a natural
tendency to influence, or be capable of influencing,
the payment or receipt of money or property.
(c) Exemption from disclosure.—Any information furnished pursuant to subsection (a)(2) shall
be exempt from disclosure under section 552 of title
5.
(d) Exclusion.—This section does not apply to
claims, records, or statements made under the
Internal Revenue Code of 1986.
§ 3730. Civil actions for false claims
(a) Responsibilities of the Attorney General.—
The Attorney General diligently shall investigate a
violation under section 3729. If the Attorney General finds that a person has violated or is violating

123a
section 3729, the Attorney General may bring a
civil action under this section against the person.
(b) Actions by private persons.—(1) A person
may bring a civil action for a violation of section
3729 for the person and for the United States Government. The action shall be brought in the name
of the Government. The action may be dismissed
only if the court and the Attorney General give
written consent to the dismissal and their reasons
for consenting.
(2) A copy of the complaint and written disclosure
of substantially all material evidence and information the person possesses shall be served on the
Government pursuant to Rule 4(d)(4) of the Federal Rules of Civil Procedure.1 The complaint shall
be filed in camera, shall remain under seal for at
least 60 days, and shall not be served on the defendant until the court so orders. The Government
may elect to intervene and proceed with the action
within 60 days after it receives both the complaint
and the material evidence and information.
(3) The Government may, for good cause shown,
move the court for extensions of the time during
which the complaint remains under seal under
paragraph (2). Any such motions may be supported
by affidavits or other submissions in camera. The
defendant shall not be required to respond to any
complaint filed under this section until 20 days
after the complaint is unsealed and served upon
the defendant pursuant to Rule 4 of the Federal
Rules of Civil Procedure.

124a
(4) Before the expiration of the 60-day period or
any extensions obtained under paragraph (3), the
Government shall—
(A) proceed with the action, in which case the
action shall be conducted by the Government; or
(B) notify the court that it declines to take over the
action, in which case the person bringing the action
shall have the right to conduct the action.
(5) When a person brings an action under this subsection, no person other than the Government may
intervene or bring a related action based on the
facts underlying the pending action.
(c) Rights of the parties to qui tam actions.—
(1) If the Government proceeds with the action, it
shall have the primary responsibility for prosecuting the action, and shall not be bound by an act of
the person bringing the action. Such person shall
have the right to continue as a party to the action,
subject to the limitations set forth in paragraph (2).
(2)(A) The Government may dismiss the action
notwithstanding the objections of the person initiating the action if the person has been notified by
the Government of the filing of the motion and the
court has provided the person with an opportunity
for a hearing on the motion.
(B) The Government may settle the action with the
defendant notwithstanding the objections of the
person initiating the action if the court determines,
after a hearing, that the proposed settlement is
fair, adequate, and reasonable under all the cir-

125a
cumstances. Upon a showing of good cause, such
hearing may be held in camera.
(C) Upon a showing by the Government that unrestricted participation during the course of the litigation by the person initiating the action would
interfere with or unduly delay the Government’s
prosecution of the case, or would be repetitious,
irrelevant, or for purposes of harassment, the court
may, in its discretion, impose limitations on the
person’s participation, such as—
(i) limiting the number of witnesses the person
may call;
(ii) limiting the length of the testimony of such witnesses;
(iii) limiting the person’s cross-examination of witnesses; or
(iv) otherwise limiting the participation by the person in the litigation.
(D) Upon a showing by the defendant that unrestricted participation during the course of the litigation by the person initiating the action would be
for purposes of harassment or would cause the
defendant undue burden or unnecessary expense,
the court may limit the participation by the person
in the litigation.
(3) If the Government elects not to proceed with
the action, the person who initiated the action shall
have the right to conduct the action. If the Government so requests, it shall be served with copies of
all pleadings filed in the action and shall be sup-

126a
plied with copies of all deposition transcripts (at
the Government’s expense). When a person proceeds with the action, the court, without limiting
the status and rights of the person initiating the
action, may nevertheless permit the Government to
intervene at a later date upon a showing of good
cause.
(4) Whether or not the Government proceeds with
the action, upon a showing by the Government that
certain actions of discovery by the person initiating
the action would interfere with the Government’s
investigation or prosecution of a criminal or civil
matter arising out of the same facts, the court may
stay such discovery for a period of not more than 60
days. Such a showing shall be conducted in camera.
The court may extend the 60-day period upon a further showing in camera that the Government has
pursued the criminal or civil investigation or proceedings with reasonable diligence and any proposed discovery in the civil action will interfere
with the ongoing criminal or civil investigation or
proceedings.
(5) Notwithstanding subsection (b), the Government may elect to pursue its claim through any
alternate remedy available to the Government,
including any administrative proceeding to determine a civil money penalty. If any such alternate
remedy is pursued in another proceeding, the person initiating the action shall have the same rights
in such proceeding as such person would have had
if the action had continued under this section. Any
finding of fact or conclusion of law made in such

127a
other proceeding that has become final shall be
conclusive on all parties to an action under this
section. For purposes of the preceding sentence, a
finding or conclusion is final if it has been finally
determined on appeal to the appropriate court of
the United States, if all time for filing such an
appeal with respect to the finding or conclusion has
expired, or if the finding or conclusion is not subject to judicial review.
(d) Award to qui tam plaintiff.—(1) If the Government proceeds with an action brought by a person under subsection (b), such person shall, subject
to the second sentence of this paragraph, receive at
least 15 percent but not more than 25 percent of
the proceeds of the action or settlement of the claim,
depending upon the extent to which the person
substantially contributed to the prosecution of the
action. Where the action is one which the court
finds to be based primarily on disclosures of specific
information (other than information provided by
the person bringing the action) relating to allegations or transactions in a criminal, civil, or administrative hearing, in a congressional, administrative,
or Government2 Accounting Office report, hearing,
audit, or investigation, or from the news media, the
court may award such sums as it considers appropriate, but in no case more than 10 percent of the
proceeds, taking into account the significance of
the information and the role of the person bringing
the action in advancing the case to litigation. Any
payment to a person under the first or second sentence of this paragraph shall be made from the pro-

128a
ceeds. Any such person shall also receive an
amount for reasonable expenses which the court
finds to have been necessarily incurred, plus reasonable attorneys’ fees and costs. All such expenses, fees, and costs shall be awarded against the
defendant.
(2) If the Government does not proceed with an
action under this section, the person bringing the
action or settling the claim shall receive an amount
which the court decides is reasonable for collecting
the civil penalty and damages. The amount shall be
not less than 25 percent and not more than 30 percent of the proceeds of the action or settlement and
shall be paid out of such proceeds. Such person
shall also receive an amount for reasonable expenses which the court finds to have been necessarily
incurred, plus reasonable attorneys’ fees and costs.
All such expenses, fees, and costs shall be awarded
against the defendant.
(3) Whether or not the Government proceeds with
the action, if the court finds that the action was
brought by a person who planned and initiated the
violation of section 3729 upon which the action was
brought, then the court may, to the extent the court
considers appropriate, reduce the share of the proceeds of the action which the person would otherwise receive under paragraph (1) or (2) of this
subsection, taking into account the role of that person in advancing the case to litigation and any relevant circumstances pertaining to the violation. If
the person bringing the action is convicted of criminal conduct arising from his or her role in the vio-

129a
lation of section 3729, that person shall be dismissed from the civil action and shall not receive
any share of the proceeds of the action. Such dismissal shall not prejudice the right of the United
States to continue the action, represented by the
Department of Justice.
(4) If the Government does not proceed with the
action and the person bringing the action conducts
the action, the court may award to the defendant
its reasonable attorneys’ fees and expenses if the
defendant prevails in the action and the court finds
that the claim of the person bringing the action was
clearly frivolous, clearly vexatious, or brought primarily for purposes of harassment.
(e) Certain Actions Barred.—(1) No court shall
have jurisdiction over an action brought by a former or present member of the armed forces under
subsection (b) of this section against a member of
the armed forces arising out of such person’s service in the armed forces.
(2)(A) No court shall have jurisdiction over an
action brought under subsection (b) against a Member of Congress, a member of the judiciary, or a
senior executive branch official if the action is
based on evidence or information known to the
Government when the action was brought.
(B) For purposes of this paragraph, “senior executive branch official” means any officer or employee
listed in paragraphs (1) through (8) of section
101(f) of the Ethics in Government Act of 1978 (5
U.S.C. App.).

130a
(3) In no event may a person bring an action under
subsection (b) which is based upon allegations or
transactions which are the subject of a civil suit or
an administrative civil money penalty proceeding
in which the Government is already a party.
(4)(A) The court shall dismiss an action or claim
under this section, unless opposed by the Government, if substantially the same allegations or
transactions as alleged in the action or claim were
publicly disclosed—
(i) in a Federal criminal, civil, or administrative
hearing in which the Government or its agent is a
party;
(ii) in a congressional, Government2 Accountability Office, or other Federal report, hearing, audit, or
investigation; or
(iii) from the news media, unless the action is
brought by the Attorney General or the person
bringing the action is an original source of the
information.
(B) For purposes of this paragraph, “original
source” means an individual who either (i) prior to
a public disclosure under subsection (e)(4)(a), has
voluntarily disclosed to the Government the information on which allegations or transactions in a
claim are based, or (2) who has knowledge that is
independent of and materially adds to the publicly
disclosed allegations or transactions, and who has
voluntarily provided the information to the Government before filing an action under this section.

131a
(f) Government not liable for certain expenses.—The Government is not liable for expenses
which a person incurs in bringing an action under
this section.
(g) Fees and expenses to prevailing defendant.—In civil actions brought under this section
by the United States, the provisions of section
2412(d) of title 28 shall apply.
(h) Relief from retaliatory actions.—
(1) In general.—Any employee, contractor, or
agent shall be entitled to all relief necessary to
make that employee, contractor, or agent whole, if
that employee, contractor, or agent is discharged,
demoted, suspended, threatened, harassed, or in
any other manner discriminated against in the
terms and conditions of employment because of
lawful acts done by the employee, contractor, agent
or associated others in furtherance of an action
under this section or other efforts to stop 1 or more
violations of this subchapter.
(2) Relief.—Relief under paragraph (1) shall
include reinstatement with the same seniority status that employee, contractor, or agent would have
had but for the discrimination, 2 times the amount
of back pay, interest on the back pay, and compensation for any special damages sustained as a
result of the discrimination, including litigation
costs and reasonable attorneys’ fees. An action
under this subsection may be brought in the appropriate district court of the United States for the
relief provided in this subsection.

132a
(3) Limitation on bringing civil action.—A civil
action under this subsection may not be brought
more than 3 years after the date when the retaliation occurred.
§ 3731. False claims procedure
(a) A subpena requiring the attendance of a witness at a trial or hearing conducted under section
3730 of this title may be served at any place in the
United States.
(b) A civil action under section 3730 may not be
brought—
(1) more than 6 years after the date on which the
violation of section 3729 is committed, or
(2) more than 3 years after the date when facts
material to the right of action are known or reasonably should have been known by the official of the
United States charged with responsibility to act in
the circumstances, but in no event more than 10
years after the date on which the violation is committed, whichever occurs last.
(c) If the Government elects to intervene and proceed with an action brought under 3730(b),1 the
Government may file its own complaint or amend
the complaint of a person who has brought an
action under section 3730(b) to clarify or add detail
to the claims in which the Government is intervening and to add any additional claims with respect
to which the Government contends it is entitled to
relief. For statute of limitations purposes, any such

133a
Government pleading shall relate back to the filing
date of the complaint of the person who originally
brought the action, to the extent that the claim of
the Government arises out of the conduct, transactions, or occurrences set forth, or attempted to be
set forth, in the prior complaint of that person.
(d) In any action brought under section 3730, the
United States shall be required to prove all essential elements of the cause of action, including damages, by a preponderance of the evidence.
(e) Notwithstanding any other provision of law, the
Federal Rules of Criminal Procedure, or the Federal Rules of Evidence, a final judgment rendered in
favor of the United States in any criminal proceeding charging fraud or false statements, whether
upon a verdict after trial or upon a plea of guilty or
nolo contendere, shall estop the defendant from
denying the essential elements of the offense in any
action which involves the same transaction as in
the criminal proceeding and which is brought
under subsection (a) or (b) of section 3730.
§ 3732. False claims jurisdiction
(a) Actions under section 3730.—Any action
under section 3730 may be brought in any judicial
district in which the defendant or, in the case of
multiple defendants, any one defendant can be
found, resides, transacts business, or in which any
act proscribed by section 3729 occurred. A summons as required by the Federal Rules of Civil Procedure shall be issued by the appropriate district

134a
court and served at any place within or outside the
United States.
(b) Claims under State Law.—The district
courts shall have jurisdiction over any action
brought under the laws of any State for the recovery of funds paid by a State or local government if
the action arises from the same transaction or
occurrence as an action brought under section
3730.
(c) Service on State or local authorities.—With
respect to any State or local government that is
named as a co-plaintiff with the United States in
an action brought under subsection (b), a seal on
the action ordered by the court under section
3730(b) shall not preclude the Government or the
person bringing the action from serving the complaint, any other pleadings, or the written disclosure of substantially all material evidence and
information possessed by the person bringing the
action on the law enforcement authorities that are
authorized under the law of that State or local government to investigate and prosecute such actions
on behalf of such governments, except that such
seal applies to the law enforcement authorities so
served to the same extent as the seal applies to
other parties in the action.

135a
§ 3733. Civil investigative demands
Currentness
(a) In general.—
(1) Issuance and service.—Whenever the Attorney General, or a designee (for purposes of this section), has reason to believe that any person may be
in possession, custody, or control of any documentary material or information relevant to a false
claims law investigation, the Attorney General, or
a designee, may, before commencing a civil proceeding under section 3730(a) or other false claims
law, or making an election under section 3730(b),
issue in writing and cause to be served upon such
person, a civil investigative demand requiring such
person—
(A) to produce such documentary material for
inspection and copying,
(B) to answer in writing written interrogatories
with respect to such documentary material or information,
(C) to give oral testimony concerning such documentary material or information, or
(D) to furnish any combination of such material,
answers, or testimony.
The Attorney General may delegate the authority
to issue civil investigative demands under this subsection. Whenever a civil investigative demand is
an express demand for any product of discovery,
the Attorney General, the Deputy Attorney Gener-

136a
al, or an Assistant Attorney General shall cause to
be served, in any manner authorized by this section, a copy of such demand upon the person from
whom the discovery was obtained and shall notify
the person to whom such demand is issued of the
date on which such copy was served. Any information obtained by the Attorney General or a
designee of the Attorney General under this section
may be shared with any qui tam relator if the
Attorney General or designee determine it is necessary as part of any false claims act1 investigation.
(2) Contents and deadlines.—
(A) Each civil investigative demand issued under
paragraph (1) shall state the nature of the conduct
constituting the alleged violation of a false claims
law which is under investigation, and the applicable provision of law alleged to be violated.
(B) If such demand is for the production of documentary material, the demand shall—
(i) describe each class of documentary material to
be produced with such definiteness and certainty
as to permit such material to be fairly identified;
(ii) prescribe a return date for each such class
which will provide a reasonable period of time
within which the material so demanded may be
assembled and made available for inspection and
copying; and
(iii) identify the false claims law investigator to
whom such material shall be made available.

137a
(C) If such demand is for answers to written interrogatories, the demand shall—
(i) set forth with specificity the written interrogatories to be answered;
(ii) prescribe dates at which time answers to written interrogatories shall be submitted; and
(iii) identify the false claims law investigator to
whom such answers shall be submitted.
(D) If such demand is for the giving of oral testimony, the demand shall—
(i) prescribe a date, time, and place at which oral
testimony shall be commenced;
(ii) identify a false claims law investigator who
shall conduct the examination and the custodian to
whom the transcript of such examination shall be
submitted;
(iii) specify that such attendance and testimony
are necessary to the conduct of the investigation;
(iv) notify the person receiving the demand of the
right to be accompanied by an attorney and any
other representative; and
(v) describe the general purpose for which the
demand is being issued and the general nature of
the testimony, including the primary areas of
inquiry, which will be taken pursuant to the
demand.
(E) Any civil investigative demand issued under
this section which is an express demand for any
product of discovery shall not be returned or

138a
returnable until 20 days after a copy of such
demand has been served upon the person from
whom the discovery was obtained.
(F) The date prescribed for the commencement of
oral testimony pursuant to a civil investigative
demand issued under this section shall be a date
which is not less than seven days after the date on
which demand is received, unless the Attorney
General or an Assistant Attorney General designated by the Attorney General determines that
exceptional circumstances are present which warrant the commencement of such testimony within a
lesser period of time.
(G) The Attorney General shall not authorize the
issuance under this section of more than one civil
investigative demand for oral testimony by the
same person unless the person requests otherwise
or unless the Attorney General, after investigation,
notifies that person in writing that an additional
demand for oral testimony is necessary.
(b) Protected material or information.—
(1) In general.—A civil investigative demand
issued under subsection (a) may not require the
production of any documentary material, the submission of any answers to written interrogatories,
or the giving of any oral testimony if such material,
answers, or testimony would be protected from disclosure under—
(A) the standards applicable to subpoenas or subpoenas duces tecum issued by a court of the United
States to aid in a grand jury investigation; or

139a
(B) the standards applicable to discovery requests
under the Federal Rules of Civil Procedure, to the
extent that the application of such standards to
any such demand is appropriate and consistent
with the provisions and purposes of this section.
(2) Effect on other orders, rules, and laws.—
Any such demand which is an express demand for
any product of discovery supersedes any inconsistent order, rule, or provision of law (other than this
section) preventing or restraining disclosure of
such product of discovery to any person. Disclosure
of any product of discovery pursuant to any such
express demand does not constitute a waiver of any
right or privilege which the person making such
disclosure may be entitled to invoke to resist discovery of trial preparation materials.
(c) Service; jurisdiction.—
(1) By whom served.—Any civil investigative
demand issued under subsection (a) may be served
by a false claims law investigator, or by a United
States marshal or a deputy marshal, at any place
within the territorial jurisdiction of any court of
the United States.
(2) Service in foreign countries.—Any such
demand or any petition filed under subsection (j)
may be served upon any person who is not found
within the territorial jurisdiction of any court of
the United States in such manner as the Federal
Rules of Civil Procedure prescribe for service in a
foreign country. To the extent that the courts of the
United States can assert jurisdiction over any such

140a
person consistent with due process, the United
States District Court for the District of Columbia
shall have the same jurisdiction to take any action
respecting compliance with this section by any
such person that such court would have if such person were personally within the jurisdiction of such
court.
(d) Service upon legal entities and natural
persons.—
(1) Legal entities.—Service of any civil investigative demand issued under subsection (a) or of any
petition filed under subsection (j) may be made
upon a partnership, corporation, association, or
other legal entity by—
(A) delivering an executed copy of such demand or
petition to any partner, executive officer, managing
agent, or general agent of the partnership, corporation, association, or entity, or to any agent authorized by appointment or by law to receive service of
process on behalf of such partnership, corporation,
association, or entity;
(B) delivering an executed copy of such demand or
petition to the principal office or place of business
of the partnership, corporation, association, or
entity; or
(C) depositing an executed copy of such demand or
petition in the United States mails by registered or
certified mail, with a return receipt requested,
addressed to such partnership, corporation, association, or entity at its principal office or place of
business.

141a
(2) Natural persons.—Service of any such
demand or petition may be made upon any natural
person by—
(A) delivering an executed copy of such demand or
petition to the person; or
(B) depositing an executed copy of such demand or
petition in the United States mails by registered or
certified mail, with a return receipt requested,
addressed to the person at the person’s residence or
principal office or place of business.
(e) Proof of service.—A verified return by the
individual serving any civil investigative demand
issued under subsection (a) or any petition filed
under subsection (j) setting forth the manner of
such service shall be proof of such service. In the
case of service by registered or certified mail, such
return shall be accompanied by the return post
office receipt of delivery of such demand.
(f) Documentary Material.—
(1) Sworn certificates.—The production of documentary material in response to a civil investigative demand served under this section shall be
made under a sworn certificate, in such form as the
demand designates, by—
(A) in the case of a natural person, the person to
whom the demand is directed, or
(B) in the case of a person other than a natural person, a person having knowledge of the facts and circumstances relating to such production and
authorized to act on behalf of such person.

142a
The certificate shall state that all of the documentary material required by the demand and in the
possession, custody, or control of the person to
whom the demand is directed has been produced
and made available to the false claims law investigator identified in the demand.
(2) Production of materials.—Any person upon
whom any civil investigative demand for the production of documentary material has been served
under this section shall make such material available for inspection and copying to the false claims
law investigator identified in such demand at the
principal place of business of such person, or at
such other place as the false claims law investigator and the person thereafter may agree and prescribe in writing, or as the court may direct under
subsection (j)(1). Such material shall be made so
available on the return date specified in such
demand, or on such later date as the false claims
law investigator may prescribe in writing. Such
person may, upon written agreement between the
person and the false claims law investigator, substitute copies for originals of all or any part of such
material.
(g) Interrogatories.—Each interrogatory in a
civil investigative demand served under this section shall be answered separately and fully in writing under oath and shall be submitted under a
sworn certificate, in such form as the demand designates, by—

143a
(1) in the case of a natural person, the person to
whom the demand is directed, or
(2) in the case of a person other than a natural person, the person or persons responsible for answering each interrogatory.
If any interrogatory is objected to, the reasons for
the objection shall be stated in the certificate
instead of an answer. The certificate shall state
that all information required by the demand and in
the possession, custody, control, or knowledge of
the person to whom the demand is directed has
been submitted. To the extent that any information
is not furnished, the information shall be identified
and reasons set forth with particularity regarding
the reasons why the information was not furnished.
(h) Oral Examinations.—
(1) Procedures.—The examination of any person
pursuant to a civil investigative demand for oral
testimony served under this section shall be taken
before an officer authorized to administer oaths
and affirmations by the laws of the United States
or of the place where the examination is held. The
officer before whom the testimony is to be taken
shall put the witness on oath or affirmation and
shall, personally or by someone acting under the
direction of the officer and in the officer’s presence,
record the testimony of the witness. The testimony
shall be taken stenographically and shall be transcribed. When the testimony is fully transcribed,
the officer before whom the testimony is taken

144a
shall promptly transmit a copy of the transcript of
the testimony to the custodian. This subsection
shall not preclude the taking of testimony by any
means authorized by, and in a manner consistent
with, the Federal Rules of Civil Procedure.
(2) Persons present.—The false claims law investigator conducting the examination shall exclude
from the place where the examination is held all
persons except the person giving the testimony, the
attorney for and any other representative of the
person giving the testimony, the attorney for the
Government, any person who may be agreed upon
by the attorney for the Government and the person
giving the testimony, the officer before whom the
testimony is to be taken, and any stenographer taking such testimony.
(3) Where testimony taken.—The oral testimony
of any person taken pursuant to a civil investigative demand served under this section shall be
taken in the judicial district of the United States
within which such person resides, is found, or
transacts business, or in such other place as may
be agreed upon by the false claims law investigator
conducting the examination and such person.
(4) Transcript of testimony.—When the testimony is fully transcribed, the false claims law investigator or the officer before whom the testimony is
taken shall afford the witness, who may be accompanied by counsel, a reasonable opportunity to
examine and read the transcript, unless such
examination and reading are waived by the wit-

145a
ness. Any changes in form or substance which the
witness desires to make shall be entered and identified upon the transcript by the officer or the false
claims law investigator, with a statement of the
reasons given by the witness for making such
changes. The transcript shall then be signed by the
witness, unless the witness in writing waives the
signing, is ill, cannot be found, or refuses to sign. If
the transcript is not signed by the witness within
30 days after being afforded a reasonable opportunity to examine it, the officer or the false claims
law investigator shall sign it and state on the
record the fact of the waiver, illness, absence of the
witness, or the refusal to sign, together with the
reasons, if any, given therefor.
(5) Certification and delivery to custodian.—
The officer before whom the testimony is taken
shall certify on the transcript that the witness was
sworn by the officer and that the transcript is a
true record of the testimony given by the witness,
and the officer or false claims law investigator
shall promptly deliver the transcript, or send the
transcript by registered or certified mail, to the
custodian.
(6) Furnishing or inspection of transcript by
witness.—Upon payment of reasonable charges
therefor, the false claims law investigator shall furnish a copy of the transcript to the witness only,
except that the Attorney General, the Deputy
Attorney General, or an Assistant Attorney General may, for good cause, limit such witness to inspec-

146a
tion of the official transcript of the witness’ testimony.
(7) Conduct of oral testimony.—(A) Any person
compelled to appear for oral testimony under a civil
investigative demand issued under subsection (a)
may be accompanied, represented, and advised by
counsel. Counsel may advise such person, in confidence, with respect to any question asked of such
person. Such person or counsel may object on the
record to any question, in whole or in part, and
shall briefly state for the record the reason for the
objection. An objection may be made, received, and
entered upon the record when it is claimed that
such person is entitled to refuse to answer the
question on the grounds of any constitutional or
other legal right or privilege, including the privilege against self-incrimination. Such person may
not otherwise object to or refuse to answer any
question, and may not directly or through counsel
otherwise interrupt the oral examination. If such
person refuses to answer any question, a petition
may be filed in the district court of the United
States under subsection (j)(1) for an order compelling such person to answer such question.
(B) If such person refuses to answer any question
on the grounds of the privilege against self-incrimination, the testimony of such person may be compelled in accordance with the provisions of part V
of title 18.
(8) Witness fees and allowances.—Any person
appearing for oral testimony under a civil inves-

147a
tigative demand issued under subsection (a) shall
be entitled to the same fees and allowances which
are paid to witnesses in the district courts of the
United States.
(i) Custodians of documents, answers, and
transcripts.—
(1) Designation.—The Attorney General shall
designate a false claims law investigator to serve
as custodian of documentary material, answers to
interrogatories, and transcripts of oral testimony
received under this section, and shall designate
such additional false claims law investigators as
the Attorney General determines from time to time
to be necessary to serve as deputies to the custodian.
(2) Responsibility for materials; disclosure.—
(A) A false claims law investigator who receives
any documentary material, answers to interrogatories, or transcripts of oral testimony under this section shall transmit them to the custodian. The
custodian shall take physical possession of such
material, answers, or transcripts and shall be
responsible for the use made of them and for the
return of documentary material under paragraph
(4).
(B) The custodian may cause the preparation of
such copies of such documentary material, answers
to interrogatories, or transcripts of oral testimony
as may be required for official use by any false
claims law investigator, or other officer or employee of the Department of Justice. Such material,

148a
answers, and transcripts may be used by any such
authorized false claims law investigator or other
officer or employee in connection with the taking of
oral testimony under this section.
(C) Except as otherwise provided in this subsection, no documentary material, answers to interrogatories, or transcripts of oral testimony, or
copies thereof, while in the possession of the custodian, shall be available for examination by any
individual other than a false claims law investigator or other officer or employee of the Department
of Justice authorized under subparagraph (B). The
prohibition in the preceding sentence on the availability of material, answers, or transcripts shall
not apply if consent is given by the person who produced such material, answers, or transcripts, or, in
the case of any product of discovery produced pursuant to an express demand for such material, consent is given by the person from whom the
discovery was obtained. Nothing in this subparagraph is intended to prevent disclosure to the Congress, including any committee or subcommittee of
the Congress, or to any other agency of the United
States for use by such agency in furtherance of its
statutory responsibilities.
(D) While in the possession of the custodian and
under such reasonable terms and conditions as the
Attorney General shall prescribe—
(i) documentary material and answers to interrogatories shall be available for examination by the
person who produced such material or answers, or

149a
by a representative of that person authorized by
that person to examine such material and answers;
and
(ii) transcripts of oral testimony shall be available
for examination by the person who produced such
testimony, or by a representative of that person
authorized by that person to examine such transcripts.
(3) Use of material, answers, or transcripts in
other proceedings.—Whenever any attorney of
the Department of Justice has been designated to
appear before any court, grand jury, or Federal
agency in any case or proceeding, the custodian of
any documentary material, answers to interrogatories, or transcripts of oral testimony received under
this section may deliver to such attorney such
material, answers, or transcripts for official use in
connection with any such case or proceeding as
such attorney determines to be required. Upon the
completion of any such case or proceeding, such
attorney shall return to the custodian any such
material, answers, or transcripts so delivered
which have not passed into the control of such
court, grand jury, or agency through introduction
into the record of such case or proceeding.
(4) Conditions for return of material.—If any
documentary material has been produced by any
person in the course of any false claims law investigation pursuant to a civil investigative demand
under this section, and—

150a
(A) any case or proceeding before the court or
grand jury arising out of such investigation, or any
proceeding before any Federal agency involving
such material, has been completed, or
(B) no case or proceeding in which such material
may be used has been commenced within a reasonable time after completion of the examination and
analysis of all documentary material and other
information assembled in the course of such investigation, the custodian shall, upon written request
of the person who produced such material, return
to such person any such material (other than copies
furnished to the false claims law investigator
under subsection (f)(2) or made for the Department
of Justice under paragraph (2)(B)) which has not
passed into the control of any court, grand jury, or
agency through introduction into the record of such
case or proceeding.
(5) Appointment of successor custodians.—In
the event of the death, disability, or separation
from service in the Department of Justice of the
custodian of any documentary material, answers to
interrogatories, or transcripts of oral testimony
produced pursuant to a civil investigative demand
under this section, or in the event of the official
relief of such custodian from responsibility for the
custody and control of such material, answers, or
transcripts, the Attorney General shall promptly—
(A) designate another false claims law investigator
to serve as custodian of such material, answers, or
transcripts, and

151a
(B) transmit in writing to the person who produced
such material, answers, or testimony notice of the
identity and address of the successor so designated.
Any person who is designated to be a successor
under this paragraph shall have, with regard to
such material, answers, or transcripts, the same
duties and responsibilities as were imposed by this
section upon that person’s predecessor in office,
except that the successor shall not be held responsible for any default or dereliction which occurred
before that designation.
(j) Judicial Proceedings.—
(1) Petition for enforcement.—Whenever any
person fails to comply with any civil investigative
demand issued under subsection (a), or whenever
satisfactory copying or reproduction of any material requested in such demand cannot be done and
such person refuses to surrender such material, the
Attorney General may file, in the district court of
the United States for any judicial district in which
such person resides, is found, or transacts business, and serve upon such person a petition for an
order of such court for the enforcement of the civil
investigative demand.
(2) Petition to modify or set aside demand.—
(A) Any person who has received a civil investigative demand issued under subsection (a) may file,
in the district court of the United States for the
judicial district within which such person resides,
is found, or transacts business, and serve upon the
false claims law investigator identified in such

152a
demand a petition for an order of the court to modify or set aside such demand. In the case of a petition addressed to an express demand for any
product of discovery, a petition to modify or set
aside such demand may be brought only in the district court of the United States for the judicial district in which the proceeding in which such
discovery was obtained is or was last pending. Any
petition under this subparagraph must be filed—
(i) within 20 days after the date of service of the
civil investigative demand, or at any time before
the return date specified in the demand, whichever
date is earlier, or
(ii) within such longer period as may be prescribed
in writing by any false claims law investigator
identified in the demand.
(B) The petition shall specify each ground upon
which the petitioner relies in seeking relief under
subparagraph (A), and may be based upon any failure of the demand to comply with the provisions of
this section or upon any constitutional or other
legal right or privilege of such person. During the
pendency of the petition in the court, the court may
stay, as it deems proper, the running of the time
allowed for compliance with the demand, in whole
or in part, except that the person filing the petition
shall comply with any portions of the demand not
sought to be modified or set aside.
(3) Petition to modify or set aside demand for
product of discovery.—(A) In the case of any
civil investigative demand issued under subsection

153a
(a) which is an express demand for any product of
discovery, the person from whom such discovery
was obtained may file, in the district court of the
United States for the judicial district in which the
proceeding in which such discovery was obtained is
or was last pending, and serve upon any false
claims law investigator identified in the demand
and upon the recipient of the demand, a petition for
an order of such court to modify or set aside those
portions of the demand requiring production of any
such product of discovery. Any petition under this
subparagraph must be filed—
(i) within 20 days after the date of service of the
civil investigative demand, or at any time before
the return date specified in the demand, whichever
date is earlier, or
(ii) within such longer period as may be prescribed
in writing by any false claims law investigator
identified in the demand.
(B) The petition shall specify each ground upon
which the petitioner relies in seeking relief under
subparagraph (A), and may be based upon any failure of the portions of the demand from which relief
is sought to comply with the provisions of this section, or upon any constitutional or other legal right
or privilege of the petitioner. During the pendency
of the petition, the court may stay, as it deems
proper, compliance with the demand and the running of the time allowed for compliance with the
demand.

154a
(4) Petition to require performance by custodian of duties.—At any time during which any
custodian is in custody or control of any documentary material or answers to interrogatories produced, or transcripts of oral testimony given, by
any person in compliance with any civil investigative demand issued under subsection (a), such person, and in the case of an express demand for any
product of discovery, the person from whom such
discovery was obtained, may file, in the district
court of the United States for the judicial district
within which the office of such custodian is situated, and serve upon such custodian, a petition for an
order of such court to require the performance by
the custodian of any duty imposed upon the custodian by this section.
(5) Jurisdiction.—Whenever any petition is filed
in any district court of the United States under this
subsection, such court shall have jurisdiction to
hear and determine the matter so presented, and to
enter such order or orders as may be required to
carry out the provisions of this section. Any final
order so entered shall be subject to appeal under
section 1291 of title 28. Any disobedience of any
final order entered under this section by any court
shall be punished as a contempt of the court.
(6) Applicability of federal rules of civil procedure.—The Federal Rules of Civil Procedure
shall apply to any petition under this subsection, to
the extent that such rules are not inconsistent with
the provisions of this section.

155a
(k) Disclosure exemption.—Any documentary
material, answers to written interrogatories, or
oral testimony provided under any civil investigative demand issued under subsection (a) shall be
exempt from disclosure under section 552 of title 5.
(l) Definitions.—For purposes of this section—
(1) the term “false claims law” means—
(A) this section and sections 3729 through 3732;
and
(B) any Act of Congress enacted after the date of
the enactment of this section which prohibits, or
makes available to the United States in any court
of the United States any civil remedy with respect
to, any false claim against, bribery of, or corruption
of any officer or employee of the United States;
(2) the term “false claims law investigation” means
any inquiry conducted by any false claims law
investigator for the purpose of ascertaining
whether any person is or has been engaged in any
violation of a false claims law;
(3) the term “false claims law investigator” means
any attorney or investigator employed by the
Department of Justice who is charged with the
duty of enforcing or carrying into effect any false
claims law, or any officer or employee of the United
States acting under the direction and supervision
of such attorney or investigator in connection with
a false claims law investigation;
(4) the term “person” means any natural person,
partnership, corporation, association, or other legal

156a
entity, including any State or political subdivision
of a State;
(5) the term “documentary material” includes the
original or any copy of any book, record, report,
memorandum, paper, communication, tabulation,
chart, or other document, or data compilations
stored in or accessible through computer or other
information retrieval systems, together with
instructions and all other materials necessary to
use or interpret such data compilations, and any
product of discovery;
(6) the term “custodian” means the custodian, or
any deputy custodian, designated by the Attorney
General under subsection (i)(1);
(7) the term “product of discovery” includes—
(A) the original or duplicate of any deposition,
interrogatory, document, thing, result of the
inspection of land or other property, examination,
or admission, which is obtained by any method of
discovery in any judicial or administrative proceeding of an adversarial nature;
(B) any digest, analysis, selection, compilation, or
derivation of any item listed in subparagraph (A);
and
(C) any index or other manner of access to any item
listed in subparagraph (A); and
(8) the term “official use” means any use that is
consistent with the law, and the regulations and
policies of the Department of Justice, including use
in connection with internal Department of Justice

157a
memoranda and reports; communications between
the Department of Justice and a Federal, State, or
local government agency, or a contractor of a
Federal, State, or local government agency, undertaken in furtherance of a Department of Justice
investigation or prosecution of a case; interviews of
any qui tam relator or other witness; oral examinations; depositions; preparation for and response to
civil discovery requests; introduction into the
record of a case or proceeding; applications,
motions, memoranda and briefs submitted to a
court or other tribunal; and communications with
Government investigators, auditors, consultants
and experts, the counsel of other parties, arbitrators and mediators, concerning an investigation,
case or proceeding.
519.18 Hearing procedure.
(a) The issues and documentation considered at the
hearing are limited to issues directly relating to
the final determination. An appellant may not
raise issues regarding the methodology used to
determine any rate of payment or fee, nor raise any
new matter not considered by the department upon
submission of objections to a draft audit or notice of
proposed agency action.
(b) Technical rules of evidence followed in a court of
law will not be followed, but evidence must be relevant and material.
(c) Irrelevant and unduly repetitious testimony and
cross-examination will be excluded.

158a
(d) The appellant has the burden of:
(1) showing that the determination of the department was incorrect and that all claims submitted
and denied were due and payable under the program, or that all costs claimed were allowable; and
(2) proving any mitigating factors affecting the
severity of any sanction imposed.
Where the determination is based upon an alleged
failure of the provider to comply with generally
accepted business, accounting, professional or medical practices or standards of health care, the
department must establish the existence of such
practice or standard.
(e) Copies of records and documents in the possession of the department may be admitted into evidence as photocopies, however, the originals of
such records and documents must be made available for inspection at the direction of the hearing
officer whether in possession of the department or
the appellant.
(f) Computer-generated documents prepared by the
department or its fiscal agent to show the nature
and amount of payments made under the program
will be presumed, in the absence of direct evidence
to the contrary, to constitute an accurate itemization of the payments made to a provider.
(g) An extrapolation based upon an audit utilizing
a statistical sampling method certified as valid will
be presumed, in the absence of expert testimony
and evidence to the contrary, to be an accurate

159a
determination of the total overpayments made or
penalty to be imposed. The appellant may submit
expert testimony challenging the extrapolation by
the department or an actual accounting of all
claims paid in rebuttal to the department’s proof.
(h) The decision after hearing must be supported
by substantial evidence.
518.1 Scope.
(a) This Part sets forth the procedures for the
recovery of overpayments determined to be due the
department under the medical assistance program
and for withholding payments otherwise due a
provider.
(b) When the department has determined that any
person has submitted or caused to be submitted
claims for medical care, services or supplies for
which payment should not have been made, it may
require repayment of the amount determined to
have been overpaid.
(c) An overpayment includes any amount not
authorized to be paid under the medical assistance
program, whether paid as the result of inaccurate
or improper cost reporting, improper claiming,
unacceptable practices, fraud, abuse or mistake.
(d) Recovery of overpayments may be made in connection with an audit, review or investigation
under Part 515 or 517 of this Title, or in connection
with other reviews or audits by authorized local,

160a
State or Federal agencies available to the department.
18 CRR-NY 518.1
504.1 Policy and scope.
(a) The policy of this State is to make available to
everyone, regardless of race, age, national origin or
economic standing, uniform high quality medical
care. In pursuit of this goal the department will
contract with only those persons who can demonstrate that they are qualified to provide medical
care, services or supplies and who can provide reasonable assurance that public funds will be properly utilized. Only qualified and responsible persons
may be enrolled as providers of care, services and
supplies.
(b)
(1) Any person who furnishes medical care, services
or supplies for which payments under the medical
assistance program are to be claimed; or who
arranges the furnishing of such care, services or
supplies; or who submits claims for or on behalf of
any person furnishing or arranging for the furnishing of such care, services or supplies must enroll as
a provider of services prior to being eligible to
receive such payments, to arrange for such care,
services or supplies or to submit claims for such
care or supplies.
(2) Those persons who are required to enroll as
providers of services under paragraph (1) of this

161a
subdivision include, but are not limited to, laboratory directors, supervising pharmacists, nurse
practitioners and physician’s assistants.
(c) If a license, registration or certification is
required to render the medical care, services or
supplies to be furnished, an applicant must hold a
proper and currently valid license, registration
and/or certification to be eligible to furnish the
care, services or supplies under the medical assistance program.
(d) The following definitions shall apply to this
Part unless the context requires otherwise:
(1) Affiliate or affiliated person means any person
having an overt, covert or conspiratorial relationship with another such that either of them may
directly or indirectly control the other or such that
they are under common control or ownership. For
example, persons with an ownership or control
interest in a provider; agents and managing
employees of a provider; subcontractors; and wholly owned suppliers of a provider with whom the
provider has significant business transactions are
considered affiliated with each other. Similarly,
providers sharing a common owner or managing
employee are affiliated with each other.
(2) Agent means a person who has actual or apparent authority to obligate or to act for another.
(3) Applicant is any person who has submitted an
application for enrollment.

162a
(4) Application for enrollment or application means
any document submitted by a person for the purpose of enrolling in the medical assistance program.
(5) Conviction or convicted means that a plea of
guilty or no contest or a verdict of guilty has been
entered in a Federal, State or local court, regardless of whether an appeal from the judgment is
pending or whether a certificate of relief from civil
disability has been granted.
(6) Department means the State Department of
Social Services, or a local social services department where enrollment of specified provider types
has been delegated to or retained by such local district (e.g., in the case of certain transportation
providers).
(7) Enrollment or enrolling is the process by which
an applicant contracts with the department to participate in the medical assistance program as a
provider of medical care, services or supplies.
(8) Furnishes means the provision of medical care,
services or supplies, either directly or indirectly by
supervising the provision of medical care, services
or supplies or by prescribing or ordering care, services or supplies.
(9) Indirect ownership interest means an ownership
interest in an entity that has an ownership interest
in a provider. This term includes an ownership
interest in any entity that has an indirect ownership interest in a provider.

163a
(10) Indictment means an indictment has been
handed down by a grand jury, or an accusatory
instrument charging a crime which would be a
felony under New York State law has been filed.
(11) Managing employee means a general manager,
business manager, administrator, director, or other
person who exercises operational or managerial
control of a provider, or who directly or indirectly
conducts the day-to-day operation of a provider.
(12) Medicaid is the program of State-administered
medical assistance established by title XIX of the
Social Security Act.
(13) Medical assistance program or program means
the program of medical assistance for needy persons provided for in title 11 of article 5 of the Social
Services Law.
(14) Medicare is the program of hospital and medical insurance established under title XVIII of the
Social Security Act.
(15) Ownership interest means possession of equity
in the capital, the stock or the profits of a provider.
(16) Participation is the ability and authority to
furnish care, services or supplies to eligible recipients and to receive payment from the medical
assistance program for such care, services or supplies.
(17) Person includes natural persons, corporations,
partnerships, associations, clinics, groups and
other entities.

164a
(18) Person with an ownership or control interest
means a person who:
(i) has an ownership interest totaling five percent
or more in a provider;
(ii) has an indirect ownership interest equal to five
percent or more in a provider;
(iii) has a combined direct and indirect ownership
interest equal to five percent or more in a provider;
(iv) owns an interest of five percent or more in any
mortgage, deed of trust, note, or other obligation
secured by the provider if that interest equals at
least five percent of the value of the property or
assets of the provider;
(v) is an officer or director of a provider that is
organized as a corporation;
(vi) is a partner in a provider that is organized as a
partnership.
(19) Provider is any person who has enrolled under
the medical assistance program to furnish medical
care, services or supplies; or to arrange for the furnishing of such care, services or supplies; or to submit claims for such care, services or supplies for or
on behalf of another person. Only a provider may
order or prescribe care, services or supplies, exclusive of in-patient hospital care, if such ordering or
prescribing results in payment of more than 4,500
claims totaling $75,000 or more per year. The failure or refusal of a person who orders or prescribes
such amounts to enroll as a provider in the medical
assistance program will result in the denial of pay-

165a
ment by the department for care, services or supplies ordered or prescribed by such person following such failure or refusal. For the purposes of this
paragraph, “claim” has the same meaning as set
forth in section 515.1(b)(3) of this Title.
(20) Significant business transaction means any
business transaction or series of transactions that,
during any one fiscal year, exceed the lesser of
$25,000 or five percent of a provider’s total operating expenses.
(21) Subcontractor means any person to which a
provider has contracted or delegated some of its
management functions, or its responsibilities for
providing medical care, services or supplies; or its
claiming or claims preparation or processing functions or responsibilities.
(22) Supplier means a person from whom a
provider purchases goods and services used in carrying out its responsibilities under the medical
assistance program (e.g., a service bureau, or
billing service, a commercial laundry, a manufacturer, or a pharmaceutical firm).
(23) Wholly owned supplier means a supplier whose
total ownership interest is held by a provider or a
person with an ownership or control interest in a
provider.
(24) Service bureau means any person who provides
claims processing or claims submission services for
or on behalf of a provider, including a business
agent, billing service or accounting firm.

166a
(25) Laboratory director means an individual who
has met the qualifications of a laboratory director
as set forth in 10 NYCRR 19.2 and who has those
responsibilities set forth in 10 NYCRR 58-1.2.
(26) Supervising pharmacist means the individual
designated by a pharmacy on the pharmacy’s State
registration form as the licensed pharmacist having personal supervision of the pharmacy.
(27) Nurse practitioner means an individual who is
licensed and currently registered as a professional
nurse in the State and who is certified under section 6910 of the Education Law as a nurse practitioner.
(28) Physician’s assistant means a person who is
registered as a physician’s assistant pursuant to
section 6541 of the Education Law.
Section 504.3 - Duties of the provider.
504.3 Duties of the provider. By enrolling the
provider agrees:
(a) to prepare and to maintain contemporaneous
records demonstrating its right to receive payment
under the medical assistance program and to keep
for a period of six years from the date the care,
services or supplies were furnished, all records necessary to disclose the nature and extent of services
furnished and all information regarding claims for
payment submitted by, or on behalf of, the provider
and to furnish such records and information, upon
request, to the department, the Secretary of the

167a
United States Department of Health and Human
Services, the Deputy Attorney General for Medicaid Fraud Control and the New York State
Department of Health;
(b) to comply with the disclosure requirements of
Part 502 of this Title with respect to ownership and
control interests, significant business transactions
and involvement with convicted persons;
(c) to accept payment from the medical assistance
program as payment in full for all care, services
and supplies billed under the program, except
where specifically provided in law to the contrary;
(d) not to illegally discriminate on the basis of
handicap, race, color, religion, national origin, sex
or age;
(e) to submit claims for payment only for services
actually furnished and which were medically necessary or otherwise authorized under the Social
Services Law when furnished and which were provided to eligible persons;
(f) to submit claims on officially authorized claim
forms in the manner specified by the department in
conformance with the standards and procedures for
claims submission;
(g) to permit audits, by the persons and agencies
denominated in subdivision (a) of this section, of all
books and records or, in the discretion of the auditing agency, a sample thereof, relating to services
furnished and payments received under the med-

168a
ical assistance program, including patient histories, case files and patient-specific data;
(h) that the information provided in relation to any
claim for payment shall be true, accurate and complete; and
(i) to comply with the rules, regulations and official
directives of the department.
540.6 Billing for medical assistance.
(a)
(1) Claims for payment for medical care, services or
supplies furnished by any provider under the medical assistance program must be initially submitted
within 90 days of the date the medical care, services or supplies were furnished to an eligible person
to be valid and enforceable against the department
or a social services district, unless the provider’s
submission of the claims is delayed beyond 90 days
due to circumstances outside of the control of the
provider. Such circumstances include but are not
limited to attempts to recover from a third party
insuror, legal proceedings against a responsible
third-party or the recipient of the medical care,
services or supplies or delays in the determination
of client eligibility by the social services district.
All claims submitted after 90 days must be accompanied by a statement of the reason for such delay
and must be submitted within 30 days from the
time submission came within the control of the
provider, subject to the limitations of paragraph (3)
of this subdivision.

